<html>
<title> - RESPONSE OF THE TECHNOLOGY SECTOR IN TIMES OF CRISIS</title>
<body><pre>[Senate Hearing 107-1118]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1118



                   RESPONSE OF THE TECHNOLOGY SECTOR 
                           IN TIMES OF CRISIS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, 
                               AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 5, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
89-682 PDF               WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida

               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                  Mark Buse, Republican Staff Director
               Jeanne Bumpus, Republican General Counsel

                              ----------                              

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                      RON WYDEN, Oregon, Chairman
JOHN D. ROCKEFELLER IV, West         GEORGE ALLEN, Virginia
    Virginia                         TED STEVENS, Alaska
JOHN F. KERRY, Massachusetts         CONRAD BURNS, Montana
BYRON L. DORGAN, North Dakota        TRENT LOTT, Mississippi
MAX CLELAND, Georgia                 KAY BAILEY HUTCHISON, Texas
JOHN EDWARDS, North Carolina         SAM BROWNBACK, Kansas
JEAN CARNAHAN, Missouri              PETER G. FITZGERALD, Illinois
BILL NELSON, Florida




                            C O N T E N T S

                              ----------                              

                                                                   Page
Hearing held on February 5, 2001.................................     1
Statement of Senator Allen.......................................     3
Statement of Senator Cleland.....................................    28
Statement of Senator Nelson......................................    22
Statement of Senator Wyden.......................................     1

                               Witnesses

Allbaugh, Hon. Joseph M., Director, accompanied by Ron Miller, 
  Assistant Director, Federal Emergency Management Administration 
  (FEMA).........................................................    10
Cochetti, Roger, J., Senior Vice President and Chief Policy 
  Officer, VeriSign, Inc.........................................    36
    Prepared statement...........................................    38
Coppernoll, Julie, Technical Assistant to the Chairman of the 
  Board, Intel Corporation.......................................    41
    Prepared statement...........................................    44
Marburger III, Dr. John H., Director, Office of Science and 
  Technology Policy..............................................     5
    Prepared statement...........................................     8
McCaw, Craig O., Chairman and Chief Executive Officer, Eagle 
  River, Inc.....................................................    23
    Prepared statement...........................................    26
Pelgrin, William F., Director, New York State Office of 
  Technology.....................................................    46
    Prepared statement...........................................    48
Roche, Sarah, Director, Client Services, Upoc, Inc...............    52
    Prepared statement...........................................    54
    Prepared statement of Alex LeVine, Vice President of 
      Operations, Upoc, Inc......................................    55
Rohleder, Stephen J., Managing Partner, USA Government Market 
  Unit, Accenture................................................    58
    Prepared statement...........................................    60
Sandri, Joseph, Senior Vice President and Regulatory Counsel, 
  Winstar 
  Communications.................................................    64
    Prepared statement of Timothy R. Graham......................    67

                                Appendix

American Radio Relay League, the National Association for Amateur 
  Radio, prepared statement......................................    87
United Telecom Council, prepared statement.......................    90

 
          RESPONSE OF THE TECHNOLOGY SECTOR IN TIMES OF CRISIS

                              ----------                              


                      WEDNESDAY, DECEMBER 5, 2001

                               U.S. Senate,
    Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9 a.m. in room 
SR-253, Russell Senate Office Building, Hon. Ron Wyden, 
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. The Subcommittee on Science, Technology, and 
Space will come to order. Today the Subcommittee on Science, 
Technology, and Space of the Senate Commerce Committee begins a 
series of hearings to examine technology and science issues 
stemming from the events of September 11th, 2001.
    Just as John F. Kennedy gave America's youth a forum for 
public service, I believe now is the moment that government 
should throw open its doors to the ideas, the creativity and 
the energy of our best scientists and technology experts 
willing to fight the terrorist threat. It is time to mobilize a 
generation raised on information technologies to respond to 
terrorism. Let us use the latest innovations in fields like 
biometrics to help prevent terrorist acts like those of 
September 11th.
    The Subcommittee's first hearing on this subject is going 
to focus on information technology. When terrorists struck New 
York and the Pentagon, telecommunications and information 
networks were flattened by the blow. Land-line and cellular 
communications were hit hard by an incredible spike in volume, 
as well as strikes to key assets such as cell towers on the 
Trade Center and the Verizon hub near Ground Zero. Many 
wireless calls, including those of rescue workers, simply 
couldn't get through.
    As emergency workers moved in, they were also hindered by 
the fact that their communications systems were incompatible 
and simply couldn't work together. In a hearing before this 
Subcommittee, a fire chief responding to the attacks of 9/11 
said that, at times, his only means of communicating directions 
to firefighters on the front lines were handwritten notes 
delivered by runners on foot. These courageous emergency 
workers have told us that the communications breakdowns made 
their job more difficult and more dangerous.
    There were also organizational challenges: the inability to 
track to which hospitals victims were sent, the inability to 
match would-be volunteers with needs, and the lack of backup 
systems for organizations overwhelmed with information.
    A true hope for overcoming these obstacles is to tap the 
potential of scientists and technology experts. The government 
must create a clear structure to accept and utilize the 
treasure trove of technological counsel, state-of-the-art 
equipment, and hands-on help that is available. The Nation's 
technology leaders tell me that they can contribute most 
effectively if they have organization and a clear chain of 
command. Key Federal agencies say they're willing to establish 
a single point of contact for technology companies and a 
consistent, governmentwide policy for creating that necessary 
organization. I am determined to hold both the Congress and the 
entire Federal Government accountable to get this job done 
quickly.
    There are a variety of ways that this could be tackled.
    I believe the government should consider establishing the 
technology equivalent of the National Guard. I describe it as a 
National Emergency Technology Guard, or NETGuard, a cadre of 
volunteers with extensive technology expertise to move in in a 
moment's notice, not just to fix what's broken, but to create 
whatever systems are needed most. That could mean repairing and 
recreating compromised communications systems, setting up 
command centers, or setting up databases to track the missing 
and the injured.
    There are other roles that such a volunteer force could 
play. The group could help establish and maintain a strategic 
technology reserve. Companies could commit to lend their latest 
and best hardware and software whenever disaster strikes, with 
trained volunteers able to set it up and implement it in 
minutes. A Strategic Technology Reserve would be a virtual, as 
well as a physical, stockpile.
    This volunteer force could play a preventive role, as well, 
offering local officials advice on how to set up their computer 
and communications systems to minimize vulnerability to hacking 
and physical attacks. They could also assist in creating and 
executing emergency drills and maintaining an ongoing database 
of volunteers and their scientific and technological expertise.
    There are other policy issues to consider. This 
Subcommittee has been told that Federal rules prohibit some 
government agencies from accepting donations of state-of-the-
art equipment, no matter how urgent the need to fight 
terrorism. We have learned that there are restrictions on 
private companies sharing information, even in a crisis. We 
have learned that there is an urgent need for policies that 
encourage compatibility between emergency communications 
systems, to keep those first responders from having to use 
runners when disaster strikes.
    It is time to create a high-technology reserve, a talent 
bank that serves as a new force to confront a new threat. This 
can be done without creating big new bureaucracies, and there 
ultimately should be a modest role for the Federal Government. 
This Subcommittee is going to work on a bipartisan basis with 
the Administration and our colleagues in the Congress to help 
our scientists and technology experts marshal their ingenuity 
and talents to respond to terrorism.
    Before I go to our witnesses, I want to offer a couple of 
special thank yous. To accomplish anything significant in the 
technology and science field, it is absolutely critical to have 
bipartisan support. And I want to express my personal 
appreciation to the Bush Administration, to Richard Clarke, to 
Dr. Marburger, and to Joe Allbaugh. The Administration has been 
consistently supportive in efforts to examine these ideas, and 
we are appreciative. I also want to thank Andrea Richet, 
founder of the Charity Mouse, which helps wire public schools, 
who has been very instrumental in helping this Subcommittee 
examine these issues.
    We have a distinguished panel of witnesses today. Dr. Joe 
Allbaugh, from the Federal Emergency Management Agency; Dr. 
John Marburger, Director of the Office of Science and 
Technology Policy; Craig McCaw, a pioneer of the cellular 
telephone industry; Julie Coppernoll, of Intel; Joe Sandri, of 
Winstar; Stephen Rohleder, of Accenture; Roger Cochetti, of 
VeriSign; and Will Pelgrin, Executive Commissioner of the New 
York Governor's Office of Technology.
    Before we go to our witnesses, I want to recognize my 
friend and colleague, Senator Allen--it has been a pleasure to 
team up with him already on a number of technology issues--for 
any comments that you would like to make.

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you. Thank you, Mr. Chairman.
    Good morning to you all. Mr. Chairman, I want to begin by 
thanking you for calling this hearing and for your leadership 
on this very important issue. Let me make my accolades again to 
the Chairman, or did you get it?
    [Laughter.]
    Again, Mr. Chairman, thank you for your leadership and good 
morning to everyone here. I do also want to express my 
gratitude to the witnesses who you list off as an outstanding 
list of individuals headed by Dr. Marburger and Director 
Allbaugh and Mr. McCaw and a variety of companies that are very 
important in the diverse technology industry to help us do a 
better job in the future.
    This morning, I hope, Mr. Chairman, to learn from the 
September 11th terrorist attacks. Whenever you're attacked, you 
have to do an analysis of how did it happen, what was the 
response, and how can we do a better job in the future, and 
also where we need specifically to do a better job in the 
United States in the future if there are such national 
emergencies, whether they are such terrorist attacks, whether 
they are on buildings or other attacks, which we may not want 
to say publicly, but have to have contingencies before reaction 
and response if they should befall our Nation.
    As the Chairman mentioned, this attack on September 11th 
clearly was something that devastated our country 
psychologically, but the confusion that arose right after the 
attack played havoc with our Nation's telecommunications 
infrastructure. The collapse of the World Trade Center left 
hundreds of thousands of New Yorkers without either phone or 
television capabilities. We find here that--a lot of times--
most people found out about the attacks listening to the radio 
or watching TV before there was even an announcement by the 
President. There was going to be an announcement by the 
President that the attacks had occurred, the bombing was 
starting in Afghanistan. The television and phone capabilities 
are the way we communicate and react, and there's a great deal 
of confusion if that is not capable.
    The cellular phone system was overloaded in New York, 
Virginia and DC. Those of us who were living here--everyone--
were worried about what was going on. We were trying to 
communicate and coordinate, and the cell coverage was obviously 
overloaded creating communications problems for people who 
wanted to know how their loved ones were, but also it was a 
problem for emergency services. The communications breakdown 
caused confusion, it heightened concerns for many Americans. As 
the Chairman Senator Wyden enunciated very clearly, the fire, 
the rescue, the police organizations and coordination all were 
harmed by that.
    The aftereffects of this disaster hampered relief efforts 
in many emergency aid organizations. The Red Cross reported 
that its toll-free emergency lines were inaccessible to 
thousands of callers.
    Now, Mr. Chairman, I see the purpose of this hearing today 
is to investigate what Congress can do to help prevent this 
kind of communications breakdown and its aftereffects in the 
future. I was heartened to see that, regardless of any 
governmental action, that so many stories of generous companies 
such as Intel, Verizon, Winstar, Accenture, and Cingular 
volunteered both staff and equipment to restore communications 
in New York and in Washington, DC. The Nation thanks you for 
your timely assistance during this emergency.
    However, our communications should be capable of performing 
better in the future. It is important to ensure that our 
telecommunications network remains functional after an attack, 
and I look forward to hearing how the Federal Government can 
better coordinate with, not tell, private companies, but 
coordinate with private industry to get a quicker and more 
efficient response for future emergencies. In addition, I think 
we ought to examine the telecommunications and Internet 
networks to make sure that they are designed to remain 
functional in response to any critical attacks or strikes.
    Chairman Wyden has also proposed the National Emergency 
Technology Guard, or NETGuard, that will have the capability to 
respond to future crises. I look forward to working with you, 
Mr. Chairman, on this issue, and I especially like the idea of 
an all-volunteer force based on the best and the brightest 
minds in the technology workforce of the United States. Leaders 
in the technology sector have made the United States a world 
leader in technology, and I would like to certainly listen to 
their ideas on this issue. I think it is also important to make 
sure that the government does not duplicate the existing 
efforts in the private sector and works within the existing 
Federal critical infrastructure protection programs.
    Additionally, I hope we can continue to support the 
government efforts to work with the private industry to conduct 
a post-attack analysis of the collapse of the World Trade 
Center and the surrounding infrastructure. That's more of an 
engineering--physical engineering matter, but this analysis 
will help to develop, I hope, new guidelines to assess the 
vulnerability of the existing system and improve future safety 
and security of major buildings and facilities, including the 
physical and technological infrastructure.
    In sum, Mr. Chairman, technology can and must play a major 
role in helping prepare for future crises, and we should ensure 
that the diverse high-tech sector is mobilized to help prevent 
and respond to any future crisis. And so, again, I thank you, 
Mr. Chairman, for holding this hearing, and I look forward to 
hearing and learning from the inside testimony of these 
esteemed, respected witnesses. Thank you, Mr. Chairman.
    Senator Wyden. Well, thank you for that excellent 
statement. And, as we have done on a variety of issues already, 
we're going to be working closely together, and I thank you 
very much for your statement.
    Gentlemen, as you can see, there's bipartisan support 
already established on these key questions. We thank you. You 
both have been extremely cooperative.
    By your own agreement, I think we will begin with Dr. 
Marburger. I know both of you have tight schedules. Dr. 
Marburger, why don't you proceed as you wish? We will make your 
prepared statement a part of the record in its entirety.
    Welcome.

       STATEMENT OF DR. JOHN H. MARBURGER III, DIRECTOR, 
            OFFICE OF SCIENCE AND TECHNOLOGY POLICY

    Dr. Marburger. Thank you very much, Mr. Chairman and 
Senator Allen. I'm pleased to have the opportunity to testify 
on the response of the science and technology sector to this 
war on terrorism. The Office of Science and Technology Policy 
is playing a significant role in this response, and I want to 
describe this for you today. My testimony will deal with a 
somewhat longer-range, longer-term response, although still 
somewhat short-term, as opposed to Director Allbaugh's function 
of dealing with immediate responses to situations.
    Those of us who are engaged in the Federal response to 
these attacks have been very impressed by the avalanche of 
offers to assist, from Americans who want to help in any way 
they can. And I have attempted to grasp the scope of this 
volunteered assistance and to shape the Federal interface to 
mobilize it effectively in support of the Nation's war against 
terrorism.
    So during these few months that I have been in office, I 
have been meeting with industry associations, non-profit 
groups, umbrella organizations for universities, and scientific 
societies, the national academies. And we've attempted to 
establish and have succeeded in establishing well-defined 
relationships with these entities to receive input from and 
provide Federal guidance to their own antiterrorism projects 
and initiatives. At the same time, we've exercised our 
congressional and Executive mandates to coordinate activities 
within the Federal agencies relevant to national issues, 
relevant to terrorism issues.
    OSTP is consequently in a position to call on 
organizations, both external and internal to the Federal 
Government, as we provide technical support to the Office of 
Homeland Security and other offices responsible for different 
aspects of this war against terrorism.
    And I do want to acknowledge here my thanks to you for 
raising my consciousness of the need to reach out in this way 
by your remarks during my confirmation hearing, Mr. Chairman. I 
know that you've been thinking about how to enlist the Nation's 
considerable technical expertise to address national 
challenges, the current war against terrorism and homeland 
security being the most immediate. And consequently, I've acted 
on this idea of yours to recruit talent in a systematic way. 
And it has been a topic of discussion in every one of the 
meetings that I mentioned earlier.
    Some of the organizations I met with are umbrellas for 
entire sectors of science, industry and higher education. And I 
will just give one example, and you can read the others in my 
written testimony. The American Counsel on Education provides a 
very efficient and rapid means of communicating with the entire 
higher education sector. Its President, Dr. David Ward, has 
encouraged positive action by every branch of our very complex 
post-secondary education system through weekly communications 
by e-mail that go across the entire post-secondary sector. 
Also, the national academies have been quite concerned about 
terrorism issues and have created a committee specifically to 
interact with Federal agencies on terrorism, and we have been 
attempting to provide a uniform interface with their committee.
    As a result of my meetings with these organizations, I've 
concluded that a virtual science corps already exists and that 
creative use of existing public- and private-sector mechanisms 
can help make present networks stronger and more effective.
    To take advantage of these mechanisms, I have acted to 
coordinate Federal agency activities related to terrorism and 
provide a coherent interface between the Federal Government and 
the non-governmental organizations described above. I won't go 
into detail about all my activities, which are recorded in the 
testimony, but I began in late October by calling a meeting of 
chief science officials from more than 15 Federal agencies to 
discuss the role of science and technology in combating 
terrorism, and we have been working together since then to take 
advantage of crosscutting mechanisms that already exist to make 
these volunteer efforts more effective.
    Under the structure of the National Science and Technology 
Council, for example, I am establishing an interagency 
antiterrorism task force with several working groups to address 
broad categories of issues. One of these task forces is a 
technical response team which will be an action-oriented team 
that will establish small subgroups on an ad hoc basis to 
grapple with emergencies as they arise. The team will serve as 
a clearinghouse for technical reviews of the many incoming 
proposals on technologies related to homeland security. And it 
is important that we assess these proposals for scientific 
merit and refer them, as necessary, to the appropriate agency 
or organization for further review, et cetera.
    In this connection, we have been working closely with the 
National Coordination Office for Information Technology R&D--
it's NCOITRD--in the Department of Commerce to respond to these 
offers. This organization will be developing a repository 
database of non-government people that have offered their 
expertise to help the Federal agencies counter terrorism. 
Contact information and relevant expertise will be available on 
a password-protected Web site for access by authorized persons 
in the Federal Government to connect critical human resources 
to the important work of both agencies and the national 
academies, which will also have access.
    As a case study of how virtual science corps can work 
within the context of the Federal agencies, I want to mention 
the technical support that our office, OSTP, is providing to 
the Office of Homeland Security. During the fourth week of 
October, Governor Ridge called me to ask that OSTP provide 
technical support for the treatment of U.S. mail potentially 
contaminated by Bacillus anthracis.
    The day after his phone call, I convened an interagency 
meeting with chief science officials and U.S. Postal Service to 
ascertain the technical issues that the postal service was 
encountering. My ability to act quickly was enhanced by the 
fact that I had already taken steps to call together the chief 
scientists of a larger number of agencies. This action led to 
the formation of an interagency technical team that, within 
days, began evaluating the irradiation facilities at Lima, Ohio 
and Bridgeport, New Jersey.
    The point here is that when the request came to OSTP, we 
were able to assemble an interagency team--five agencies were 
involved--quickly and formulate a plan of attack that has 
worked. In this case, most of the needed expertise existed 
already within Federal agencies and the U.S. Postal Service, 
but some of our meetings on the mail issue have included 
experts from higher education and non-governmental 
organizations identified by the participating agencies. And in 
the future, I expect it will be necessary to continue to reach 
out beyond the agencies through the network of non-governmental 
organizations to tap the immense reservoir of talent that 
exists in the private sector.
    OSTP has a broad role for coordination and partnership 
building, but it does not play an operational role. We don't 
give grants. We don't have line--or responsibility, as FEMA 
does, for execution. We do not compete with other agencies. We 
do not duplicate agency expertise, but rather we act as 
coordinators and recruiters of technical expertise in the 
service of governmental policymakers and line managers. Because 
of our historical crosscutting role, I believe OSTP can do this 
rapidly and efficiently.
    I have a section in my written statement on preparedness, 
and some specific questions and responses that you may be 
interested in that I will omit in the interest of time.
    An overarching goal for all of our efforts that I have 
described is coordination of the activities of all of those who 
can contribute to ensuring that our Nation is safer. We're 
drawing upon the technical expertise housed in our science and 
technologies agencies, making sure that relevant information 
and test results are disseminated to the appropriate parties 
and preventing duplication of effort. I have been very 
impressed with the breadth and depth of scientific and 
technological resources available within the Federal Government 
to address the major challenges we are facing today, great as 
they are, but I'm just as certain that those resources will not 
be used to their greatest effect unless we join forces and 
resolve technical issues together with all of the expertise we 
can bring to bear upon that.
    Thank you, Mr. Chairman, for this opportunity.
    [The prepared statement of Dr. Marburger follows:]
           Prepared Statement of Dr. John H. Marburger III, 
           Director, Office of Science and Technology Policy
    Good Morning Mr. Chairman and Members of the Subcommittee. I am 
pleased to have this opportunity to testify on the response of the 
science and technology sector to the war on terrorism. OSTP is playing 
a significant role in this response that I want to describe for you 
today.

                                OUTREACH
    Those of us engaged in the Federal response to the terrorist 
attacks have been impressed by the avalanche of offers to assist from 
Americans who want to help in any way they can. During my brief tenure 
as Director of OSTP, I have endeavored to grasp the scope of this 
volunteered assistance, and to shape a Federal interface to mobilize it 
effectively in support of the nation's war against terrorism. To this 
end, I have been meeting with industry associations, non-profit groups, 
umbrella organizations for universities and scientific societies, and 
the National Academies. OSTP has established well-defined relationships 
with these entities to receive input from and provide guidance to their 
own antiterrorism projects and initiatives. At the same time, OSTP has 
exercised its congressional and executive mandates to coordinate 
activities within the Federal agencies relevant to terrorism issues. 
OSTP is consequently in a position to call on organizations external 
and internal to the Federal Government as we provide technical support 
to the Office of Homeland Security, and other offices responsible for 
different aspects of the war against terrorism.
    I wish to acknowledge here, with gratitude, that my awareness of 
the need to reach out in the way I have described was quickened by your 
remarks, Mr. Chairman, during my confirmation hearing. I know that you 
had been thinking about how to enlist the nation's considerable 
technical expertise to address national challenges--the current war 
against terrorism and homeland security being the most immediate. 
Consequently, I have acted on this idea of yours to recruit talent in a 
systematic way. It has been a topic of discussion in every one of the 
many meetings I described above.
    Some of these organizations are umbrellas for entire sectors of 
science, industry, and higher education. The American Council on 
Education, for example, provides a very efficient and rapid means of 
communicating with the entire higher education sector. Its President, 
Dr. David Ward, has encouraged positive action by every branch of the 
complex post-secondary educational system through weekly 
communications. The American Association of Universities provides more 
direct access to the leaders of the institutions that perform most of 
the nation's federally sponsored research. The National Association of 
State Universities and Land Grant Colleges is a link to the entire set 
of public universities, which carry out important research and 
extension services throughout the nation. The National Academies for 
Science, Engineering, and Medicine provide similar access to the 
nation's research community, as do the various disciplinary 
professional societies such at the American Physical Society, the 
American Chemical Society, etc., and their umbrella organization, the 
Council of Scientific Society Presidents. The officers of these 
organizations have expressed a willingness to designate a point of 
contact for terrorism issues, and in some cases they have formed 
committees and working groups to address specific issues such as 
bioterrorism. The National Academies, in particular, have created a 
committee specifically to interact with Federal agencies on terrorism.
    As a result of my meetings with these organizations, I concluded 
that a ``virtual science corps'' has already come into existence, and 
that creative use of existing public and private sector mechanisms can 
help make present networks stronger and more effective.

                        INTERAGENCY COORDINATION
    To take advantage of these mechanisms, I have acted to coordinate 
Federal agency activities related to terrorism, and provide a coherent 
interface between the Federal Government and the non-governmental 
organizations described above.
    In October, I called a meeting of chief science officials from more 
than 15 agencies to discuss the role of science and technology in 
combating terrorism. Several representative agencies made presentations 
on their current antiterrorism-related activities, and all were asked 
for additional input to follow up the meeting. I convened a second 
meeting of this group in November to discuss current activities of OSTP 
and the formation of a new antiterrorism task force under the National 
Science and Technology Council. These meetings gave science officials 
from various agencies an opportunity to interact and discuss areas of 
potential cooperation. It also provided a data base of contacts that 
could be immediately contacted when necessary. Representation by other 
offices in the White House in these and other terrorism-related 
meetings varies but generally includes: OMB, Office of Homeland 
Security, Domestic Policy Council, Office of the Vice President, and 
Cabinet Affairs.
    Under the structure of the National Science and Technology Council, 
I am establishing an interagency Antiterrorism Task Force with several 
working groups to address broad categories of issues. The four 
categorical working groups focus on Biological/Chemical Detection and 
Response; Radiological/Nuclear/Conventional Detection and Response; 
Protection of Vulnerable Systems; and Social, Behavioral, and Education 
Sciences. We are establishing a Technical Response Team as a fifth 
working group. This action-oriented team will establish small subgroups 
on an ad hoc basis to grapple with emergencies as they arise. The team 
will serve as a clearinghouse for technical reviews of the many 
incoming proposals on technologies related to homeland security. It is 
important that these proposals be assessed for scientific merit and 
referred, as necessary, to the appropriate agency or organization for 
further review, feedback, and action as appropriate.
    Many of these proposals have come directly from individuals, and 
many individuals have volunteered their services to assist in the war 
against terrorism. In this connection, we have been working closely 
with the National Coordination Office for Information Technology R&D 
(NCOITRD) in the Department of Commerce to respond to these offers. The 
NCOITRD will be developing a repository/data base of non-government 
people that have offered their expertise to help the Federal agencies 
counter terrorism. Contact information and relevant expertise will be 
available on a password-protected website for access by authorized 
persons in the Federal Government to connect critical human resources 
to the important work of both agencies and the National Academies.

                  HOMELAND SECURITY TECHNICAL SUPPORT
    As a case study of how a ``virtual science corps'' can work within 
the context of the Federal agencies is the technical support OSTP is 
providing to the Office of Homeland Security. During the fourth week in 
October, Governor Ridge called me to ask that OSTP provide technical 
support for the treatment of U.S. mail potentially contaminated by 
Bacillus anthracis. The day after his phone call I convened an 
interagency meeting with chief science officials and the U.S. Postal 
Service to ascertain the technical issues that the Postal Service was 
encountering. This led to formation of an interagency technical team 
that within days began evaluating the irradiation facilities at Lima, 
Ohio, and Bridgeport, New Jersey. The key point is that when the 
request came to OSTP, we were able to assemble an interagency team 
quickly and formulate a plan of attack that has worked. In this case, 
most of the needed expertise existed within Federal agencies and the 
U.S. Postal Service. Some of our meetings on the mail issue have 
included experts from higher education identified by the participating 
agencies. In the future, I expect it will be necessary to reach out 
beyond the agencies through the network of non-governmental 
organizations to tap the immense reservoir of talent that exists in the 
private sector.
    Congress has mandated that OSTP establish partnerships across 
Federal, state, and local levels, as well as fostering public-private 
partnerships in general, and this role may be of special value in 
meeting the diverse challenges of homeland security. OSTP does not play 
an ``operational'' role that would compete with agencies, and we do not 
duplicate agency expertise. Rather we act as coordinators and 
recruiters of technical expertise in the service of governmental 
policymakers and line managers. Because of our historical cross cutting 
role, we can do this rapidly and efficiently.

                              PREPAREDNESS
    Last month, the President signed an Executive Order to establish a 
Presidential Task Force on Citizen Preparedness in the War on 
Terrorism. This task force is co-chaired by the heads of the Office of 
Homeland Security and the Domestic Policy Council and is to identify, 
review, and recommend appropriate means by which the American public 
can enhance the nation's defenses against terrorism through voluntary 
actions. I have taken the President's message forward in meetings with 
the scientific and technical community and found especially strong 
interest in supporting State and local public health and safety 
officials in combating possible terrorist attacks within the United 
States.
    Mr. Chairman, I know you have been an articulate advocate of the 
idea that there should be a national volunteer organization of trained 
and well-coordinated IT professionals from U.S. technology companies. 
And that they would stand ready with computer equipment, satellite 
dishes, wireless communicators and other resources to recreate and 
repair compromised communications and technology infrastructures.
    While there are many associated issues that will need to be 
considered, let me however suggest the following:
    1. It seems logical to have a diversity of means for ensuring 
communications, e.g., satellites as well as land lines; 2. We should 
encourage voluntary preparedness, such as the IT disaster recovery 
procedures, which helped so many firms return to business quickly after 
September 11th; 3. We should promote voluntary standards that enhance 
the effective coordination of disaster responses, such as the U.S. 
National Grid map standard for geospatial information systems; \1\ and 
4. We need to pay attention to protecting our ``invisible 
infrastructure,'' the radio spectrum, which enables public safety 
services like the Global Positioning System and E-911 for wireless 
communication.\2\
---------------------------------------------------------------------------
    \1\ The USNG standard for uniform presentation of geospatial 
information is now being voted on for adoption as part of the National 
Spatial Data Infrastructure by the FGDC Steering Committee.
    \2\ E-911 enables emergency services to locate mobile phones 
placing 911 emergency requests.
---------------------------------------------------------------------------
    I believe that having a diverse portfolio of communication choices, 
common sense preparedness, standards and protocols for working 
together, and reliable public safety services will help enable us to 
weather and defeat any terrorist attacks on our IT infrastructure.

                               CONCLUSION
    An overarching goal for all of the efforts I have described is 
coordination of the activities of all those who can contribute to 
ensuring that our Nation is safer. We are drawing upon the technical 
expertise housed in our science and technology agencies, making sure 
that relevant information and test results are disseminated to the 
appropriate parties, and preventing duplication of effort.
    In the short time I have been in this position, I have been 
impressed with the breadth and depth of scientific and technological 
resources available within the Federal Government to address the major 
challenges we are facing today--great as they are. But I am just as 
certain that those resources will not be used to their greatest effect 
unless we join forces and resolve the technical issues together.

    The Chairman. Dr. Marburger, thank you. Your testimony was 
very helpful, and we'll have some questions in a moment.
    Director Allbaugh.

        STATEMENT OF HON. JOSEPH M. ALLBAUGH, DIRECTOR, 
    ACCOMPANIED BY RON MILLER, ASSISTANT DIRECTOR, FEDERAL 
           EMERGENCY MANAGEMENT ADMINISTRATION (FEMA)

    Mr. Allbaugh. Thank you, Mr. Chairman. Chairman Wyden, 
thank you for the opportunity to be here this morning. Senator 
Allen, always great to see you. Senator Nelson, good to see 
you, sir.
    I don't have any prepared remarks, but I do have several 
points that I think I should make, and then I would be happy to 
respond to any of your questions.
    I do appreciate the Subcommittee's willingness to take on 
this very tough issue in the area of communications and 
technology. A lot of these problems, quite frankly, have 
existed prior to the September 11th attack at the Pentagon and 
in New York City. And in the world of first responders, we see 
these types of problems crop up every time there is an 
incident.
    As you know, as a result of those attacks, particularly in 
New York City, the New York City Fire Department lost its 
entire leadership command structure, so communication was even 
inhibited further by the fact of years and years of experience 
vanished in the blink of an eye. At the Pentagon, we had--if 
you can say we were luckier, but the site was more restricted, 
so the Arlington and Alexandria Fire Departments, along with 
Urban Search and Rescue Teams from Montgomery County and 
Fairfax County didn't have to walk, you know, 12 miles to have 
a conversation with someone who was in the command structure.
    Facilitating orders, decisions that need to be communicated 
effectively, will do more to save lives than just about 
anything that I can think of and that I have come across in the 
short 10 months I've been in this position. I would like to 
speak specifically beyond those to particular problems and 
several others that I believed hindered our ability to 
communicate on September 11th, which you should be aware of.
    In New York City, the Emergency Operations Center, where 
they had spent quite a bit of money--New York City had spent 
quite a bit of money establishing and Building 7, a first-class 
state-of-the-art operations center, where they brought in all 
the city agencies, all the Federal agencies, the State 
agencies, to coordinate and cooperate under one roof--was 
decimated. So as a result, we were not able to work out of 
their emergency operations center. Our team quickly helped the 
city establish a new operations center at Pier 92, and then we 
had to establish our own operations center significantly down 
the street from where action central was, which was near Ground 
Zero, lower Manhattan.
    The loss of local communications infrastructure required 
us, losing that building, to rely upon satellite communication, 
wireless networks, satellite phones. It is most imperative when 
an incident is ongoing that we have accurate information. And 
if you can't talk to individuals who are on the ground at the 
site, you do not make very wise decisions and oftentimes put 
further lives in jeopardy and at risk.
    I activated 8 of our 28 Urban Search and Rescue Teams, 
national organizations, sent 8 of those two New York. We had 3 
or 4 initially at the Pentagon. And it was frustrating, 
especially the first week--a lot of chaos. Individuals, as you 
alluded to, Mr. Chairman, had to communicate via messengers, 
runners, passing of notes. The system was totally overburdened. 
Except for our own infrastructure, using satellites, we 
virtually had no way to communicate, other than face-to-face, 
which takes time and, again, puts further lives at risk.
    Another issue that we had to deal was the self-dispatching 
of several emergency response organizations. And because we 
didn't have a way to communicate with those individuals, they 
would show up willy-nilly, quite frankly, adding a greater 
burden to an already stressed infrastructure. I would say that, 
in particular, and in regard to New York City, that massive 
event, had it happened anywhere else, the local responders 
would have been totally overwhelmed. But, fortunately, New York 
City, given its size--8 million people, 14,000 firefighters, 
40,000 police officers--they had the infrastructure to make it 
work in spite of the communications breakdowns.
    Private information technology donations were helpful, but 
not greatly helpful. And there were often strings attached. And 
I think the Subcommittee should be aware of those strings. 
Oftentimes, we would have individuals come in our operations 
center at Pier 94, offering technology that was not exactly 
state-of-the-art, wasn't as current as what we have at FEMA or 
New York City's fire and police department. And it basically 
consisted of excess or discontinued items that some companies, 
quite frankly, wanted to just get out of their inventory.
    A lot of the so-called ``free'' products and services came 
with a bill at the end of the initial response phase of the 
incident, particularly in New York City, less so at the 
Pentagon. Since it was, essentially, a military establishment, 
we could control access in a much greater way, which helped all 
of those first responders. Other equipment was free to acquire, 
but there was money attached at the end to maintain that 
particular service afterwards.
    There is no centralized database to manage donated goods or 
services throughout the Federal Government--nowhere--so 
everyone would show up at the front door wanting to donate. We 
didn't have a system. We had to create a system in conjunction 
with the City of New York and the State of New York, which 
works right now, but it is not the type of system that we need 
as a Federal entity responding to these events.
    There really wasn't a centralized go-to desk staffed by 
industry individuals who could serve as brainpower or a brain 
trust for immediate needs--SWAT teams or other teams of 
experts. We could have used, in New York City, industry experts 
to come in on that first day and help us set up a database to 
track, not only those individuals who were missing, all the 
goods and services that were being donated. It was just total 
chaos, and there's no other way to describe it. Eventually, 
weeks after the incident, we were able to put together a 
database, but it would have been helpful to draw upon the 
brainpower out here at the corridor or in Silicon Valley or 
anywhere in the United States to help us do a better job of 
managing the massive amounts of information that we were 
deluged with and at the same time continuing with our principal 
responsibility of saving lives and protecting property.
    And all of these things together, they're really not, by 
themselves, technology problems. These are problems that 
ultimately cost lives. We owe it to the American people to 
bring together the best available technology to the table when 
a disaster strikes. And I think we, at FEMA, are on the cutting 
edge, as much as our budgets will allow, as much as the 
technology that is affordable will allow. We have access to 
that, and so we can save lives and property to the maximum 
extent possible.
    Public and private sector IT professionals do need to come 
together, and so I do appreciate this opportunity to, not 
necessarily force, but, in a cooperative spirit, ask everyone 
to the table, in a smart, coordinated fashion, to talk about 
delivering state-of-the-art technical solutions. This 
Administration, through Governor Ridge, Homeland Security, 
others are working on ways to deal with the issue. We, at FEMA, 
are staffing and supporting these efforts, and I look forward 
to a continuing and coordinating effort with this Subcommittee 
and the Office of Homeland Security as we move forward to find 
solutions.
    I brought with me today one of my assistant directors, Ron 
Miller, who is responsible for all of our IT, from top to 
bottom, at FEMA. He is available to answer any technical 
questions which probably will be beyond me, Senator, quite 
frankly, but I can surf the Net and turn on my computer, 
contrary to what my staff says. He's been working on a variety 
of issues dealing in this arena. He's been onboard for a short 
period of time. He is my go-to person at any one of these 
incidents that we have. He has a fabulous staff, well-trained.
    And I thank you for the time to appear this morning, and I 
look forward to trying to answer any of your questions, 
Senator.
    Senator Wyden. Director Allbaugh, thank you. And Senator 
Allen and I will divide up the time. I know both of you have 
just a few minutes at this point.
    It seems to me that the challenge is all about the nuts and 
bolts of organizing this effort. We know the science and 
technological talent is out there. Both of you have said you 
are very interested in it. We essentially need the system put 
in place to get it done. For example, to have a system so as to 
distinguish between the many, many companies who want to help 
and are willing to make satellite trucks, wireless systems, 
computers, routers, and all of this technology available would 
be very helpful, along with how to distinguish that from some 
of those that you, Director Allbaugh, have talked about that 
really were just looking, perhaps, to discard something or 
figure out a way to make a buck.
    I think the vast majority of people in the private sector 
want to help and have good motives. Now it's sort of the nuts 
and bolts task of figuring out how to help those companies know 
where to go, what it is the government needs at any particular 
time, and to put this in place.
    Can the two of you tell us how, in your view, the Executive 
Branch can make this interaction work more smoothly? Let's have 
both of you take a crack at it.
    Mr. Allbaugh. From my perspective, the best thing to do is 
to locate in one area, one-stop shopping, not only for those of 
us in the Federal Government, but those in the private sector 
right now. If you're in the private sector, my guess is you 
have to go to a multitude of agencies to talk about a variety 
of issues. We ought to be able to go to one place who knows 
where all the resources are located and can figure out where 
they need to be distributed.
    For FEMA, it would be very helpful if that responsibility 
was located in one location. That way we do not have to set up 
our own shop to test software, test equipment, and can receive 
valid offers from the private sector.
    And I agree with you, Mr. Chairman, the vast majority of 
the private sector wants to be in a helpful situation. 
Oftentimes, they are perplexed, as I hear, as to where they 
need to go to make the latest state-of-the-art technology aware 
and known to those of us in the Federal Government.
    And so that would be the greatest service that we could 
provide. And I think that the President--I know that the 
President, Governor Ridge, along with Dr. Marburger, are off on 
this venture to figure out exactly where it needs to be 
located.
    Senator Wyden. Dr. Marburger.
    Dr. Marburger. Certainly the concept of one-stop shopping 
was one of the drivers for the creation of the Office of 
Homeland Security. And the coordinating function of OSTP was 
certainly in the minds of Congress when they established, in 
1976, a very broad mandate for interagency coordination.
    The Administration has available to it a number of 
mechanisms now--some of which, like the Office of Homeland 
Security, are new--that are just in the early stages of 
responding to the needs following the terrorist attacks of 
September 11th. And so I believe that the mechanisms that 
already exist have not yet been fully exploited. We are all 
working to exercise these very powerful coordinating 
mechanisms, like National Technology and Science Council, 
(NSTC), with its crosscutting subcommittees. We're just 
beginning to take full advantage of that. And my outreach 
efforts, which, as I described, were so much stimulated by your 
ideas on this issue, are just beginning to establish these 
information and feedback networks within the higher education 
and science communities.
    So I believe we have a ways to go before we fully exploit 
the statutory and administrative mechanisms that are already in 
place. And as we encounter obstacles, such as some of those 
that you mentioned in your introductory remarks, Mr. Chairman, 
I hope that we can work together to clear away those obstacles 
and create, as necessary, additional mechanisms.
    Senator Wyden. I want to go to some other areas. I think 
this is key. What we need is to have all of the Federal 
agencies--and Director Allbaugh and I talked about this--you 
could, in effect, be spending your time in front of every 
congressional committee, at this point, and have every agency 
involved in this area. And, what we want to do, and what we 
want to work with you on, is to have a government-wide policy 
for mobilizing scientists and technology specialists, and then, 
to use your words, Director Allbaugh, ``hold that organization 
accountable.'' We are going to work with you toward just that 
end.
    Mr. Allbaugh. Thank you, Mr. Chairman.
    Senator Wyden. Let me ask you about a couple of other 
issues, then recognize my colleague.
    Right now, just about every agency in the Federal 
Government is being inundated with new technology, scientific 
research proposals that are intended to bolster homeland 
security. Tell us how, today, the government is, in effect, 
evaluating those kinds of proposals?
    Dr. Marburger. I could start with one area of proposals. 
There is a very interesting mechanism which is referred to as 
the Technical Support Working Group that is established under 
the Department of State, I believe, and the Department of 
Defense, which actually has funding available for quick 
investigations of short-term technologies that are appropriate 
for their needs. We are trying to establish, through the 
working group--the rapid response working group that I 
described in my testimony--a similar mechanism for exploring 
other kinds of technologies, perhaps longer-term, that come 
through the Office of Homeland Security and other agencies for 
evaluation. So far, we have been able to respond, in an ad-hoc 
way, to immediate technical concerns and questions that have 
been raised to us by the Office of Homeland Security. But we 
hope that a more systematic approach to this can function well.
    So the agencies have, many of them, the capability of 
reviewing unsolicited proposals. I know that immediately after 
the 9/11 events, the National Science Foundation, for example, 
produced grants to engineers, visited the site to analyze the 
structure that had collapsed, and a number of other special 
cases can be identified. So the mechanisms of government are 
working in this respect, and I believe that they can continue 
to work well with enhanced coordination and interconnectedness.
    Senator Wyden. Director Allbaugh, do you want to add to 
that?
    Mr. Allbaugh. Senator Wyden, I would ask Ron Miller to 
respond to your question insofar as what we're doing at FEMA 
right now, since we do not have a well-coordinated effort and 
it's probably replicated throughout every Federal agency that 
you can think of.
    Senator Wyden. Mr. Miller, welcome. And again, thank you 
for your involvement. Perhaps in answering this question, you 
would like to follow up on a matter you and I talked about 
privately.
    There has been discussion among a number of scientists 
about the idea of organizing a Federal test bed that could 
evaluate these technologies and serve as a resource to other 
agencies. This Subcommittee, as you know, has had a great 
interest in the work of NIST (National Institute of Standards 
and Technology), in terms of being given a role in determining 
whether technologies meet the needs, say, specified by FEMA and 
others.
    So if you could talk about what's going on now, in terms of 
evaluating this flood of products and technologies that is 
coming in, and also in your answer, perhaps incorporate the 
idea of looking at a Federal test bed to deal with these 
thousands of products and ideas that are coming in, that would 
be helpful. And welcome.
    Mr. Miller. Thank you. And thank you, Senator Allen. Right 
now, as you indicated, we are inundated with offers, proposals. 
In fact, so much so that we have had to designate a senior 
engineer on my staff who's going to serve as our chief 
technology officer, and their sole responsibility is to 
basically evaluate all of these proposals and, in some form or 
fashion, determine which ones might be relevant, set up a 
meeting with these individuals to discuss the kinds of things 
that they have to offer. And then hopefully, if there is 
something that we can use it for, try to integrate it into our 
environment.
    There are a lot of difficulties, though, in us doing this. 
Number one, we're an operational organization. And the time it 
takes to evaluate this volume of proposals takes away from our 
ability to actually do our day-to-day business of providing the 
response and recovery folks the things they need 
technologically to do their jobs. The other problem is, we 
don't have the test facilities to be able to evaluate these to 
the extent that we should. And if a vendor comes in with a 
particular type of solution, we don't have a way of knowing if 
there are other vendors out there who might offer similar 
solutions or solutions that have better return on investment 
than the one that is being presented to us.
    So it would be helpful, from that perspective, to have a 
filter at the Federal level, a filter, first of all, to look at 
the volume of proposals and determine which of these proposals 
actually has merit, not just for FEMA, but for any Federal 
agency that may have a need in that area, and then actually 
test them out to see which ones are legitimate, in terms of 
what they have to offer.
    The ideal situation would be one where FEMA would get, from 
a Federal organization, a package saying, ``We have this 
particular technology or this particular capability that we 
think will be relevant to your particular situation.''
    And so what you need is, number one, a standard-setting 
agency that basically lays out what it is the Federal 
Government's needs, and that would be a process they could work 
in coordination with the agencies; Number two, some form of 
test capability that would allow all of these proposals to be 
tested out and evaluated independently; and then, Number three, 
a process by which they can then feed the recommendations to 
the agencies that most need the capability.
    It is pretty significant effort. There are test labs all 
over the Federal Government. There are science and technology 
functions all over the Federal Government, and they all have 
the same general purpose of just to try and deal with this 
volume of private industry proposals. And I think it would be 
helpful for that all to come together in some form or fashion.
    Senator Wyden. I'm very impressed with how you're doing it.
    I think what I would like to do now, because Dr. Marburger 
is going to have to get out the door in a minute, is I would 
like to recognize my colleague. And, Director Allbaugh, with 
regard to your schedule, if we could have a few questions for 
Dr. Marburger, and then I could wrap with just a couple for 
you, and we would have you out the door in just a little after 
10:00.
    Senator Allen.
    Senator Allen. I was first going to go to FEMA--just a very 
quick question for Dr. Marburger, and I will not keep you on 
the witness stand any longer than necessary.
    Listening to what--I've taken notes here of Mr. Miller's 
commentary--clearly there needs to be a national standard. Do 
you agree? Do you believe there ought to be a voluntary minimum 
standard for backup systems in our country--or redundancies is 
the other phraseology that is used--to make sure that a network 
is running during an emergency?
    Dr. Marburger. The word ``standards'' gives me pause. A 
well-defined agreement on what is necessary to provide the 
necessary backup support so that we can work to fill in the 
definition of what is required. I would certainly agree that we 
need to know what we're shooting for in the way of backup. 
Certainly FEMA would be in a position to help define what that 
support would be.
    Senator Allen. Well, I will get to FEMA. I'm not sure--
FEMA--this is more than just FEMA, the question of 
communications systems and backup systems. This is important 
for commerce. This is important for communications. Clearly 
FEMA gets into it once a disaster has arisen. Would you think 
it's appropriate at least to review such voluntary minimum 
standards, because what we hear so often, in reading through 
some of the testimony, most of this will be in the third panel, 
and you won't be here--and so much of it is that you hear that 
they were routed through the same conduits, routed through the 
same center, and it's just a glut through that, and so there 
needs to be some sort of relief value, so to speak.
    Dr. Marburger. Yes. Now I understand what you mean. 
Absolutely, it certainly is appropriate to have--I'll put 
``standard'' in quotation marks in this context, but it 
certainly is important for us to understand what we need in the 
way of system support that has the robustness necessary to 
perform in an emergency like this or a terrorist incident. I 
certainly agree with that. OSTP does have a role to play in 
communications infrastructure protection definition and 
regulation, and there do exist--there are some committees in 
place that can carry this role.
    Senator Allen. Well, I see it as something that--granted, 
we're all looking at the loss of life. And that's terrible. We 
also need to understand that there is a threat of cyber-
terrorism, as well. And to the extent that best practices, so 
to speak can be put together, it is akin, in my view, to the 
way that the Y2K situation was addressed, although I do not 
care to have it addressed with worries of litigation and 
lawsuits for some businesses in the private sector. But to the 
extent that we can determine safe harbors, so to speak, or 
voluntary minimum protocols that could be taken, some of that 
would be by the company or by the entity itself, whether it's a 
governmental agency or whether it's a private company, but also 
determine which ways will work and interact with one another. 
So I look forward to working with you.
    Dr. Marburger, I know you have to leave. Thank you. And I'm 
sure I'm speaking for the Chairman, as well.
    Senator Wyden. If I could--and then I want to recognize 
Senator Allen once more. Dr. Marburger, just know that we're 
very appreciative of the work that you're doing. I really do 
think that now is the moment for the government to throw open 
its doors to the ideas of scientists and information technology 
specialists and really call them at a time when it is so 
critical to our country's future. And we're going to be working 
very closely with you. And I may also submit some questions to 
you in writing, in terms of particularly the key points to look 
at as we try to start tapping this volunteer cadre of 
scientists and technology specialists. We will excuse you and 
thank you for your work.
    Dr. Marburger. Thank you, and thank you for your support.
    Senator Wyden. Senator Allen, please proceed.
    Senator Allen. Director Allbaugh, in my experiences with 
FEMA while I was Governor--and FEMA is--or was very well run, 
and continues to be very well run in recent years--the role of 
FEMA is one of almost oversight after the fact. And while, in 
listening to all of these questions, and Mr. Miller answering 
questions and so forth, FEMA is not a very large organization. 
It is not a big government agency. It is one of mostly, in my 
view, coordination after the fact, after the disaster has 
befallen a community or an area or some people. And you rely a 
great deal on the National Guard that is activated or, for that 
matter, law enforcement. And most of the time, it's not even 
State law enforcement. The first responders are local fire 
departments, local rescue squads, and the rest. And I think 
that your value is in determining how best to coordinate it.
    I would like to ask you, did you find that, as far as the 
shortfalls that FEMA has--and you're mostly coordinating with 
others--you're talking about the Pentagon and folks responding 
from Alexandria and Arlington and Fairfax--and they're trying 
locally to put in Cap WIN--or I should say regionally, not just 
locally--but within the multi-State and District Cap WIN so 
that the firefighters all can work together. Do you see that 
the IT problem of these terrorist attacks here are one of 
capacity or, let's say, a lack of capacity, as far as 
communications or IT, or is it one of a lack of technology? In 
other words, is the technology there, but there's not the 
capacity? Or the other way around?
    Mr. Allbaugh. I think we have plenty of capacity. I think 
it is the technology. Oftentimes you will have an incident 
where fire and police arrive and they don't have the ability to 
communicate with one another except face-to-face.
    I think it is critical that those individuals can speak 
with one another before arriving as they're on their way to 
understand what is happening at the scene. And it's just 
unbelievable to me that in many communities fire and police do 
not have the opportunity to--or the technology to communicate. 
They're on different systems. I'm sure there is a technological 
answer to that.
    If I could say that we, as a government, should do one 
thing nationwide, it would be to provide the answer in some 
fashion, a standard, if you will--I happen to believe in 
standards, quite frankly--but we need to answer the question of 
how we make sure our first responders--fire, police, emergency 
medical personnel--can speak with one another, whether it's on 
the same frequency, the same bandwidth, that is an answer that 
has to be addressed.
    We are a small agency, as you know, 2600 people nationwide. 
We are responsible for coordinating and facilitating the 
Federal response plan. We are the ultimate authority of the 
Executive Branch, the President of the United States goes to 
when there is an incident, and it is--you know this, being a 
former Governor--it is so critical to make the correct 
decisions that could save lives if you have accurate 
information. And that accurate information can only come in a 
way where you can communicate, whether by voice or 
electronically or some other mechanism. And I do believe the 
private sector has answers to every one of these questions. 
It's just making sure that we bring everyone together in one 
particular area and solve them.
    Senator Allen. The reason I mentioned this--everyone 
expects FEMA to solve it. FEMA is looked upon, in a time of 
crisis or disasters, as those folks who come in, coordinate, 
bring together all the assets. Obviously, the funds, and the 
assistance are very calming and helpful to those areas and 
people in those communities that are adversely affected by 
whatever the disaster might be. So when I ask you these 
questions it's not as if FEMA is going to solve all of these. 
It is in coordination with the local or the State or the 
National Guard or State defense forces. All of them have to 
work together, and FEMA can give good advice, like they say. 
They shouldn't be building in an area that floods three times 
every 5 years. Let's move everybody somewhere else.
    Now, as far as the technology breakdowns, as far as 
communications or telecommunications capabilities, that 
happened, obviously, on September 11th, does FEMA have any 
existing plans or are you formulating any plans to restore, 
say, computer networks or telecommunications networks? I'm not 
saying that FEMA is doing it themselves, but trying to work 
with other Federal agencies, State agencies, or local 
agencies--that if these computer networks go down, or 
telecommunications networks--do you have any advice or--number 
one, do you have any existing plans? Number two, if not 
completely formulated, are you moving in that direction?
    Mr. Allbaugh. We do have plans, Senator. And I would ask 
Ron to respond to that question.
    Mr. Miller. We have been working with the Critical 
Infrastructure Assurance Office. One of the things FEMA brings 
to the table is its relationship with State and local 
governments and communities, and we are working with the 
Critical Infrastructure folks to try and at least provide a 
framework within which they can develop standards for inter-
operability redundancy. Again, we talk about standards--and I 
understand Dr. Marburger's apprehension about standards.
    Senator Allen. He has to be consistent on some other 
issues, as well.
    Mr. Miller. There's the implication also with standards 
that you're going to force something on people. And when we 
talk about inter-operability, one of the key tenets of that is 
the ability for these folks to use the technology that they 
have and find some way to make it work together, as opposed to 
trying to make them all do the same thing.
    One of the problems in trying to solve the first responder 
communications problem is that people are focused on everybody 
having the same capability, as opposed to looking at the 
capabilities that are out there and finding a way to integrate 
and make them work together, which allows them to preserve the 
communications needs that they have within their local 
communities. But at the same time, if the disaster expands 
beyond their scope and they need to interact with others, 
there's an ability for them to do that. I will say that there 
is technology out there that will allow that to happen, and 
it's just a matter of being able to evaluate it and, if it is 
effective, to be able to deploy it.
    Again, you make the point that there is a coordination 
process involved, and that is where we come in. We understand 
the emergency management community. We understand the first 
responder community. We work with them all the time. We know 
what their problems and needs are, so it is just a matter of 
trying to identify reasonable solutions and then letting the 
technology community take a crack at them.
    Senator Allen. As I mentioned, the National Guard--when the 
Governor activates the National Guard in such situations, this 
concept of a NETGuard, which is the technology folks--and I 
know there are people with good communications technology--
awareness, and intelligence, and so forth that are in the State 
Guards. Would you see a NETGuard being a good asset in that 
regard?
    Say you have purely information technology or purely a 
technology disaster to solve, how would you see a NETGuard 
being helpful in providing some necessary services in such an 
eventuality, a disaster?
    Mr. Allbaugh. I think their services would be welcomed. 
When an incident is ongoing, as a line officer responsible for 
making decisions to save lives and property, it would be 
helpful to be able to draw upon that brain talent, that pool of 
answers that they may offer up. So you could be in a position 
to save more lives. But understanding when an incident is 
ongoing, there isn't a lot of time to argue about it. That's 
why we have a command structure.
    So as much as I want the private sector involved in our 
business, bringing the worldly answers that they have--and I 
know that we don't have--even though we have extremely talented 
people, I also want there to be an understanding--give me the 
array of options here. I will make the decision. When the 
decision is made, we all walk out the door together. I would 
think that that would be very, very helpful, particularly to 
the local responders--fire, police, emergency managers.
    I don't receive, as I said and have said many times--I do 
not receive the 911 phone calls. It is our local folks who 
receive the 911 phone calls, and I believe that those who are 
closest to the problem are best equipped to answer and solve 
those problems. But I think something like this would be 
extremely helpful.
    Senator Allen. Thank you, Mr. Allbaugh. Thank you, Mr. 
Chairman.
    Senator Wyden. Thank you, Senator Allen. Just a couple of 
other questions, and I want to recognize our colleague from 
Florida.
    On this question of the compatibility of emergency 
communications, something Senator Allen and I both talked 
about, my understanding is that there may be as many as ten 
Federal agencies now looking at this, that this is a subject of 
considerable discussion in separate agencies. Is this the kind 
of issue, Director Allbaugh, that you could see Governor Ridge 
and the Homeland Security organization, in effect, pulling 
everybody to the table, bringing together the experts in the 
private field and the local responders, coming up with a 
policy, working with Senator Allen, myself, Senator Nelson, 
people who have been interested in the field, saying this is 
where we want to be, you all can hold us accountable, and then 
we would be able to proceed, in terms of a difficult issue?
    Mr. Allbaugh. Absolutely, Mr. Chairman. As a matter of 
fact, Governor Ridge and I have spoken often recently about the 
approach, just as you described, figuring out exactly what 
folks need, issuing the charge and the challenge, providing 
money to help them get there, but come back and have a 
mechanism of accountability on the back end to make sure that 
everyone is doing exactly what we agreed to do. And this, 
again, is not an incident where I want to be in a position as a 
representative of the Federal Government of cramming something 
down some local individual's throat. This has to be done in a 
cooperative spirit or it will be a failure from the outset.
    Senator Wyden. I think we're on the same wavelength on this 
point. My understanding is that you all are looking at some 
approaches you could be talking about with the Hill early next 
year. I know we're interested in working with you on it, and 
especially getting that one out of the box early-on in the 
process.
    It is just unconscionable that in our country, at a time 
when we have so much technological expertise, and at a time of 
disaster like we saw September 11th, we have fire and rescue 
folks taking messages by hand to each other. That is just 
unacceptable, and I'm glad we're on the same wavelength, in 
terms of tackling that.
    Mr. Allbaugh. Thank you, Mr. Chairman.
    Senator Wyden. One last issue, then I'll recognize my 
colleague.
    Let's talk for a moment about the concept I call the 
technology equivalent of the National Guard, and there are 
similar ideas out there. At the end of the day, we're all 
looking at the idea of pulling together a cadre of scientists 
and technology experts with significant expertise who would be 
in a position to assist the government, both in a preventive 
kind of way, giving ideas on the state-of-the-art technologies 
that you and others could begin to use to prevent tragedies, 
and also to be able to respond.
    As we talk to people in the private sector, there are a 
variety of ideas that they have about how you work on this, 
some envisage a technology equivalent to FEMA's medical 
response program. Some see it as kind of a virtual 
organization, a kind of database of experts in various fields 
and people with equipment that could be donated. Some have seen 
it almost as a military-style reserve unit.
    As we look at this issue--and, as I say, we're going to 
work closely together with you and Dr. Marburger on it--what 
are the key points that you all think we ought to keep our eyes 
open on? Obviously, we want to make sure that we separate out 
the many who truly want to be helpful from those who might want 
to make a quick buck. People are going to need training, and 
they're going to need to work to do what you've talked about, 
Mr. Allbaugh, which is to be user-friendly to those first 
responders to give them what they need.
    But maybe if you could--and this will be the last question 
I will ask--kick off the key points we should keep our eyes 
open for as we try to figure out how to call on this generation 
raised in information technology to help.
    Mr. Allbaugh. Mr. Chairman, I think there are two key 
points, both of which you've already touched on, that would be 
cornerstone of any entity responding to future disasters. One 
would be providing an appropriate database. Just knowing 
exactly who to go to for that technological or IT brainpower is 
often a confusing arena. You have a multitude of companies who 
are in business to make a profit. I have no problem with that. 
But there are so many companies out there that it is confusing 
to know exactly who to go to for what particular problem. And 
so providing that database immediately is more important than 
having the warm bodies at the site to solve the problems that 
crop up.
    Second, and almost more importantly, utilizing that same 
brainpower to train our State and local responders is 
absolutely critical to any success in the future. And so I 
would envision something that we already do with local 
responders on a regular basis at Emmitsburg. It operates--it is 
a campus in Maryland that--we bring in first responders--fire, 
police, emergency managers--to train them on state-of-the-art. 
And I would further enhance our training in the IT arena by 
being able to draw upon these individuals who could talk about 
state-of-the-art software or hardware in a manner that is 
easily understood by everyone. And that goes a great distance. 
Just a little education will bring everyone together and move 
us further down the road together.
    Senator Wyden. Well, I thank you for all of the assistance. 
I would also like to just state for the record that when I 
called Director Allbaugh for the first time to discuss these 
issues, he was on his way to taking his wife on a birthday 
supper somewhere in Oklahoma, and he thought it was so 
important that we still ought to talk through the weekend, and 
that is sort of the gold standard, in terms of government 
responsiveness, and we're very appreciative.
    And, Mr. Miller, to you, as well, we thank you for your 
involvement with us. We're going to be calling on you often. I 
don't think there's any higher priority than to mobilize, to 
try to prevent some of the problems we saw on September 11th 
for this Subcommittee, and we'll be calling on you often.
    Let me recognize Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    A few days after September 11th, at the invitation of the 
Governor and the Mayor, and Senator Clinton, I went up to New 
York. I want to compliment FEMA for what I saw that day. In the 
midst of all of that chaos, order was being established. I 
think you all did a very good job.
    Mr. Allbaugh. Thank you, sir.
    Senator Nelson. I was intrigued by the fact that one of our 
colleagues from the Florida delegation had arranged for the 
donation of some satellite telephones as a means to solve an 
immediate problem. And, I'm just curious--did satellite 
telephones work under those conditions when normal 
communications and cell phones did not?
    Mr. Allbaugh. In the early days, Senator, virtually our 
entire disaster field office at Pier 94--we relied upon 
satellite communications. There was no other way, given the 
fact that the main switches at the Verizon headquarters in 
lower Manhattan had been severely damaged. There was no other 
entity, quite frankly, to rely upon. So we had to rely upon a 
system that we had built over the years. They worked very 
efficiently. We were lucky to have them. I could only speculate 
what it would have been like without the reliance of those 
satellite telephones.
    Senator Nelson. And even where you had tall buildings in a 
high, dense, urban area, the satellite telephones still worked?
    Mr. Allbaugh. They did, indeed.
    Senator Nelson. Well, that's good. Is that part of our 
plan, then, for the future, that we have a reserve of these 
satellite telephones for FEMA if such an emergency like this 
occurs again?
    Mr. Allbaugh. I think we always will have a repository of 
those phones. I'm not sure that we want to become 100 percent 
reliant upon satellite telephones. They do have their 
drawbacks. Periodically, even though you have a connection, the 
quality is not what you would want. And I think that will just 
improve with time. We were fortunate to have those, and I would 
like to think that many lives were saved as a result of having 
access to those.
    Senator Nelson. Very interesting. Clearly, they have their 
worth when you get out into rural areas and need to 
communicate, or in desolate areas, because that's your only 
means of communication. So it wasn't that that you were 
referring to that was donated that didn't work.
    Mr. Allbaugh. No, not at all. I would have to ask 
specifically whether we used the donated phones. We already 
have a backbone structure in place that we rely upon, something 
we have had for a couple of years. But I would check into that, 
Senator, and respond back to you whether that particular 
package was used or not.
    Senator Nelson. Thank you, Mr. Chairman.
    Senator Wyden. I think the Senator from Florida is making 
an important point. One of the things we were told is, with 
everything, essentially crashing, the global satellites, Global 
Star and Iridium, did not go down. So this will be an area we 
will want to examine.
    Gentlemen, you've been very helpful. Do you have anything 
further you would like to add?
    Mr. Allbaugh. Thank you for the opportunity to be here, Mr. 
Chairman. It's always great to come and visit. Let us know if 
we can be of any help.
    Senator Wyden. We will be calling on you often. We will 
excuse you now.
    Mr. Allbaugh. Thank you.
    Senator Wyden. Our next panel is a resident of the Pacific 
Northwest. We're very pleased and proud to have him. He is 
known as the ``Father of Wireless'' to many, Craig McCaw, 
Chairman and Chief Executive Officer of Eagle River, Inc., in 
Kirkland, Washington.
    Mr. McCaw, welcome. I've had a number of good conversations 
with people in the private sector--Andy Grove, of Intel; Steve 
Jobs, of Apple, and others--but you have, I think, made some 
particularly helpful and useful contributions, and it's just 
terrific to have you here. We'll make your prepared remarks a 
part of the record, and you just proceed any way you feel 
comfortable.

   STATEMENT OF CRAIG O. McCAW, CHAIRMAN AND CHIEF EXECUTIVE 
                   OFFICER, EAGLE RIVER, INC.

    Mr. McCaw. Thank you, Senator Chairman Wyden, and Senator 
Allen, and Senator Nelson.
    Obviously, I'm here to support the notion that we have 
discussed of a technology national guard. And very much in the 
context of having served for 15 years in NSTAC, looking at 
potential national disasters, and, frankly, having been through 
a number of them, and we've seen how the system works and how 
it doesn't work.
    What I think was different in September 11th was both the 
location, the sensitivity and, I think, the changing standard 
of threat that we saw. And what I think was firstly important 
to note is that the country has become increasingly dependent 
in every level on its extraordinary communications 
infrastructure, and certainly, the Internet is a large part of 
that. But every aspect of our democracy, our commerce, and 
personal communication between individuals has begun to evolve 
in a way that we wouldn't have conceived of years ago. The 
notion of instantly communicating from person to person or the 
amounts of information we expect in our daily lives has changed 
radically. And the entire functioning of the Nation is 
dependent on this, in my opinion.
    And I would have to say, on September 11th, everything 
worked as it was supposed to. NSC, NSTAC, individuals, the work 
of Harry Radege, Chairman Powell in response to those problems, 
FEMA, all the people who have testified--were exemplary. 
However, I think, to the points you've raised, the fundamental 
way we are organized is much more a throwback to the cold war.
    And having been on NSTAC, again, since the says of the cold 
war, I can say that our thinking has not evolved around the 
notion of the rising standard of expectation in telecom that 
has happened in the past 15 years. And I think we could not 
underestimate the changes that have taken place. And since the 
cold war, of course, we, in 1984, broke up the Bell system. And 
Bell Labs was the repository of an extraordinary relationship 
with government at every level, the military, and key assets 
that could be called upon almost in a quasi-government form, 
because the Bell system, AT&T, were really an arm of the 
government, in a way, since the 1920s. That does not anymore 
exist.
    And what is great is that we have a repository of 
intellectual capital in this country, distributed across the 
country, in companies like Intel and, frankly, a huge number of 
retired people from Microsoft and other companies whose IQ, 
whose knowledge, and whose time could be put to this process in 
very much in a National Guard-type of forum, that those type of 
people, particularly in light of what we've seen happen, and in 
recognition of what could happen, is simply unbelievable. And I 
think of my friend, Nathan Mhyrvold, and characters like Bill 
Joy--Microsoft is the closest thing to Bell Labs we have today 
in this country--the number of people inside.
    And yet this is really a matter of changing the idea of 
altruism from huge companies to that of individuals. And what 
we've learned is that the Internet empowered individuals. And 
what we have is an economy composed of highly capable 
individuals able to operate without the central core structure 
of a huge corporation. And much of what we built around was, in 
fact, framed on the idea of huge companies coming to the aid of 
their government. And in the military sense, much of that is 
still true, except perhaps in the high technology areas of 
computers. In telecom, that's much less true.
    And what we recognize is that, in times of disaster, our 
wireless infrastructure is the thing that we fall back on. What 
we saw on September 11th, and we continue to see, is that we 
would have a much worse situation if the people were still 
actually trying to function in south Manhattan. The decimation 
of the central office of Verizon and the wired infrastructure 
that related to that remains as a factor. To our benefit, we're 
not trying to use it, or we would see that deficiency.
    Another oddity was that because so many financial 
institutions were based in that area, they had constructed 
backup facilities elsewhere. And the dislocation to the Nation 
was far less than we would have imagined because of that. That 
is not true in most other parts of the country.
    What I think we recognize now is--and we have certainly 
had, through the news and through the efforts of the 
Administration, Governor Ridge and others--is a recognition 
that we do not know where the next threat comes from. We had a 
lot of advance notice of Hurricane Andrew and other national 
disasters. We expect earthquakes in California and Washington 
and Oregon. We have planned for those. We can't really plan for 
the efforts of terrorists against our country now. And I think 
the notion of having actual individuals ready to go and 
resources ready to go at every level is critical.
    If you have a flight of our productive sector in any part 
of the country--and let's take New York--because of a disease, 
bio-terrorism attack, dirty nuke, whatever--no one has really 
thought through how you would communicate with these key 
individuals central to our economy or our government if they 
actually depart from the urbanized areas. We have a high 
reliance on wired infrastructure in our rural areas, and we 
have to think in terms of how we build wireless infrastructure 
that can follow in case of these kinds of disasters. This could 
be any city--Washington, New York, whatever.
    So these dislocations are not, I think, well-thought-
through from the standpoint of what do you do, how do you get 
it in place quickly, and essentially preplanning the process. 
And I think what you propose is really central to that issue, 
which is that when you build a complex society, it is 
vulnerable to stone-age problems, which is that you can take 
very simple guerilla tactics and make our incredibly 
productive, sophisticated, wonderful society where there's 
tremendous communication between individuals, and that is our 
strength. That's our trading value in the world. And we have a 
massive benefit over the rest of the world because of that 
infrastructure.
    So I think figuring out in advance what you're going to do 
if something happens, having those incredible resources, many 
of whom, quite frankly, are not even active today and could 
provide a lot of their time to this--would be critical and, 
secondarily, changing our reliance on centralized 
infrastructure is probably critical in making that investment. 
It is more efficient to centrally locate all your switches in 
one place, and that's cheaper. I think we've seen the result of 
that in the damage to the World Trade Center and those Verizon 
switches, which affected every other aspect, almost, of the 
communications infrastructure in that area. When those switches 
went down, even the cellular systems couldn't connect to each 
other, albeit I would note, as a minor thing, that the Nextel 
system continued to operate because it didn't rely on those. 
That's my one advertisement for the day.
    But I think the elements that have been noted, making sure 
that we have thought through what we're going to do if 
something happens, and we can now work against these scenarios 
with the brightest minds in the country. And making sure that 
we no longer rely on highly centralized single-source 
infrastructure is critical. And I think several people have 
noted the degree to which our key resources are located too 
much in the same place. And assuming the terrorists have turned 
out to be much smarter and more sophisticated than we thought, 
that is not unknown to them, either.
    So I think the opportunities are obvious. And I applaud, 
frankly, the effort to move forward and proactively put in 
place individuals with the security clearances and the other 
elements so we don't just rely on the good works of a few 
people and the time lag that occurs between a disaster 
occurring and the other elements falling in place.
    The time element of flying in 5 or 10 or 20,000 wireless 
phones, moving in the other facilities is, I think, too slow in 
our current expectations. And that's why people are a little 
discomforted by what they saw on September 11th, no matter how 
well we did and how well we worked and, frankly, how hard 
individuals worked.
    City Hall was out of service for a quite a long time. And, 
as I noted in my testimony, one individual worked 60 hours, 
almost straight, to connect City Hall with almost no direction 
from management, simply on his own volition. And, of course, 
that's the wonderful part of the American way. But I think we 
can reduce our reliance on those elements by actually moving 
forward with something that is far more organized and actually 
know who we're going to call, how to reach them on the weekend, 
because, of course, terrorists do attack also on weekends. And 
national disasters occur on weekends.
    And so, again, I applaud the efforts you're making, and I 
highly support the intent with which you are moving this 
forward.
    [The prepared statement of Mr. McCaw follows:]
  Prepared Statement of Craig O. McCaw, Chairman and Chief Executive 
                       Officer, Eagle River, Inc.
    Thank you for the opportunity to address the subcommittee. I am 
here today to support the effort to establish the National Emergency 
Technology Guard or the NETGuard. Telecommunications infrastructure is 
vital to the success of the economy and the need for robust and 
redundant national communications infrastructure is more critical now 
than ever. The Nation is well served by initiatives designed to 
preserve and protect our nation's telecommunications infrastructure--
the primary foundation of the economic successes of the past decade. 
NETGuard is one such initiative.
    If we are to improve the way we mobilize the resources and 
experience of our nation's science and technology community for future 
emergency preparedness purposes, we must ask tough questions and expect 
honest, and not always comforting, answers.
    The events of September 11 and other threats we now face expose 
surprising vulnerabilities in our underlying communications 
infrastructure. Few could have imagined a scenario wherein much of our 
telecommunications infrastructure in parts of lower Manhattan remains 
inoperable even 3 months after an incident.
    In addressing how to marshal our collective resources and talents 
to protect against and respond to any future incident, we must analyze 
the strengths and weaknesses inherent in our telecommunications 
infrastructure and its ability to respond to future threats.
    On September 11, we witnessed first hand the vulnerabilities of our 
network infrastructure. First, it is clear that we can no longer solely 
rely on historical monopoly telecommunication networks that in placing 
a premium on economic efficiency, concentrate network assets into a 
limited number of central offices. That model reflects a centralized, 
hierarchical infrastructure that is highly susceptible and vulnerable 
to attack. The Verizon central office at World Plaza was one of the 
largest in the world, serving as many lines from that one location as 
are served in the entire city of Cincinnati.
    While deregulation over the past decade has fostered great progress 
in building a decentralized distributed network infrastructure--the 
Internet is the prime example--our legacy telecommunications networks 
still lag behind in transitioning away from its historically highly 
centralized architecture.
    Multiple wireline and wireless competitive distributed networks 
that were deployed and operational in New York prior to September 11 
were critical to public safety and the recovery efforts. Access to 
unencumbered available spectrum was another crucial element in 
restoring capacity lost in the September 11 attacks. We saw first hand 
the value provided by the facilities-based networks of competitive 
local exchange and wireless carriers. These networks helped to fill the 
void created by the loss of some of the essential facilities of the 
incumbent provider. Fortunately, the FCC quickly granted wireless 
carriers special temporary authority to utilize 30 MHz of fallow 
spectrum assigned to NEXTWAVE to meet the overwhelming emergency need 
for wireless communications services.
    The legacy of the monopoly era impacts not only our existing 
physical infrastructure but also our ability to respond to current 
disasters. In times of crisis under the old monopoly regime, the 
government could tap Ma Bell's nearly unlimited resources and talent 
pool from its affiliated and quasi-governmental entities, such as Bell 
Labs. Today, while the physical assets of Ma Bell's legacy network 
largely remain in place, its vast pool of human talent has been 
dispersed to many smaller unregulated competitors throughout the 
technology and telecommunications sector. As a result, technical 
expertise is no longer concentrated in a few monopoly companies but is 
instead spread throughout numerous entrepreneurial ventures.
    The NETGuard could provide the necessary governmental framework to 
tap into that technical expertise, at the local level, and get it 
efficiently focused to assist in times of crisis. During the events of 
September 11, we witnessed numerous acts of heroism by dedicated people 
who, at the scene, shared their invaluable technical experience and 
sacrificed their time and energy to assist in the recovery efforts. One 
example is Bob Oliva, an XO Communications employee, who on his own 
initiative, worked onsite for over 60 straight hours, with little or no 
sleep, until telecommunications lines at the Mayor's office in New York 
were up and running. If an organization such as the NETGuard were in 
existence on September 11, local authorities could have organized and 
harnessed the talents of individuals--such as Bob Oliva--during the 
crisis in a more coordinated and expeditious fashion.
    If created, NETGuard, as a Federal entity, would be uniquely 
positioned to call upon the nation's technical and operational experts 
and be the clearinghouse for those who wish to support their country in 
times of need. Unfortunately, today, no Federal body exists to 
facilitate such a critical function. Federally established 
multidisciplinary industry committees and councils, (e.g., the FCC's 
Network Reliability and Interoperability Council (NRIC) or the National 
Security Telecommunications Advisory Committee (NSTAC)), make a 
valuable contribution to the policy framework on emergency preparedness 
issues. Their primary function, however, is in an advisory capacity 
typically with narrow charter responsibilities and limited 
administrative capabilities.
    The NETGuard would also be invaluable in providing expertise to 
prepare for future and unanticipated threats on the horizon. How would 
we respond, for example, in case of a mass population migration into 
rural areas resulting from the threat of biological attack on a major 
metropolitan city? It is unlikely that the existing rural 
infrastructure could provide the additional telecommunications capacity 
necessary to serve a sudden increase in the population base. The 
NETGuard could bring to bear the expertise necessary to address the 
vexing issues associated with providing emergency bandwidth--wireless, 
wireline or satellite--in rural evacuation areas where citizens will 
need information and communications services to overcome geographical 
limitations.
    Moreover, NETGuard could also play a crucial proactive role in 
providing expertise to ensure the development, deployment, and 
availability of redundant network capacity for end user access to 
multiple telecommunications networks. Redundant fiber and fixed 
wireless facilities have been deployed in the past decade. Many of 
these facilities, however, fall short in reaching existing end user 
customers, and thus will not be accessible during a crisis.
    Just as Congress established government policies that resulted in 
the creation of multiple distributed networks that compose the 
Internet, it can promote similar incentives designed to ensure the 
development and deployment of multiple competitive distributed 
telecommunications networks that use a variety of technologies and 
service providers (e.g., broadband satellite, 3G, terrestrial wireless, 
broadband cable, and wireline).
    The NETGuard, under Congressional mandate, could also promote 
public safety in areas such as public rights-of-way and building 
access. Such an entity could share its expertise to speed the 
development and deployment of these redundant and decentralized 
wireline and wireless networks and so that end user customers have 
multiple ``last mile'' access to the nation's telecommunications 
infrastructure.
    Congress would be taking the right step in considering a NETGuard 
to protect our national communications lifeline. And with little 
additional effort, the NETGuard initiative can be enhanced to further 
bolster the emergency preparedness of our nation's telecommunications 
system. In addition to considering NETGuard, I recommend that Congress 
adopt the following measures:
    1. Ensure the availability and use of wireless networks capable of 
providing public safety functionality at any time and place 
irrespective of population density or geographic location within the 
United States; 2. Create national emergency spectrum to be held in 
reserve specifically for public safety and emergency purposes; 3. 
Develop building access legislation that would promote network access 
redundancy in government buildings and allow more than one ``last 
mile'' telecommunications provider at these locations throughout the 
country, as well as legislation designed to spur investment in 
broadband telecommunications networks, such as Senator Rockefeller's 
Broadband Tax Credit Bill; 4. Promote the deployment of alternative 
redundant and distributed ``last mile'' wireline network facilities by 
strengthening the FCC's existing statutory authority to remove barriers 
to competitive entry in the public rights-of-way; and 5. Establish a 
national emergency telecommunication priority access system to allow 
public health and safety users priority access on all of the nation's 
various telecommunications satellite, wireline, and wireless networks.

    Senator Wyden. Well, Mr. McCaw, thank you very much. To 
have someone of your stature who has spent so much time 
thinking on these policy issues, willing to work with us and, 
as we have talked about with the Bush Administration, in 
bipartisan ways. It's enormously helpful.
    If it's alright with you, we've got a vote on the floor. 
Senator Allen and I will get over there and vote quickly, and 
then we will come right back and have some questions for you, 
because I think you've made a number of points that are 
exceptionally important.
    If that's alright with you, we will just recess, say, for 
10 minutes.
    [Recess.]

                STATEMENT OF HON. MAX CLELAND, 
                   U.S. SENATOR FROM GEORGIA

    Senator Cleland. I've been asked by the Chairman to 
proceed. The hearing will come to order.
    Mr. McCaw, thank you very much for being here. We 
appreciate your innovation and leadership, your 
entrepreneurship, and especially your insight into 
telecommunications, particularly in terms of a crisis.
    I'm an old Army signal officer, and we were talking just 
before the hearing came to order about the brainpower that used 
to be concentrated in AT&T, Bell Labs, and so forth. As a young 
signal officer, I was stationed at Fort Monmouth as the aide to 
the commanding Army general in signals school. At that time, 
the Army had a wonderful close working relationship with AT&T, 
Bell Labs, certainly the Army Signal Corps.
    Then I went to Vietnam and learned about communications in 
combat, when wires are knocked out, when systems that you have 
in place are destroyed. One of the first lessons I learned in 
the Army Signal Corps, as a young signal lieutenant, was that 
redundancy is the secret of reliability.
    And that the moment on September 11th that the Pentagon was 
hit, I saw the smoke across the river out my window in the 
Dirksen Building and immediately went to my cell phone, which, 
in effect, was jammed, and jammed in a sense that it was 
already overloaded.
    I wonder what some of your suggestions would be, in terms 
of satellite communications, in terms of redundancy, and the 
sense that one of the things we did was flee Washington. I 
found myself within an hour or so as a refugee across the river 
into Northern Virginia--the point being, people were fleeing 
the city or the target or the potential target into rural 
areas. Then, all of a sudden, I had a Blackberry in the car and 
began to communicate on that, and that became my only line of 
communication for a number of hours with the Governor of 
Georgia who had a Blackberry as well, and so forth.
    So kind of take us from there and see what some of the 
things that you would suggest we think about in the future so 
that when we have a hit on the United States--when we have 
maybe a terrorist attack, the normal lines of communication go 
down. Where are we, and what should we be doing?
    Mr. McCaw. Senator Cleland, I'm honored to be with you, 
sir, by the way. Those are really good questions.
    To the points you make about the military, as we look at 
the campaign and the comments that have been made, that there 
will be more casualties at home than in war, the use that the 
military has and needs in technology are huge, and they're 
ongoing. I think the rate at which we, as old timers looking at 
the old military versus the new--bandwidth used by the military 
is growing in the hundreds-percent per year in order to protect 
and save lives in the military and make us more effective. And 
I think the same applies at home.
    Substantially, this is wireless. Because of its 
flexibility, its ability to be deployed rapidly. And that if 
you don't happen to be in the place where you're supposed to 
be, the system doesn't really mind, because it's built around 
the notion that people move around. And so the wired systems 
are built around high amounts of information going to fixed 
locations. Once you have to move away from that, everything 
changes and you rely on this sort of womb-like structure, as I 
would want to call it, of wireless infrastructure we put in 
place in the past 15 to 20 years.
    One of the things that we were very lucky--on September 
11th, the infamous Next Wave spectrum was sitting in reserve to 
be employed, through the good graces of the FCC, on an 
emergency basis to help produce what was an extraordinary over-
capacity and over-demand. And we certainly had a problem there.
    There is no question that--and FEMA testified earlier their 
dependence on satellites was almost 100 percent in order to 
make their effort successful. And I think we have to recognize 
that multimodal communications are the way that you protect 
against vulnerabilities. And again, where we would have been 20 
years ago was almost totally dependent on one operator, one 
system, one highly vulnerable central office switch in an area, 
operating on the one-carrier system. And that resulted in 
several famous crashes in the signaling system. Seven networks 
that we remember a few years back, when entire networks went 
out.
    The beauty of the Internet is it's very survivable, and 
that's why devices like your Blackberry worked. And if we can 
continue that effort to proactively diversify our resources, I 
think we can substantially reduce the dislocation, because our 
country cannot exist without these communications.
    I was hearing last night about people in Bangladesh, by the 
way, now relying--who can't read or write--using the Internet 
to communicate. And you can send a message now from Bangladesh 
to the United States, even if you can't read or write, for 
about ten cents. Somebody will type the message and send it for 
you by going into a central place in a village. Recognizing 
that even if Bangladesh, in a country which is recognized as 
the poorest in the world, can at least get Internet service and 
those things, we need to believe that we have--that no matter 
what happens, what anybody throws at us in this country, we 
have some forum for people to interact. And we saw a deficiency 
of that after September 11.
    Senator Cleland. It's interesting to say that we have some 
poor counties in Georgia that would envy Bangladesh's 
communications capability.
    So where does that leave us? Focusing more and more on 
space communications, on satellites, on a system of satellites 
around the globe where we network that way?
    Mr. McCaw. I think we have to ask for all of those things 
to occur, that we recognize parts of the country will never 
have any kind of wire-to-wireless service of any kind. And 
fundamentally, I don't think it is in our interest to have 
those.
    We saw the crash in Pittsburgh of the United flight, and 
there was no wire-to-wireless service there, certainly not 
enough to handle the job. We have to be ready for those things, 
and I think it's critically important that we recognize that 
there is an overriding public interest in being able to 
communicate to the entire country at any time and to recognize 
that--and this is more--this is outside of the central issue, 
but--if there is some reason for people to leave the city, 
other than the quality of life in rural areas, which is very 
high, we need to respect that, enhance it, and make it more 
competitive, so that just because you happen to be in a rural 
area, you are not on the wrong side of the digital divide. And 
I view that as substantially a wireless issue, be it satellite 
or terrestrial.
    Senator Cleland. Thank you. I've held some Senate 
roundtables in rural Georgia, and believe me, they are ready 
for fiberoptic cable, they're ready to communicate, they're 
ready to tie in, and they're ready to connect. They don't want 
to have to, quite frankly, move to Atlanta, to the worst 
traffic in the Southeast. They would much rather stay in 
Umatilla or Fitzgerald, Georgia, or whatever, if they could 
only get connected.
    So, it reminds me a little bit of the connectivity issue a 
generation or so ago when President Roosevelt created the REA, 
the Rural Electrification Association, and the government 
helped provide expansion of the wires--in this case, 
electricity--which, in effect, lit up, not only rural Georgia, 
but rural America.
    I wonder if we ought not look upon the connectivity of 
rural areas of America in the same manner.
    Thank you very much for your service and your comments 
today.
    Senator Allen.
    Senator Allen. Thank you, Senator Cleland. Let me follow up 
on Senator Cleland's comments.
    The specific reference to your written testimony, which I 
read, and I know you expressed your views, but your written 
testimony--some of it is in more detail. I suspect that the 
answer to the question here is as far as communications 
capabilities, it needs to be a mix. There is no logical 
economic reason to have wire-to-wire Internet service. There's 
just too much dirt to dig to get to too few folks out in the 
country.
    And I did live in the country before I was Governor and was 
very happy when they actually delivered the newspaper to my 
house as opposed to the end of the road, which half the time it 
wasn't there. But at any rate, finally they did, because more 
people lived on a gravel road.
    But it is going to be a mix. It is going be terrestrial 
wireless. It will be a mixture in some cases, even in some of 
the small towns, it will be wire-to-wire, but it's going to be 
satellite. All of those opportunities need to be there.
    The analogy I would have in reading your comments about--
here, your first point--this is in addition to being in support 
of consideration of NETGuard--you pointed out ``ensure the 
availability and use of a wireless network--and I would add 
satellite--capable of providing public safety functionality at 
any time and place irrespective of population density or 
geographic location within the United States.'' I was reading 
that, and Senator Cleland, it's like the RDA, or what he was 
talking about. I think this is more like the Interstate system. 
The Interstate Highway System was designed--one of the 
justifications was national defense. You're talking about 
having the system here all over the country, with the side 
benefit, of course, of the Interstate, being we can drive 
easier. But it was national defense. And there are stretches of 
highway that--and I forgot, every so often that it could be 
used as a runway where there's a straight stretch. Now, 
obviously, we haven't used it much for national defense, but 
it's a great way to get around the country.
    And the same, while you're talking about having 
escapability, no matter whether you're out in the country or in 
the city or the suburbs, that you have this public-safety 
capability, and that's a reason for it. But again, the other 
beneficial reason is of communications and of commerce and the 
exchange of ideas and beliefs and so forth.
    So I find that a very interesting analogy and I think that 
that might be another reason for those of us who want to make 
sure that all people have those opportunities for their 
businesses, for their communities, and for their enterprises. 
This is just another good argument for security, because, in 
fact, I saw Senator Rockefeller, during this vote and told him 
of your commendation, commending remarks as far as that idea, 
and I think you're on that bill too, and we're all in favor of 
it.
    Now, the second point you made was to create a national 
emergency spectrum to be held in reserve specifically for 
public safety and emergency purposes. We've had a hearing in 
this Committee, a month or so ago, about the 3G spectrum. And 
so my concern with that is, can there be an existing spectrum 
allocation that could be used, because there's such a demand 
for existing spectrum that you wouldn't want this effort for 
national emergencies or public safety situations to have an 
impact on new entrants or spectrum allocations?
    Do you have a specific area that would not harm the ability 
of others to get into those new spectrums or use the existing 
spectrum?
    Mr. McCaw. That's a series of very good points. In terms of 
the 3G notion and public safety, I think we need to see public 
safety with inter-operability, and we need to see military 
inter-operability, frankly, the ability for NATO and others to 
communicate with us. But certainly public safety can 
accommodate that.
    I see much more of this being a public-private kind of 
cooperation with priority access, for instance. And it is 
possible to make public-safety spectrum use much more 
efficient, and we can help them do that. And I think we, in 
fact, have made a proposal through a company I'm involved with 
to help consolidate and increase their position while not 
taking away from the 3G efforts.
    And in many ways, whether you look at military or public 
safety, you need this notion that, in times of need, that you 
can almost slide back and forth between these elements and have 
a more flexible infrastructure that allows you to prioritize, 
based on national emergency, the access to some of that. And I 
think that would very much answer that question.
    Senator Allen. So it would not be a dedicated permanent 
spectrum allocation that could be a prioritization.
    Mr. McCaw. Well, you could have essentially boundaries with 
the ability of the border to slide back and forth, depending on 
circumstances and/or simple access across the border using 
similar technologies, which I think would clearly help a lot.
    Senator Allen. I understand. We are having another vote, so 
I have to get back. I am going to yield back to the Chairman. 
Thank you so much for your testimony and your very valuable 
time. Thank you.
    Thank you, Mr. Chairman.
    Senator Wyden. Thank you, Senator Allen, for keeping all of 
this going. As you can see, Mr. McCaw, it is really bedlam 
today.
    Senator Allen. Thank goodness you all do not run your 
companies the way this place is run.
    [Laughter.]
    Senator Wyden. Again, Mr. McCaw, I am so appreciative of 
the support and the counsel you have given me, and let me ask 
some additional questions to see if we can flush out some of 
these issues, given the fact that we have got your expertise 
and a chance to talk with you today.
    As you know, communications technology is converging in the 
digital world. The lines between voice and Internet and video 
or audio traffic and the delivery systems are essentially 
starting to blur. Would it be your sense that, given this 
extraordinarily rapid evolution of information technology and 
its implications for the country's vulnerability, that this 
could be an added benefit of an organization like NETGuard, 
because I think that if we are going to get out in front of 
these terrorists, who are going to have the same capabilities 
to deal with the new technologies, we need information from 
those in the private sector.
    I wonder, given the fact that you have studied the question 
of convergence of communications, as technology gets more 
complicated, whether it might be an added argument for the kind 
of approach we are talking about that the private sector could 
give us the ideas and the technical advice to help stay out in 
front of the terrorists.
    Mr. McCaw. I think it is a really good question. One of the 
things that has occurred to me is, of course, you always want 
to be--there are two parts to it. One, you want to make sure 
that you do not give your enemy the tools to defeat you, and 
there is some risk of that in our technology being so 
available, so egalitarian, and that is a reason that I think 
you can benefit from the very best minds looking forward and 
suggesting the vulnerabilities, and what they might do to us, 
and how to beat that.
    So not merely in a defensive, but in an offensive mode, and 
likewise a recognition of how to protect those certainly can 
come from those minds, so there are really two sides to it, and 
both are of benefit from what I would call the deep thinkers, 
who do not necessarily come with a commercial point of view, 
because I think there is a lot of risk to a commercial point of 
view that many committees in the past were built on, because 
big companies were the repository of those minds, and now those 
minds, through the power of those technologies they have 
created, have become very independent and live in funny places 
all over the country.
    Senator Wyden. I am very interested, as well, in the point 
you made about the need to move away from highly centralized 
and concentrated communications networks. I mean, it seems to 
me that as you look to the future, and the Internet is a 
perfect example, it is the essence of a decentralized system. 
You have got all of these opportunities around the world to be 
part of it, and I wonder if you could amplify a bit on your 
ideas for moving, particularly in a transition from a 
centralized kind of system to a more decentralized focus for 
wireless and wire line networks as it would relate to a 
NETGuard and a volunteer technology force.
    Mr. McCaw. Well, certainly the Internet, lest we ever 
denigrate government, the Internet was a government idea for 
survivability, which the private sector hijacked a very good 
idea and took it in a lot of directions that were not 
originally contemplated, and I think it was the brilliance of 
that on both sides that has created something that frankly has 
put this country so far ahead globally in commerce as well as 
trade in those kinds of products, and frankly, the software 
that goes with it, and so I think continuing that process and 
facilitating it is a key asset that we have.
    Years ago, we dominated transportation, and we no longer 
dominate transportation globally, except perhaps in package 
delivery, where I think we still do. In terms of other things, 
of creation and creativity, that public-private partnership 
that the Internet represents a form of is just absolutely 
central to what will keep us ahead in the world, and keeping 
the minds working closely with the power of the government, the 
Federal Government in that respect is crucial, and I think that 
evolution can be frankly substantially enhanced.
    But again to your point, the Internet is taking us away 
from vulnerability. It is a great place that we are going, and 
then we only have to ask the question to make sure that the 
connectivity, the baseline networks that serve the Internet, 
the backbones, are safe from terrorist incursion, and in that 
sense I include the very broad definition of terrorist, 
including industrial terrorists who would tend to slow down or 
move back our economy.
    Senator Wyden. Let me ask you now about national emergency 
communications sytems. In your testimony, you call for 
establishing a national emergency telecommunications access 
system to allow our public health and safety users priority 
access on the Nation's various telecommunications satellite 
wire line and wireless networks. How would you envisage that 
kind of system working?
    Mr. McCaw. That is a good question. I think first, we can 
recognize that a lot of the information that is now flowing 
will increasingly become discretionary data. In other words, if 
someone is out shopping on Amazon, it really is not necessarily 
central if we grab some of their data capacity and put it to 
the national defense. It is not like the old way, where we had 
a fixed number of dial tones and there was a certain grade of 
service allocated based upon a usage pattern. It was sort of 
.05 grade that on a normal day, 95 percent of the time you 
would get a dial tone, and that is binary.
    In the new form, I think you can simply hive off some of 
this discretionary data that people might otherwise be doing 
and is increasingly part of the traffic, and grant it over to 
higher use, so priority access will not have the kind of 
negative repercussions, or the notion that we have now, where 
your home phone might not work if someone granted priority 
access to someone else, so frankly we see very little downside 
to that, and it is a matter, then, of getting us and those 
network operators to simply create a very simple and effective 
mechanism that is not subject to undue abuse.
    Senator Wyden. You also spoke in your testimony about what 
would happen with people in the urban areas in times of 
emergencies leaving those densely populated areas and going to 
rural areas, and you indicated the concentration of 
communications equipment in one area was in your view partially 
responsible for the telecommunications breakdown of September 
11.
    I think this is a very interesting point, one that really 
does warrant further analysis. I wonder what transmission 
technologies you think are most appropriate to ensure that we 
are addressing the needs of communications networks in both 
urban and rural areas in a time like that.
    Mr. McCaw. Certainly, I think I would view it as a wedding 
cake, perhaps a reverse wedding cake, but perhaps more similar 
that you have an overlay using all of the technologies. A wired 
technology is the most efficient way to get huge amounts of 
data from point A to point B, so if you know two places you 
want to go, we recognize that is the best way. Fiberoptic cable 
will do that the best.
    It turns out we cannot count on people to stay in the same 
place, not to move, not to move the kind of traffic, and 
traffic moves during the day, so within that, then building 
almost like the arteries of a human being, you build along a 
structure that takes you all the way up to the ability to--so 
you go then, next to terrestrial networks that move large 
amounts of data, and the highly mobile networks, and then 
networks which are truly egalitarian in their coverage, those 
being the satellite kind of networks which cover everywhere, 
but frankly are less efficient simply because they do cover 
everywhere, and so each one is a little less efficient than the 
other to provide the flexibility, so it is an efficiency versus 
flexibility calculus, that in creating an entire mix gives you 
the kind of infrastructure that will allow you to have those 
elements occur.
    However, I would say--and one can build within those 
structures flexibility for something like a flight from New 
York City, or pick any city. That you could concentrate the 
capabilities and have resources available to put in place 
rapidly to support those people as they moved out into a rural 
area where there are five people on a party line, that is just 
not going to work, so having those ready to deploy is one 
element, warehousable, thought through, the NETGuard team ready 
to deploy and put that in place, as well as flexible and 
deployable capacity from satellites I believe all fit within 
that framework.
    Senator Wyden. I think the last question that I had for 
you, and you have been very patient, is what do you see as the 
biggest challenge to the communications infrastructure during a 
national emergency? As you said, the threats constantly change, 
and it is understood that terrorists are not technological 
simpletons. They are people who are studying these issues as 
well. What would you say would be the biggest challenge of the 
communications infrastructure during a national emergency?
    Mr. McCaw. If I were to answer, my biggest concern is the 
lack of flexibility in the infrastructure to accommodate 
massive changes and movement in demand, and I think that is 
what we heard the most about, so the challenge is to be able to 
respond rapidly, and by rapidly I mean much more quickly than 
we did in New York, to cover up the fact that there has been a 
massive dislocation of people from a place to another place and 
a massive increase in the need to move information of a 
critical nature, and that is the balance between the efficiency 
and the importance of that flexibility.
    And so I think that our challenge is to make sure that 
those assets, the people and the equipment, are available to 
respond to those circumstances and they will occur if someone 
attacks, so it occurs from one of two circumstances. Either you 
move the people from where they normally would expect to be, or 
you damage the terrestrial infrastructure substantially, and on 
September 11 we had a bit of both, but frankly much less than 
it could have been.
    Senator Wyden. Well, to have someone like yourself--and I 
noted earlier, I think you are really regarded as the ``Father 
of Wireless''--in a position to really call on the Congress to 
mobilize technology specialists, to mobilize scientists, is 
just an extraordinary contribution.
    I want to see you proselytize, if I can use that word, the 
way for technology and for the kinds of ideas we are talking 
about this morning, and we are going to figure out a way to 
make sure that the government and people in the technology and 
science fields can come together so we can tap the potential 
that is out there. Your contribution has just been exceptional, 
and I know that this fellow resident of the Pacific Northwest 
is very appreciative. Is there anything you would like to add 
further, else we will excuse you for being so patient.
    Mr. McCaw. Thank you, sir, and I will proselytize on behalf 
of the far better minds that we could bring to the process, and 
it is an honor to be here with you, and thank you.
    Senator Wyden. Thank you very much.
    Our next panel will be Mr. Roger Cochetti, Vice President 
and Chief Policy Officer, VeriSign; Ms. Julie Coppernoll of 
Intel; Mr. Will Pelgrin, with Governor Pataki and the 
Technology Office for the State of New York; Ms. Sarah Roche, 
Director of Client Services for Upoc; Mr. Stephen Rohleder, 
Managing Partner of USA Government for Accenture; and Mr. Joe 
Sandri, Vice President and Regulatory Counsel for Winstar. So 
if all of you will come forward, we welcome all of you.
    We thank you for your patience. We are going to make your 
prepared remarks a part of the hearing record. Why don't we 
begin with you, Mr. Cochetti, and let us get you a microphone, 
and you just proceed.

STATEMENT OF ROGER J. COCHETTI, SENIOR VICE PRESIDENT AND CHIEF 
                 POLICY OFFICER, VeriSign, INC.

    Mr. Cochetti. Thank you very much, Senator Wyden, and thank 
you for accepting my statement as a part of the written record. 
First, let me begin by thanking you and the Members of the 
Subcommittee for sponsoring this series of hearings on what we 
think is a very important subject, and for the creativity and 
insightfulness of some of the ideas you have already proposed.
    My name is Roger Cochetti, and I am Senior Vice President 
for Policy and Chief Policy Officer of VeriSign. I am pleased 
to be here today to address the issues of security and the 
Internet in the context of the September 11 terrorist attacks. 
Before I get into the main part of my comments, Senator, I did 
want to spend a moment and thank you and other Members of the 
Senate for the leadership you recently exercised in seeing the 
extension of the Internet tax moratorium.
    While there were a cacophony of voices expressed on this 
bill and what it really meant, the reality is that this bill 
principally prevented discriminatory taxes against transactions 
that occur on the Internet, so it was a fairness measure, and 
we appreciate your and other Senators efforts to seek its 
support, giving the Internet industry time to deal with a very 
complex and difficult problem.
    It is particularly appropriate, Senator Wyden, that 
VeriSign participate in today's hearings, because we are the 
premier trust company on the Internet, and perhaps more than 
any other company that one can think of, we are concerned about 
security of the Internet. VeriSign offers critically important 
digital trust service which include the most important elements 
of the Internet's domain name system called the DNS Secure 
Authentication Services in the form of digital certificates 
called digital signatures and payment services for web-based 
merchants.
    In fact, we are the world's leading provider of domain name 
electronic authentication of web merchant payment services 
which together make up the essential elements of the Internet's 
infrastructure and without which the medium as we know it today 
could not function.
    As the 1997 report of the President's Commission on 
Critical Infrastructure Protection observed, the Internet has 
emerged as the single pervasive infrastructure relied on by 
every other keystone segment of our economy, financial 
services, electric power, water, health care, manufacturing, 
transportation, and telecommunications.
    Accordingly, all of us at VeriSign are acutely aware of the 
millions of retail merchants, universities, banks, businesses, 
libraries, museums, government agencies, and just plain 
families and individuals who rely on our facilities and our 
services billions of times each day, and we are acutely aware 
of our responsibility to maintain those facilities and services 
at the highest possible level of reliability.
    Because of our unique and highly trusted role in making e-
commerce and the Internet work, we have had a longstanding and 
fundamental commitment to security, thus, for us, the tragic 
events of September 11 provided a sad confirmation that our 
attention to security had not been misplaced. They also served 
as a reminder that our concern for security must be constantly 
refreshed and spread throughout the Internet.
    Mr. Chairman, you have asked us to comment on the concept 
of a volunteer technology NETGuard and a strategic technology 
reserve. Our simple answer is that we think that these are very 
constructive ideas which obviously require a lot of careful 
thought. To help that careful thought, let me explain a little 
bit about how Internet security actually works. The Internet, 
as you well know, is a network of networks that come together 
mainly because of common interface software protocols and 
common numbering and naming systems and services.
    The most visible and important of these systems that permit 
hundreds of thousands of distinct networks to communicate with 
each other is called the domain name system, or the DNS. This 
is sometimes referred to as the air traffic control system of 
the Internet, and under it, top-level domains permit users to 
navigate among web sites and e-mail users to identify each 
other and send e-mails to each other. Top-level domains include 
the ubiquitous .com, .net, .org, and such well-organized 
domains as .gov, .edu, and more than 240 country code top-level 
domains such as .cc or .uk.
    Among our roles, Mr. Chairman, is to operate the most 
important elements of the DNS, and at this level we do a lot to 
maintain the integrity of the Internet as a whole, but the 
Internet is made up of more than the high-level domain-name 
system that we operate, and the standards, the high level of 
security standards we apply. We all know it is made up of 
millions of individual web sites and hundreds of thousands of 
interconnecting networks, and it is at this level of the 
network operator and the web site operator that the greatest 
vulnerability exists.
    This background, Mr. Chairman, is important to 
understanding both the impact of the September 11 bombings on 
the Internet and the principal role that a NETGuard and a 
technology reserve might play with regard to Internet security. 
We all know today that the Internet continued to operate 
without any noticeable disruption after the September 11 
bombings in part because of our uninterrupted operation of the 
key route servers and the common domains.
    In fact, the Internet was an essential element in both 
response and recovery for the September 11 events. Millions of 
people were assured of the safety of their friends, families, 
and colleagues, for example, due to the smooth operation of the 
Internet, but while at least the high level of the Internet 
continued to operate smoothly on September 11, not all of it 
did. Some individual web sites and some individual networks 
were adversely affected, and some actually went down. It is at 
this level that we must focus our attention and consider the 
role of a NETGuard and a technology reserve.
    Not every individual network and not each web site needs to 
devote as much attention to reliability and security as does 
VeriSign, but many need to devote more, and many could use the 
help of qualified technology volunteers and reserves.
    In conclusion, Mr. Chairman, while the Internet has changed 
quite a bit since VeriSign first assumed responsibility for 
major parts of the DNS in 1992, one thing has not changed, and 
that is the trust that people must place in the core network 
operators, our operation of .com, .net, and .org, is set at a 
level of reliability that is higher than the six sigma 99.999 
percent that is used elsewhere in the industry standard, 
because we do not think we can take chances at people's ability 
to reach the web site that they wish to go to. We hope that the 
Subcommittee as it pursues this subject would focus on several 
key areas in addition to the NETGuard and technology reserve 
you have already suggested.
    First, we must, as the White House has now done, identify 
this as an area of priority concern, second, we must, as the 
White House is now doing, develop a strategy for how to address 
threats to cyberspace, and third, we must closely monitor the 
infrastructure and seek early detection of threats to its 
operational stability.
    There are specific things we think the Senate can do, Mr. 
Chairman and let me enumerate four of them, and thank you for 
your time in doing so.
    One: The enactment of legislation that would reduce some of 
the risks incurred by companies if they share sensitive network 
information with Federal agencies concerned about security, a 
point you have already mentioned in your opening remarks.
    Two: The wide use of security audits among both Federal 
agencies and Federal contractors would be a constructive step.
    Three: The strengthening of various Federal consultative 
mechanisms that permit information-sharing and planning between 
the private sector and Federal agencies concerned with Internet 
security would be very constructive.
    Four: Federal support for the wider use of both encryption 
and PKI-based authentication tools, which together can help 
ensure a significant increase in both the general security of 
the Internet and the security of e-commerce and e-government 
would be very constructive.
    Thank you for inviting us to testify, Mr. Chairman. We look 
forward to cooperating with the Subcommittee if you pursue 
these important proposals.
    [The prepared statement of Mr. Cochetti follows:]
  Prepared Statement of Roger J. Cochetti, Senior Vice President and 
                  Chief Policy Officer, VeriSign, Inc.
    Mr. Chairman, Members of the Subcommittee: My name is Roger 
Cochetti. I am Senior Vice President-Policy and Chief Policy Officer of 
VeriSign, Incorporated. I am pleased to be here today to address the 
issue of the security of the Internet in the context of Homeland 
Security and the aftermath of the September 11th terrorist attacks.
    It is particularly appropriate, Mr. Chairman, that VeriSign 
participate in today's hearings because we are the premier trust 
company on the Internet and, perhaps more than any other company that 
one can think of, we are concerned about the security of the Internet. 
VeriSign offers critically important Digital Trust Services, which 
include the most important elements of the Internet's domain name 
system (called the DNS), secure authentication services (in the form of 
digital certificates called digital signatures) and payment services 
for Web-based merchants. In fact, we are the world's leading provider 
of domain name, electronic authentication and Web merchant payment 
services, which together make up essential elements of the Internet's 
infrastructure and without which, the medium as we know it, could not 
function.
    As the 1997 Report of the President's Commission on Critical 
Infrastructure Protection observed, the Internet has emerged as a 
single pervasive infrastructure technology relied on by every other 
keystone segment of our economy--financial services, electric power, 
water, health care, manufacturing, transportation and 
telecommunications. Accordingly, all of us in VeriSign are acutely 
aware of the millions of retail merchants, universities, banks, 
businesses, libraries, museums, government agencies, civic 
organizations, and just plain families and individuals who rely on our 
facilities and services billions of times each day. And we are acutely 
aware of our responsibility to maintain those facilities and services 
at the highest possible level of reliability.
    Because of our unique and highly trusted role in making e-commerce 
and the Internet work, we have had a long-standing and fundamental 
commitment to security. Thus, for us, the tragic events of September 
11th provided a sad confirmation that our attention to security had not 
been misplaced. They also served as a reminder that our concern for 
security must be constantly refreshed and proliferated through out the 
Internet economy.

                            QUESTIONS POSED
    In the Subcommittee's hearing announcement, Mr. Chairman, you have 
asked us to focus on a series of questions directed at the physical 
technology infrastructure resources--how they were impacted by 
September 11th, whether a corps of industry experts would benefit the 
response or aid in mitigating the impact of any future episodes, the 
usefulness of caches of spare supplies of technology appliances like 
cell phones and laptops, what other benefits might be derived from such 
preventive measures and organization.
    As the Subcommittee knows, the World Wide Web operates in a 
hierarchical structure, with Top Level Domains (TLDs) serving as the 
main divisions among Websites. Domain names serve as the directories 
for the Internet and the Domain Name System (DNS) is sometimes 
described as the ``air traffic control system of the Internet.'' TLDs 
include the ubiquitous dot com/net/org, such well-recognized domains as 
dot gov or dot edu, and more than 240 country code TLDs, such as dot us 
or dot uk.
    The directory of all of these TLDs is created and distributed in a 
network called the Internet's Root Servers, and we operate the primary 
of these root servers, the so-called ``A Root'', which has been 
described as the single point where the entire Internet comes together. 
The authoritative list of the Internet's TLDs originates in our A Root 
and from there it is distributed to other root servers, including our 
own, around the world.
    In addition, we operate the largest and most popular top level 
domains on the Internet, .com, .net, and .org, through a network of our 
own servers in North America, Asia, and Europe. Finally, we operate a 
number of smaller domains, such as .edu, typically under contract to 
the organization that is that domain's legal registry operator. In all 
of these DNS functions, we ensure that the Internet's DNS is available 
and reliable, notwithstanding both its dramatic growth (we now process 
more than 5 billion communications and transactions daily) and frequent 
unintentional and intentional threats to its operational stability.
    Because VeriSign operates in this aspect of the domain name system 
at the highest level of the Internet's architecture and because many of 
the most serious threats to the security of the Internet occur at the 
level of the network or Website operator, we cannot claim to have a 
close view of some of the Internet's most vulnerable elements. It is 
clear to us, however, that all elements of the Internet, but most 
particularly network and Website operators who are the most at risk, 
would benefit from some form of catalogue of experts and reservoir of 
equipment. So, our short answer to the Committee's questions is 
generally ``yes, it would be useful to pursue something like what has 
been raised'' On the other hand, it would be impossible to predict that 
either a catalogue of experts or a cache of supplies will be necessary 
or useful in the event of any future emergencies, since so much depends 
on the context and circumstances.

                         BACKGROUND TO THE DNS
    Thirty years ago, the U.S. Government began research necessary to 
develop packet-switching technology and communications networks, 
starting with the ``ARPANET'' network established by the Department of 
Defense's Advanced Research Projects Agency (DARPA) in the 1960's. 
ARPANET was later linked to other networks established by other 
government agencies, universities and research facilities and during 
the 1970's, DARPA also funded the development of a ``network of 
networks;'' which later became known as the Internet. The protocols 
that allowed the networks to intercommunicate became known as Internet 
protocols (IP).
    Until the early 1980's, the Internet was managed by DARPA, and used 
primarily for research purposes. Nonetheless, the task of maintaining 
the name list became onerous, and the Domain Name System (DNS) was 
developed to improve the process. Also, during this time, management of 
the network was passed from DARPA to the National Science Foundation 
(NSF), which referred to the medium as the NSFNET.
    In 1992, the NSF entered into a Cooperative Agreement with Network 
Solutions, Inc. (NSI), which company was subsequently acquired by and 
merged into VeriSign. Under the Cooperative Agreement, NSI (now 
VeriSign) provided a variety of DNS services, including the domain name 
registration services and the operation of key parts of the Internet 
Root. Also in 1992, the U.S. Congress gave NSF statutory authority to 
allow commercial activity on the NSFNET. This facilitated connections 
between NSFNET and newly forming commercial network service providers, 
paving the way for today's Internet.
    In 1998 and 1999, after authority over the Cooperative Agreement 
had transferred from NSF to the Department of Commerce, amendments were 
negotiated which introduced a new entity into the management of the 
DNS, the ICANN, and which introduced competition at the retail 
registration level for .COM, .NET and .ORG names. In the spring of 
2001, the agreements between the Department and VeriSign, the 
Department and ICANN, and VeriSign and ICANN were substantially 
modified and extended; and later this year, new TLDs--such as dot 
info--were introduced. All of this against the backdrop of dramatic 
growth in the use of country TLDs, such as dot de and dot uk.

                     VERISIGN AND INTERNET SECURITY
    While the Internet has changed quite a bit since VeriSign (through 
NSI) first assumed responsibility for major parts of the DNS in 1992, 
one thing has not changed much at all: The trust that others have 
placed in VeriSign and our commitment to the highest level of 
reliability. This is equally true of our digital signature services--on 
which hundreds of millions of dollars worth of transactions rely--as it 
is our domain name services--on which hundreds of millions of users 
rely. We bring that same commitment to our payment services and our 
expansion into new Internet services.
    For example, in our operation of the dot com TLD, our standard of 
performance is such that we view the traditional ``six-sigma'' 99.9999 
percent accuracy as insufficient, since it would permit some 40 bad 
Internet connections daily. If of those occurred on a site like aol.com 
or Amazon.com, the consequences could be significant. And so, that 
level of error is simply, for us, unacceptably high.
    To engineer a secure system with the level of accuracy and 
stability required for a nearly error-free Internet is costly and 
complex. Unlike most other networking challenges, it cannot be shared 
with our clients and customers, whose technology investment need only 
be quite modest by comparison to fulfill their role as an ISP or a 
network operator. Unfortunately, this disparity can exist not only in 
required investment in physical infrastructure, but sometimes in 
security practices as well.
                          since september 11th
    As I mentioned earlier, the sad events of September 11th proved, if 
it was needed, that we must both prepare and carefully plan for 
security threats. Since then, we have expanded our efforts to reach out 
to both government and others in our industry and share both our 
experience and accumulated knowledge in this area.
    Among the areas that we think deserve continued, priority attention 
are: 1. We must, as the White House has now done, identify this as an 
area of priority concern; and 2. We must, as the White House is now 
doing, develop a strategy for how to address threats at all levels to 
the Internet; and 3. We must closely monitor the infrastructure and 
seek early detection of threats to its operational stability.
    Finally, in addition to the very important ideas that the 
Subcommittee is already considering, we would encourage the following 
steps: 1. The enactment of legislation that would reduce some of the 
risks incurred by companies if they share sensitive network information 
with Federal agencies concerned about security; 2. The wider use of 
security audits both among Federal agencies and Federal contractors; 3. 
The strengthening of various Federal consultative mechanisms that 
permit information sharing between the private sector and agencies 
concerned with Internet security; 4. Federal support for the wider use 
of both encryption and PKI-based authentication tools, which together 
can help ensure a significant increase in the general security of both 
the Internet and of e-commerce and e-government.
    In conclusion, Mr. Chairman, let me say that the events of 
September 11th were pivotal for the Internet, as they were for almost 
every other major element in our society and economy. Fortunately, the 
Internet's core infrastructure, including the DNS, operated without 
interruption. But September 11th serves as a reminder that the next 
threat may not be so easily contained and it is for that threat that we 
must be prepared.

    Senator Wyden. Ms. Coppernoll, thank you, and let me take 
also special note of the fact that there is a very large 
employer in Oregon. Intel makes a variety of contributions on 
many fronts, but you and your Oregon folks have been 
exceptionally helpful on this, from Andy Grove to a variety of 
others. We are very appreciative of your ideas and input and 
all you did to immediately arrive in New York, so you proceed 
with your testimony.

   STATEMENT OF JULIE COPPERNOLL, TECHNICAL ASSISTANT TO THE 
            CHAIRMAN OF THE BOARD, INTEL CORPORATION

    Ms. Coppernoll. Thank you, Senator Wyden. Thanks for 
including Intel, and thanks for including me. As you know, I am 
also from Oregon, and Intel is on the West Coast, so it was a 
little bit more difficult for us to respond immediately after 
the events of September 11. But Intel, all of our employees, 
the entire company had to try and find a way to respond, and we 
picked up a variety of people and we relocated ourselves along 
with some equipment with no immediate specific objective except 
to try to find a way to take the technology that we utilized on 
a day-to-day basis and to try to help.
    We went there with hopefully just the goal of trying to 
find a way to take the technology, instill it, and set it up so 
that it could be used for rescue efforts for whatever efforts 
we could find. We set up three specific projects and offered 
them just as examples. They are detailed in the testimony, but 
when you talk about the context of a NETGuard, they might be 
some examples of ways and conditions and things that actually 
could be accomplished.
    We set up Internet access for all of the FEMA search and 
rescue workers that were located in the Javits Center. There 
were approximately 700 of them with three telephones. They did 
not have access at all to anybody from the outside world, both 
from news media as well as just communicating with their 
friends, with their families. The ability to take the Internet 
and to take the computers and to keep their lives going while 
they attended to the activity they found incredibly helpful.
    We also found that because we are on the ground we ended up 
finding ourselves in a situation of being IT support for the 
numerous FEMA workers that were also deployed, and many of 
those workers, along with the search and rescue teams, were 
deployed with some technology, not necessarily knowing how to 
utilize it, or what they can do with it, or what it can 
accomplish, and they might have some very, very basic skills, 
but not necessarily anything advanced to even do some of the 
very ad hoc things that we all know that work with it every day 
that it can do.
    Because we were there on the ground we had lots of other 
opportunities, and as Director Allbaugh described, it was a 
little bit of randomness of knocking on people's doors, trying 
to say we are here to help, we are here to help you in whatever 
way we can with whatever equipment and resources we can.
    We found ourselves at the Ground Zero site assisting with 
the military, militia, National Guard reservists that were 
there trying to provide security. When we walked into that 
situation, they were keeping records of everybody that they 
were issuing access to the site on pen and paper, and had no 
ability to access it, query it. We set up a database for them, 
helped their processing time, and just tried to take the basic 
technology that they were not necessarily aware could even do 
anything for them.
    Senator Wyden. Are you saying that when you went there, 
there was essentially no information technology effort 
underway, people were trying to keep track of everything on 
paper and pencil?
    Ms. Coppernoll. At the Ground Zero site, that was true. The 
way they were issuing passes, and ID, and badges, they were 
doing it on paper, and they did not have the technology that 
they had been deployed with. There were certainly pockets and 
areas where there were good examples of where it was being 
utilized, but that was not necessarily one of them.
    And then additionally, one of the other larger projects 
that we got involved with, just simply also by being on the 
ground and offering assistance, was in the rebuilding business 
campaigns. Obviously, there were a lot of affected businesses. 
We also walked into the situation where there were phone calls 
coming in to city and State, and the chamber of commerce at the 
city, of businesses that needed assistance as well as 
businesses--I am sorry, businesses donating goods and services, 
and what Director Allbaugh described as no system to match 
those.
    We built a system in about 2 days, of a database for them, 
while doing a quick search to see whether anything was out 
there, and so we built a matching system where they could take 
incoming calls, query them across three State agencies, 
government agencies, as well as people calling in donating 
goods and services, and they were just simply amazed that it 
could be done, and from our perspective it was obviously not a 
very time-consuming and not a very difficult thing to make 
their jobs and their lives a little easier.
    So I offer those examples as just some of the areas. There 
were lots of other things that we ended up doing. We did end up 
being IT resources for a variety of organizations. Stuyvesant 
High School team has approached us to look at their network 
before they reopen for business--there are 4,500 students that 
have been out of the school for about 3\1/2\ weeks--when they 
return there to help bring their network back up.
    All of these examples, and the many more that I could 
describe, were simply because we really were on the ground. We 
were offering assistance. We were not looking for any 
compensation, just walking around, and it was very difficult to 
find the networks, to find the places, knocking on doors.
    It was very difficult to get in some of the doors if you 
were not already previously credentialed, and you walked up and 
said you are from Intel Corporation and you are here to help, 
and you have a team of technologists, at the same time trying 
to explain to people that do not necessarily know what 
technology can do for them, what it really can do for them in 
this particular situation, and trying to pick the projects that 
will give them the highest return and get them up and running 
as quickly as possible.
    For the search and rescue teams, for them it was the 
ability to keep their lives intact, the ability to do banking 
for them. They were displaced from their cities for 3 to 4 
weeks, attend class, keep in touch with their families, send 
birthday cards. They would have available free time at 2 in the 
morning, and that certainly was not when they could pick up the 
phone and be in contact with anybody that they needed.
    We know that technology is very powerful, it is very 
flexible, it is very dynamic. The more that it is pervasive, 
obviously, the more people depend on it, and when it is not 
available the more difficult it is, and so we were trying to 
make sure that it was available for anything that they could 
do.
    The concept of a NETGuard, we know that there is a variety 
of ways that it could be implemented. Intel is committed to 
working through the ideas and finding the ways from the on-the-
ground, ad hoc assistance, roll up your sleeves, what needs to 
be done to the variety of preplanning, predeveloping 
applications that could be deployed across a variety of State 
and Federal organizations for these types of situations.
    When I took a taxi in one morning with the fire chief for 
FEMA and was discussing with him the moments of the day, he 
reminded me that there were 60 other Federal emergencies that 
were going on that were not getting the attention that New York 
City was, and when I was explaining to him some of the things 
we were doing, he said, ``we could really use you at some of 
those other 59 places that we are equally deployed at that also 
do not necessarily have technology available to them.''
    There were lots of examples of National Guard people that 
were deployed out at the site that had laptop computers but did 
not necessarily know how to turn them into something that was 
useful for them.
    So in conclusion, I think, Senator Wyden, one of the things 
you said earlier I think is exactly to the point, which is 
leadership and organization. There were lots of people that 
wanted to help. They just did not know what to do. They did not 
know how to take the technology that was available, and Intel 
was somewhat of an accidental leader in this process.
    Because I was physically there, I had hundreds of people 
coming up to me: ``How can we help? Just tell us what to do.'' 
We would try to say ``what do you need?'' to some of the 
organizations that did not know how to necessarily articulate 
what they needed. I would go off and say, ``OK, what if we did 
this for you?'' They would say, ``that would be perfect.'' I 
would go off and give leadership and direction to people who 
could turn around and execute something, deliver something back 
to them in a day or two, and they could be on their way, and 
then they could depend on technology that was helpful to them 
while they were trying to do their jobs.
    So I think organization and leadership, I think 
mobilization and quick response is obviously very important. We 
did not end up in New York until 5 days after the activity. We 
obviously would have been more helpful if we had been there 
earlier, being on the West Coast did not help. Getting across 
the country was very difficult, and then trying to plan 
something from across the country, when Blackberry 
communication devices were about the only thing you could 
utilize. Just, it speaks to the obvious of anything we could do 
to preplan anything that we could do to have contingency plans 
in place. I think the technology industry itself would easily 
and happily come together to support that activity.
    [The prepared statement of Ms. Coppernoll follows:]
  Prepared Statement of Julie Coppernoll, Technical Assistant to the 
                Chairman of the Board, Intel Corporation
    Good morning and thank you to Chairman Wyden and the entire 
Subcommittee for the opportunity to testify before you today on behalf 
of Intel Corporation. As a leader in the computing industry and 
supplier to the Worldwide Internet economy, we were fortunate to have 
had the opportunity to put our resources to use assisting our Nation 
with the crisis the struck us on September 11th. Technology has 
continued to advance and integrate itself into our every day lives, 
such that we now depend on it for many things. In the aftermath of the 
tragic events of September 11th, we hoped to take this technology and 
use it to assist in the relief efforts. I am here to share with you 
what we were able to accomplish and what we believe technology could do 
in the context of a technology NETGuard.
    As with many people across the country, we were alerted to the 
crisis through cell phones, pagers, e-mail, the Internet, television 
and phone calls. Suffering from shock and dismay, everyone at Intel, 
from our domestic to international shores, from engineering to 
marketing, from factory worker to executive, all wanted to find a way 
to assist. Being across the country did not deter or diminish our 
desire (much like the rest of the country) to find a way to assist. 
Intel donated $1 million to the Red Cross fund and matched employee 
contributions of $1 million but we still wanted to do more. We packed 
up available equipment (approximately 75 computers, networking 
equipment and digital cameras) and 15 employees headed for New York 
City.
    After several days of planning (a very difficult activity from the 
West coast), our first project included a 24 <greek-e> 7 Internet 
access center inside the Jacob Javits Center where the Federal 
Emergency Management Agency's Search and Rescue teams were stationed. 
Intel employees provided around the clock technical assistance for our 
24 computers and quickly became IT support to the variety of other 
staff and volunteers working within the Javits center.
    The 700 Search and Rescue members stationed there would visit us 
before and after they returned from 12-hour shifts at Ground Zero. Our 
computers reached close to 100 percent utilization 24 hours a day. They 
reached out to friends, they assured family members of their safety, 
maintained contact with their jobs, completed their banking, sent 
birthday cards, and even attended class over the Internet. Many of the 
rescue workers were not familiar with personal computers: for them we 
provided a high touch personal assistance, a sort of digital concierge. 
Others were PC experts, and although they had brought laptop computers, 
they had no connectivity until we set up a wireless network.
    Technology made the experience a little more palatable for many of 
these individuals. We received many tear-filled words of thanks from 
rescue workers who were able to stay in contact with their loved ones, 
in an environment with only 3 phones available to the 700 workers. I 
have also included one of the thank you notes we received via e-mail:
Subject: Thanks from Miami Florida
    I would like to say thanks to the group from Intel that was present 
at the Jacob Javits center in Manhattan, New York after the Sept 11 
tragedy. I am a member of South Florida Urban Search & Rescue Team FL-
TF 2, we were deployed to New York and during our 16-day journey, our 
team, as well as other US&R teams had to leave our families and jobs to 
assist the city of New York. Your team arrived and setup a well-needed 
link to our families and the rest of the country.
    At 1:15 p.m. 9/11/01 most of the US&R teams were alerted or 
standing vigil, awaiting word from FEMA. We were all cut off from the 
media and eventually ended up in military installations, basically we 
were not able to watch the news because we were preparing our equipment 
and ourselves for what we were about to see. When the computers were 
setup, we were able to see the news from around the world as well as 
our hometown. My family really appreciated the fact that I could send a 
picture of myself along with an e-mail. My young children can't relate 
to words, but the picture really made their days. I am speaking for 
everyone by saying thanks and please send this to everyone that was 
present as well as your superiors.
    Sincerely, Kevin Bartlett, Cooper City Fire Rescue.

    We sought out other projects to utilize our fully contained 
(generator, trailer, satellite dish) mobile PC center. We were invited 
to station ourselves next to the Office of Emergency Management's 
ground zero branch at PS89. This facility was operating in conjunction 
with the Militia Forces of the State of New York, who were providing 
perimeter security. Until our arrival, the security management system 
was a pencil and paper operation. We built and deployed a simple 
security application data base for their use. After a security 
management team member was approved for access to the site, he or she 
entered the individual's name along with other personal information 
into the data base before issuing an access badge. Besides an increased 
processing time (three times faster), this method allowed the records 
to be backed up, transferred, printed, and accessed later for quick 
verification. We quickly become the IT support at PS89, supporting any 
technical needs that the operating team had.
    Another area of focus for us was rebuilding businesses. We were 
invited to participate in some of the early discussions and planning 
for the rebuilding activities that The New York City Partnership began. 
Intel supported this organization with personal computers for their 
volunteers, developed an Internet application that would log donations 
of goods and services and track affected businesses. A link was 
established between the City and the State call centers to allow these 
organizations to work together, on the same data and the same customer. 
We stationed an Intel employee full-time at the Partnership's location 
to assist as affected businesses began articulating their technology 
needs and to decipher what they needed and match it to what was 
available. Technology assisted in unifying three government teams 
trying to service the same audience.
    Our presence and willingness to help provided us with several other 
meaningful opportunities. Although it was difficult to broadcast our 
offers of assistance, word eventually spread through casual networks. 
We assisted the Board of Education with an evaluation of the Stuyvesant 
High School's network before they reopened the school. We loaned 
laptops to the several members of the FBI/NY Port Authorities joint 
terrorism task force. We restored infrastructure for one of our 
customers, Reuters. We relocated and helped rebuild operating 
infrastructure for an Intel Capital Portfolio company. We loaned 
equipment to several small businesses trying to restart operations. We 
counseled and consulted with several non-profit organizations as they 
began to restore operations.
    We wish we could have done more. We let the grass take root where 
it did.
    Technology played a critical role on September 11th. Many of us 
used it to communicate with our loved ones, our family members, our 
friends and our business associates in order to ensure their safety, to 
hold hands with each other over the Internet, and share in each other's 
pain. Within a few hours of the initial attack, the Internet, 
computers, pagers and our cell phones supported our quest for 
information. Some of the statistics that have been reported show the 
following happened with the first few hours: 1.2 billion instant 
messages were exchanged on AOL compared with 650 million normally/day. 
Volume was up 40 times at Yahoo!News and Yahoo's new PC-phone calling 
was up 59 percent. CNN.com received 9 million page views within hours 
versus 11 million in an average day. For the handheld Blackberry e-mail 
device, traffic was up 57 percent. The Internet gave us an instant 
platform for community action with $50 million in donations collected 
within the first 3 weeks.
    There is no question that technology could have done more to assist 
in the aftermath of the disaster by providing quicker access to 
information as well as supporting more families, more businesses and 
the rescue teams. There are many examples of where technology could 
have been deployed to ease and speed access to information, to organize 
and plan, collect and distribute critical information where the IT 
industry could help. This leads to the discussion of a Technology 
National Guard. From the experiences that I described above, I can 
confidently say that the IT industry has both opportunity and skill to 
contribute. Technology is clearly a critical part of our nations 
infrastructure. Ensuring that the technology is available and utilized 
to its capacity is something that the IT industry or trained IT 
professionals are uniquely positioned to accomplish.
    There are many different focus areas that a NETGuard could focus 
upon and different services that could be provided running the gamut 
from basic to the more complex and technical. Our industry can assist 
in developing contingency planning for both physical disasters as well 
as cyber security of the infrastructure. Our industry could assist in 
predefining and developing applications such as the program we 
developed to service an immediate need of matching donated goods to 
those in need or the security data base we created. The IT industry 
combined with the communications industry is certainly able to provide 
some level of assistance in returning critical infrastructure from data 
centers to communications networks to operation. Finally, the type of 
on the ground, unplanned, ad-hoc assistance that was needed in its 
simplest form (roving IT support) was critical for on the ground 
communications and operations.
    The solution is not obvious. A single plan may not be the immediate 
solution, but rather multiple plans that support a variety of needs. We 
certainly support exploring the options as the concept is developed. I 
believe there are many members of our industry that are anxious to 
share what we learned, how we conduct our business and how we could, at 
the minimum, provide ideas on how to utilize the technology that is 
available today. Industry could lead to train and organize teams that 
could be deployed in emergency situations. Teams could participate in 
pre-planning and development of packaged solutions to be deployed by 
National Guard teams. National Guard deployment skills could include IT 
workers deployed for that specific purpose. Other options are viable. 
Intel is interested and committed to explore the options with each of 
you as the proposal is solidified.
    I am grateful that I had the opportunity to organize and lead 
Intel's effort. I am grateful that I work for a company that was 
willing and able to be of assistance. Thank you for the opportunity to 
speak with you today. I am happy to answer any questions you may have.

    Senator Wyden. Well, as an Oregonian, and someone who has 
watched how you all have made a difference, we are very proud, 
and as you know, there was an exceptional effort on the part of 
many in Oregon. Sho Dozoro, one of our leading travel 
executives, led a very large delegation to New York that was 
widely publicized. I do not think what Intel did was so widely 
known.
    I really disagreed with only one thing you said, and you 
said you all provided accidental leadership. I do not think 
this happened by accident. I think it happened because you and 
Andy Grove and others cared, and you said, ``We may be 3,000 
miles away, but we are going to mobilize.'' We are going to 
mobilize with the trucks, the equipment, the personnel, and the 
other resources that you wanted to bring to bear to make a 
difference. I think Intel really provides a textbook case of 
what a company that cares can do in a time of emergency, so we 
are going to be calling on you often, and know that this 
Oregonian is plenty proud this morning.
    Ms. Coppernoll. Thank you, and we are happy to help, and we 
would have done more. We were accidental just from the fact 
that we did not go out necessarily to mobilize industry or big 
groups of people, and in some cases we ended up doing that.
    Senator Wyden. Excellent testimony.
    Representing the State of New York is Mr. Pelgrin, who is 
Technology Officer for Governor Pataki, who has also been very 
interested and helpful in terms of working with us. We welcome 
you. We will make your prepared remarks part of the record, and 
you may proceed.

   STATEMENT OF WILLIAM F. PELGRIN, DIRECTOR, NEW YORK STATE 
                      OFFICE OF TECHNOLOGY

    Mr. Pelgrin. Thank you very much. Good morning, Mr. 
Chairman, Senator Allen. On behalf of Governor Pataki, I am 
honored to represent New York State and discuss the role of 
technology in responding to the events of September 11. The 
tragic events of that day have forever changed the things that 
we understood to be absolute truths on September 10. Never 
before has the ability to communicate, gather intelligence and 
protect public safety been as heightened as it is now, and 
technology will be a focus of many of these efforts.
    Technology played an important role in responding to the 
terrorist attack of September 11. I will quickly highlight what 
technology was most impacted, what technology was most helpful 
and effective, and what technology we need for the future.
    First, what technology was most affected. New York worked 
to quickly assess the technology impact, determining that some 
2,250 data circuits were damaged or destroyed, affecting 40 
State agencies. Connectivity to New York City was gone, and 
many critical applications were down. We prioritized the 2,250 
circuits into a list of approximately 500 priority circuits 
based on criteria of public security, public safety, and human 
services. Because of our prior planning for Y2K, the State 
agencies had contingency plans in place and, in fact, deployed 
to ensure that critical programs continued.
    Currently, 29 of the priority circuits are still out. 
However, we are working diligently to get them operational as 
soon as possible.
    I would like to take a moment to commend Verizon for its 
response not only to addressing the government's need in a 
timely fashion, but also for restoring the Stock Exchange, the 
financial center of the world. If anyone saw 140 West Street, 
Verizon's central office, you would know that was a monumental 
task to get us back up and running.
    I would like to highlight two areas in which technology was 
most helpful. First, application development. A 24 <greek-e> 7 
emergency call center was operational within 1 hour of Governor 
Pataki activating the State's emergency management office. It 
was staffed within that hour with 150 operators. The outpouring 
of support in the hours and days following the attacks was 
tremendous. We quickly realized that we needed a system to 
capture the data on the donations being offered. By September 
13, we had an operational web-based application for collecting 
this information.
    Over 187,000 calls were logged. At our peak, we were 
answering over 27,000 calls per day. 50,000 offers from 
businesses and citizens donating goods and services were 
entered into the database. The application provided an easy and 
efficient tool for emergency management personnel to access the 
donation and to allocate resources.
    In my opinion, one of the best technologies deployed in New 
York State's response efforts was the use of our digital ortho 
imagery. We quickly determined the need to fly to the disaster 
site. With the cooperation of the Federal, State, and local 
entities, we obtained clearance to fly to the restricted zone. 
We flew each day from September 13 through October 23. We flew 
there to capture three different types of images. The first was 
digital ortho imagery. That is digital aerial photos with all 
the distortions removed. Thermal imagery, which measured 
surface temperatures, and LIDAR, which is light detection and 
ranging, to measure elevations.
    The reason digital ortho is such a great technology is 
because of its ability to overlay the data. As the maps that I 
have brought today illustrate, digital ortho photos were 
overlaid with thermal images and gas line data. We were able to 
put the proximity of the fires to the gas lines.
    We also used thermal images taken over multiple days and 
overlaid them to show where fires were either expanding or 
receding. Information was provided daily to FEMA, the State, 
New York City Emergency Management Office, and the fire 
department. This data was a critical component in the response 
and rescue efforts.
    Looking forward, the technology direction for the future is 
the implementation of New York State's statewide wireless 
network. As you clearly stated in your memo, Mr. Chairman, 
responders were hampered by a lack of interoperability among 
communications systems. New York State's current wireless 
communications system is failing. Replacement parts are 
difficult, if not impossible to obtain, and most importantly, 
the current system is not interoperable.
    New York State will provide the necessary backbone 
infrastructure for a statewide emergency communications system. 
This new system will allow responders to communicate with each 
other. The current status of this initiative is that there is a 
draft request for proposals on the street for comment. We are 
hopeful to issue that in final in early January, or by late 
January.
    In conclusion, in addressing the purpose of this hearing, 
Governor Pataki's philosophy with regard to technology has 
always been one of collaboration and mutual coordination, 
developing strong public and private partnerships. We cannot do 
it alone. Our successes are collective efforts.
    We look forward to working cooperatively with the Federal, 
State, and local governments as well as the private sector to 
prepare for and respond to any disaster. I am reminded of a 
quote by St. Francis of Assisi: ``Start by doing what is 
necessary, then do what is possible, and suddenly you are doing 
the impossible.''
    Mr. Chairman, the Governor would like me to extend his 
appreciation for your leadership and that of Senator Allen and 
the other Senators in this effort. Your support is especially 
appreciated in these trying times.
    Thank you very much.
    [The prepared statement of Mr. Pelgrin follows:]
          Prepared Statement of William F. Pelgrin, Director, 
                  New York State Office of Technology
    Good Morning, Senator Wyden and members of the Committee. On behalf 
of Governor George E. Pataki, I am honored to represent New York State 
to discuss the role of technology in responding to the events of 
September 11.
    The tragic events of that day have forever changed the things that 
we understood to be absolute truths on September 10. There will be--and 
must be--much change as we move into this new, uncharted world.
    Never before has the ability to communicate, gather intelligence, 
and protect public safety been as heightened as it is now and 
technology will be the focus of many of these efforts. Technology 
played an important role in responding to the terrorist attack of 
September 11.
    <bullet> Geographic Information Systems (GIS) to obtain 
sophisticated, detailed imagery of the disaster site;
    <bullet> Databases for tracking financial donations and supplies; 
and
    <bullet> Use of the Internet as a communication tool.
    Many agencies and individuals came together in solidarity to join 
in the rescue operation.
    We have a tremendous opportunity now to critically examine our 
emergency response capabilities, not only in New York, but across the 
nation, and across jurisdictions. We need to examine the policies, 
procedures, and priorities that currently exist within our information 
technology infrastructure and, using some of the lessons learned from 
September 11, assess where we need to go from here. By learning the 
lessons from the past and working and training together for future 
responses, we can better prepare to meet the challenges that will face 
us all in this new era. Our efforts are focused on four phases: 
Protection, Detection, Response and Recovery.
    I'd like to take this opportunity to discuss some of our response 
efforts in New York State, and illustrate some of our lessons learned. 
I'm prepared to address what some of the communications issues were, 
and what we've learned from this.

                             WHAT HAPPENED
    Moments after the attack, Governor Pataki activated the State's 
emergency management operations center (SEMO), under the direction of 
James Natoli, Director of State Operations. Twenty-plus agencies 
responded to SEMO and operated on a 24 <greek-e> 7 basis.
    The Governor activated the statewide Mobilization and Mutual Aid 
Plan making available to New York City all State resources of the fire 
services of the State of New York. The Governor's Capital Region Urban 
Search and Rescue Team was also activated and remained active for 16 
days in assisting in recovery. The Insurance Emergency Operations 
Center (IEOC) was also activated. By the following day, executives from 
the largest writers of personal and commercial lines insurance in the 
NYC area were assembled and working from the IEOC. A satellite video 
link between the IEOC and the State Emergency Management Office was 
created to enhance communications. Immediately real time information 
was exchanged with SEMO, the insurance industry, the press as well as 
consumers. A dedicated toll-free hot line was activated for consumers 
to call for information relating to insurance.
    A temporary adjuster permit application process was utilized. This 
allowed insurers to apply for temporary adjuster permits over the 
Internet instead of completing paper applications. Almost 400 permits 
were issued.
    Other security issues were addressed offsite, including the 
monitoring the State's data center and networks. State Police were 
immediately dispatched to secure the data center locations; security 
was heightened for all State office buildings.
    A 24 <greek-e> 7 emergency call center was activated within 1 hour, 
staffed with 150 operators. Over 187,000 calls were logged from 
businesses and citizens offering to volunteer or donate goods and 
services. At our peak, we were answering over 27,000 calls per day. All 
information was recorded in a database that was used by SEMO officials 
to deploy resources.
    New York worked to quickly assess the technology impact, 
determining that some 2250 data circuits were out, affecting 40 
agencies; connectivity to NYC was lost, and many critical applications 
were down.
    Because of our prior planning for Y2K, State and city agencies had 
contingency plans in place that enabled them to respond to the loss of 
key telecommunications lines. We were able to implement alternate 
emergency procedures, ensuring that critical human service programs 
continued.
    We prioritized the 2250 circuits into a list of approximately 500 
priorities, based on public safety and human services, and subsequently 
added another 100 circuits to the list based on their impact, such as 
Banking and Tax operations. We worked closely with the impacted 
agencies and our business partners to address the situation. In some 
cases, we were able to provide the agencies with alternative solutions 
via our Statewide network or other providers.
    The Tax Department's NYC Office was located in the World Trade 
Center. In addition to the terrible loss of life, we lost our business 
records--case records that were painstakingly developed as part of our 
audit program. The potential loss related to audit recoveries that have 
been lost or deferred has not been calculated. We lost all our desktops 
and servers. A lesson from this experience is that while we, like most 
organizations, are diligent in regards to backup and offsite storage of 
our mainframe data, we must carefully assess the extent that our 
business records are maintained on servers and desktops, where we may 
not be as diligent in our backup and recovery procedures. Do we have 
the ability to recover our business records in the event that the site 
is destroyed?
    The NYC Downtown Hospital, one of the major staging areas for 
victims, lost communications. Cell phones and runners were the only 
forms of communications available. This highlights the need for backup 
or redundant communications systems.
    The outpouring of support in the hours and days following the 
attacks was tremendous. However, we quickly realized that we had to 
devise a system to capture the data on the donations of finances and 
supplies. By September 13th, we had an operational web-based database 
application for collection of this information. We received over 50,000 
offers from businesses and citizens donating goods and services:
    <bullet> IBM provided PDAs, desktop computer, services to a variety 
of organizations; and also provided office space to relocate State 
agencies' operations; Microsoft has donated $10 million in funding and 
resources to assist with the World Trade Center disaster response 
efforts;
    <bullet> AOL Time Warner hosted the donation website; and
    <bullet> JP Morgan Chase provided free banking services to assist 
in the World Trade Center Relief Fund.
    And the list goes on and on . . . ranging from medical supplies and 
offers of medical services to recovery equipment.
    A critical component in New York State's response efforts was the 
use of Geographic Information Systems, commonly known as GIS. Using 
GIS, we were able to collect detailed imagery that proved vital to the 
fire department and other emergency responders. Using thermal imagery, 
we were able to determine where the ``hot spots'' were, and the 
location and progression of underground fires. This imagery was 
overlayed by gas pipe line data to provide crucial information about 
the location of fires relative to gas lines. This data was used by the 
NY Fire Department in deploying their resources. We contracted with 
EarthData, a firm out of Maryland, for daily flyovers of the disaster 
site, and processed that raw data into usable imagery within 8 hours--a 
process that would normally have taken weeks.

SECURITY HAS BEEN A NUMBER ONE PRIORITY OF GOVERNOR PATAKI PRIOR TO THE 
                           DATE CHANGE (Y2K)
    Governor Pataki has long been active in ensuring that appropriate 
response mechanisms are in place in the event of a disaster--whether it 
be natural or otherwise. He made information security a priority during 
Y2K. In this regard, Governor Pataki placed a priority on the 
activities of the State Disaster Preparedness Commission, issued an 
Executive Order establishing a Commission on Terrorism and most 
recently established the Office of Public Security.
    The Office of Public Security, under the leadership of James 
Kallstrom, was created to to ensure central coordination of all State 
activities related to public security. These activities have proven 
critical in our ability to respond to September 11 and for any future 
event that may occur.
    As we move forward, the technology areas that we are focusing are: 
enhancing security, GIS technology, deploying wireless technology, and 
enacting enabling legislation that will secure the legal framework for 
these initiatives. These are recommendations that apply to NYS and the 
Nation as a whole. Our success can be best assured by careful 
coordination with the Federal Government as well as the private sector.

                          ENHANCING SECURITY:
    Physical Security: New York is establishing a statewide critical 
infrastructure workgroup, that will be responsible for gathering 
detailed information about the State's critical infrastructure, and 
developing strategies for protecting it, including scenario simulation 
exercises.
    Information Security: We are addressing this on a number of fronts. 
In early 2000, the Governor established the State's first statewide 
information security office to provide a coordinated, comprehensive 
approach to developing policies and procedures to protect the State's 
critical technology infrastructures, such as networks and data centers. 
The Governor required every agency to have an information security 
officer.
    In addition, the Office for Technology is enhancing the State's 
intrusion detection and vulnerability scanning abilities. The Office is 
looking to use its successful collaborative agreement model used in our 
GIS data sharing cooperative to establish cooperative Security 
partnerships within State agencies, and other entities. Currently, we 
are sharing information with 60 State agencies and five other States.
    We have drafted legislation that will further enhance information 
security, and protect the confidentiality of information regarding 
known vulnerabilities.
    Information Security is the number one priority for the Governor's 
Office for Technology. It is imperative that we employ the proper 
methods and procedures to protect, detect, respond and recover from 
attempts to compromise the integrity of critical infrastructures. The 
Office for Technology works closely with the new Office of Public 
Security in recommending technology strategies in protecting the 
State's critical infrastructure and in researching and recommending 
technologies that can improve physical security for the State.
    The Office provides the overall information security policy, 
direction and training to State agencies' Information Security 
Officers. It also provides:
    <bullet> Security Training;
    <bullet> Statewide Security Policy & Procedures;
    <bullet> Security Incident Handling; and
    <bullet> Annual Security Conference for State and local government.

                             ENHANCING GIS
    One Agency w/GIS Expertise is given ``Lead Responsibility'' for GIS 
during emergency activations.
    <bullet> Management of GIS services at the emergency operations 
center.
    <bullet> Management of a mobile onsite GIS unit.
    <bullet> Distribution of geospatial data and analyses to all 
participating agencies.
    <bullet> Coordination of GIS resources available from other 
agencies.
    <bullet> Contracting for additional geospatial resources as needed.
    <bullet> Getting Relevant Geospatial Information to Field Staff & 
back.
    <bullet> Effective contact with emergency response personnel in the 
field is critical both to ensure that GIS products and services are 
available to those in need and to ensure their needs are accurately 
identified. It is also critical to insuring accurate information from 
the field is brought back to key decisionmakers at the emergency 
management operations center. Locating a mobile GIS unit as close to 
the emergency site as possible is vital. GIS staff must not only 
provide geospatial information, but also educate onsite emergency 
personnel on how it can assist them.

                       RECOMMENDED ACTION ITEMS:
    <bullet> Identify primary GIS contacts for each agency involved in 
the emergency response (including 24 hour contact work, home and mobile 
phones and e-mail addresses), their responsibilities, and the data that 
their agency can provide.
    <bullet> Maintain GIS space, hardware, and software capabilities at 
the emergency operations center.
    <bullet> Establish emergency services contracts for aerial imagery 
data.
    <bullet> Establish a ``mobile mapping & GIS unit'' at or near the 
site of a disaster.
    <bullet> Review the need for hard copy maps onsite both at the 
emergency operations center and at the emergency site itself.
    <bullet> Establish procedures for collecting and forwarding 
geographically referenced data from the site to the Emergency 
Operations Center.
    <bullet> Establish local interface/liaison procedures.
    New York State has implemented the following:
    Created the Office of Public Security, with lead responsibility for 
developing a comprehensive statewide strategy to secure New York State 
from acts of terrorism or terrorist threats. The Office will coordinate 
all State efforts to detect, identify, address, respond to and prevent 
terrorists acts from occurring within the State.
    Assigned one agency (Office for Technology) with lead 
responsibility for technology:
    <bullet> Maintain a technology contact list, including up-to-date 
phone numbers and e-mail addresses;
    <bullet> Coordinate all applications development, planning and 
support in preparation for, as well as during an emergency;
    <bullet> Coordinate information technology security measures, as 
necessary.
    Implement monthly multi-agency meetings to focus on a particular 
topic and develop a set of defined deliverables:
    <bullet> Business Continuity;
    <bullet> Disaster Recovery;
    <bullet> Physical Security; and
    <bullet> Information Security.

                             COMMUNICATIONS
    <bullet> Developing a web template to provide clear and concise 
information for the public.
    <bullet> Implementation of Wireless Communications
    We are developing a Statewide Wireless Network. Using state-of-the-
art technology, this new radio system will provide both voice and data 
communication capability. In crisis situations, where seconds count, 
all responders will be able to instantly communicate with each other.
    Under the new system, New York State will provide the necessary 
backbone infrastructure for a statewide emergency communications system 
which localities may join at their option, based on each individual 
locality's needs. The Statewide Wireless Network is committed to 
pursing partnership arrangements with government organizations to 
ensure maximum interoperability, reduce overall costs of the system, 
and reduce the time necessary for implementation.
    As Mr. Joe Allbaugh, Director of FEMA, testified on October 16, 
``if there is a single item that we could do, (it) is to make sure that 
police, fire, emergency responders can communicate with one another. 
Oftentimes, I go into a community and there are all types of bands and 
frequencies used and folks, literally, who are responding to an 
incident can't talk to one another.''
    The bravery and courage of our firefighters, police and other 
emergency responders to the horrific events of September 11th has given 
special meaning to the word heroes. If we are to protect their lives 
and safeguard the public we serve, we must provide these and other 
heroes across the State with the ability to communicate effectively and 
quickly with each other.
    Because natural and man-made disasters know no bounds.
    We are now living in the world of wireless communications. Our 
first responders, however, use incompatible and often obsolete radio 
equipment--complicating their ability to communicate with each other. 
In fact, runners are often still used for communication by first 
responders in emergencies.
    We are also ensuring redundancy and back-up capabilities through 
our Statewide communications network.
    Governor Pataki's philosophy with regard to technology has always 
been one of collaboration and mutual coordination--developing strong 
public and private partnerships.
    ``We can't do it alone; our successes are collective efforts.''
    In that regard, a proposal to coordinate the local, State, Federal 
and private sector as envisioned in the NetGuard proposal is 
commendable.
    We respectfully suggest that any such coordinated effort bear in 
mind the first responders are at the local level. Federal and State 
government need to be in a position to assist and support, not impede 
these efforts.
    Any applications that are developed must be readily accessible by 
the each State's Emergency Management Office.
    We need to build on the foundation that has already been 
established--and works well--from the local emergency offices, to the 
State emergency operations center, to the Federal emergency office. We 
must not add more layers that make effective response more difficult.
    The Governor would like to offer New York's assistance in providing 
our resources that are already or will be in place, including our 
databases for critical infrastructure, donations, and asset management.
    By working collaboratively across all levels of government, we can 
achieve success and provide an even-more significant response.
    Thank you for the opportunity to be here this morning.

    Senator Wyden. Thank you very much. We will have some 
questions in a moment. Thanks for working with us.
    Ms. Roche.

STATEMENT OF SARAH ROCHE, DIRECTOR, CLIENT SERVICES, Upoc, INC.

    Ms. Roche. Good morning, Mr. Chairman and Senator Allen. 
Thank you for the opportunity for me to be here today and to 
submit my testimony as part of this important hearing. I am 
here as a New York citizen to give my personal account of the 
morning and the day of and the day following September 11.
    I was at work at our offices on Broadway and Wall Street, 
which is adjacent to Trinity Church, two blocks south of the 
Twin Towers. As I look at the map there, you might even be able 
to see where our offices were, although they are not marked on 
there, it is that close.
    I work for a wireless company, Upoc, which provides a 
platform for sending SMS text messages from any cell phone or 
PC to groups of cell phones across all carriers and devices.
    The morning of September 11, I was at work at 8:15 for a 
client conference call. I was on that call when the first plane 
went into the Tower. Not knowing what was really going on, we 
continued our call until we heard a loud boom and our building 
shook.
    We ended the call, and I immediately noticed my cell phone 
had begun beeping with messages. The text messaging group that 
includes all Upoc employees was buzzing. One advised us not to 
go to work, or to head away from the World Trade Center if we 
had started that way. Another said that there was a plane that 
had gone through the World Trade Center.
    I looked out of our office window and saw the people 
outside scurrying toward the bottom of the island of Manhattan. 
It was like a scene out of a movie. People were running, car 
alarms were going off, and there was a sense of sheer 
pandemonium.
    Uncertain of what was going on, I tried to look online, but 
web sites were flooded and unreachable to find any news. Then I 
tried to use the phone, but to no avail. Messages, however, 
kept coming through our phones, and the five of us that were at 
work were discussing what we had been reading, and any other 
information that we had been able to find out on our own.
    At this point, we actually left the building to see if we 
could make sense of what was going on. None of us imagined that 
we had been targeted by terrorists and that our lives were in 
serious jeopardy. I tried to place cell calls, and then 
realized that everyone around me was plagued by dead cell 
phones. Already, the lines of the pay phones were 20 people 
deep.
    I returned to our office, thinking that amidst the chaos, 
familiar shelter made some sense. In our wildest dreams, we 
could not have imagined what would be happening next. Land 
lines and cells continued to be inoperable. None of us knew 
what to do. We were continuing to get messages telling us where 
to go, who was where, what were the right things to do. Within 
a few minutes, we accounted for everyone who was at work and in 
the office, and that people who were actively managing this 
group from various locations throughout the city were 
accounting for the rest of the employees.
    Though I still could not believe planes had crashed into 
the Towers, it was what my coworkers had told me, and even 
though it was shocking, it was comforting to have information 
from a trusted source. I remember specifically saying to my 
coworker that terrorists really knew what to go for. Clearly, 
the World Trade Center and the Pentagon would be the obvious 
targets. A few minutes later, a text message came through that 
the Pentagon had also been hit.
    Just when we returned to our building, it began to shake, 
and the plumes of smoke that everyone would see billowing on 
television in the next few days were the reality outside of our 
office windows. We all hit the ground and hoped that our 
building would remain stable. As we ran for the hallway, I 
grabbed my purse and my phone to escape our building.
    We were brought to the bottom of the building, and we were 
all text-messaging other Upoc employees who could maybe phone 
our families and loved ones to let them know that we were OK. 
We continued to get updates from them letting us know who they 
had been in touch with and what to do.
    We eventually left our building to go eastward, only to be 
caught outside when the second Tower fell. It again, was 
hysteria, but we found another building and continued to 
console each other and be in touch with the rest of our 
coworkers, letting them know that once again we continued to be 
OK, and let any of our friends and family know that 
information.
    Personally, it was how I reached my fiancee. He was at 
Arlington Hospital, and they had gone into disaster mode, 
meaning that no outside lines were available. Since he is 
seldom allowed to use his phone inside hospitals, I expected it 
to be off, but it was my only option. The text message did 
reach him, and I received my first text message ever from him. 
He was thankful to hear I was OK, and glad to have a way to get 
in touch with me.
    We all made it home OK, and were glad to be away from 
downtown. Over the next week, our text messaging was crucial to 
our work and well-being. Phones, cell and land, did not work 
regularly for weeks, though the text messaging did.
    One coworker who was a volunteer with EMT let us know what 
was needed, or what we could do if we wanted to help in any of 
the efforts around the city. We accounted for everyone 
eventually, and continued to be in touch while we all dealt 
individually with the impact on our lives. Today, we continue 
to work in the financial district in the same offices, blocks 
away from Ground Zero, and still we have intermittent problems 
with phone lines, but it is less and less every day.
    Our lives day-to-day have a sense of normalcy now, though 
they are forever irreversibly changed. Thank you for letting me 
have the opportunity to speak today.
    [The prepared statement of Ms. Roche follows:]
  Prepared Statement of Sarah Roche, Director, Client Services, Upoc, 
                                  Inc.
    Good afternoon Mr. Chairman and Members of the Subcommittee. Thanks 
for the opportunity to speak today. I am going to give an anecdotal 
account, and I will be followed by Alex LeVine, who will explain the 
technology behind the story. For the sake of brevity, let me get right 
into the details of September 11th. I was at work at our offices on 
Broadway and Wall Street--which is adjacent to Trinity Church, 2 blocks 
south of the Twin Towers. I work for a wireless company, Upoc, Inc., 
which provides a platform for sending SMS Text Messages from any cell 
phone or PC to groups of cell phones, across all carriers and devices.
    The morning of Sept 11th, I was at work at 8:15 a.m. We had a 
client conference call, which I was on when the first plane went into 
the towers. Not knowing what was really going on, we continued the call 
until we heard a loud boom and our building shook. We ended the call 
and I immediately noticed my cell phone had been beeping with messages. 
The text messaging group that includes all Upoc employees was buzzing. 
One advised not to go to work, or to head away from the WTC if you'd 
started, another said that there was a plane through the WTC. I looked 
out our office window and saw people outside scurrying toward the 
bottom of the island. It was like a scene out of a movie, people were 
running, car alarms were going off and there was a sense of 
pandemonium. Uncertain of what was going on, I tried to look online, 
but websites were flooded and unreachable. Then I tried to use the 
phone--to no avail. Messages kept coming through and the 5 or us that 
were at work were discussing what we'd all been reading on our phones 
as well as any dribbles of info we'd found out on our own. At this 
point, we actually left the building to see if we could make sense of 
what was going on. None of us imagined we'd be targeted by terrorists 
and that our lives were in serious jeopardy. I tried to place a cell 
calls and then realized that everyone around me was plagued by ``dead'' 
cell phones; the lines at the pay phones were already 20 people deep. I 
returned to our office, thinking that amidst the chaos familiar shelter 
made some sense. In our wildest dreams we couldn't have imagined what 
would happen next.
    Landlines and cells were inoperable. None of us knew what to do. We 
were, however, continually getting text messages. Within a few minutes, 
we'd accounted for who was at work and the people who were actively 
managing the group from various locations were accounting for all 
employees. Though I still couldn't believe planes had crashed into the 
towers, it was what my co-workers had told me, and even though it was 
shocking, it was comforting to have information that I trusted. I 
remember specifically saying to a co-worker that terrorists knew what 
to go for--clearly the WTC and the Pentagon were obvious targets. About 
5 minutes later, an SMS came through about the Pentagon.
    Just when we returned to our building, it began to shake and the 
plumes of smoke everyone saw billowing on TV were the reality outside 
our office windows. We all hit the ground and hoped that the old 
building would pull through. We ran for the hallway, though I paused to 
grab my purse and phone.
    We were brought to the bottom of our building and were all text 
messaging other Upoc employees who could maybe phone our families and 
let them know we were okay. We continued to get updates. We eventually 
left our building to go eastward, only to be caught outside when the 
second tower fell. It again was hysteria, but we found another building 
and continued to console each other and be in touch with the rest of 
our co-workers as well as friends and family who were using text 
messaging. Personally, it was how I reached my fiance. He was at 
Arlington hospital and they'd gone into disaster mode, meaning no 
outside lines were available. Since he seldom is allowed to use his 
phone inside hospitals, I expected it to be off, but it was my only 
chance. The text message reached him and I received my first text 
messages ever from him--he was thankful to hear I was okay.
    We all made it home okay and were glad to be away from downtown. 
Over the next week our text messaging was crucial to our work and well-
being. Phones--cell and land--didn't work regularly for weeks, though 
text messaging continued to work. One co-worker was a volunteer with 
EMT and he let us know what was needed and what we could do. We 
accounted for everyone eventually and continued to be in touch while we 
all dealt individually with the impact in all our lives.
                               __________
   Prepared Statement of Alex LeVine, Vice President of Operations, 
                               Upoc, Inc.
    Good afternoon Mr. Chairman and Members of the Subcommittee. The 
events of September 11th affected all of America, but those of us who 
work in the Wall Street area of downtown Manhattan were among the most 
impacted. I am honored to have this opportunity to relay to you my 
company's experience, and to detail some key technologies which 
withstood the attack, and which I believe could be leveraged in the 
future for more effective emergency management.
    My company, Upoc, Inc., provides a platform for sending SMS Text 
Messages from any cell phone or PC to groups of cell phones, across all 
carriers and devices. The offices of Upoc, Inc. are located two blocks 
south of the WTC in New York City. As the planes hit, the first thing 
that happened was phone lines began to overload from people all around 
the world calling their friends and family in NYC to check on them. All 
the access tandems for long distance lines in the city began to fill 
up, and there was no way to make calls in and out of the region, 
although local calls still worked. But as the events continued to 
unfold, saturation of phone lines increased--cell towers and local 
switches reached maximum voice capacity and stayed there, and people 
watching the conflagration couldn't make calls on their cell or office 
phones--there were simply no available lines.
    Once the Twin Towers fell, things got even worse as Verizon's 
downtown switch got knocked out. Even more local landlines stopped 
working, as the switch served a large percentage of the lines in 
Manhattan. Cell phones worked rarely.
    Later in the afternoon, as the Verizon headquarters began to fall 
over, power was turned off for the entire downtown region. This took 
out the cell towers downtown, as well as all office phones and e-mail 
systems--all electrical communications that were not battery powered. 
Some buildings had backup generators, but as the power outage stretched 
into days, the generators ran out of fuel, and any systems based in 
lower Manhattan were taken totally out of commission.
    The experience of the staff of Upoc was affected directly by these 
breakdown phases. After the first plane, we were in landline 
communications with each other, but the ability to get through got 
worse and worse. After the towers fell, the landlines were useless; in 
my home in Manhattan, the local Verizon switch was so overloaded that I 
couldn't even get a dialtone--it was as if everyone was picking up 
their phones at once, and there wasn't even enough bandwidth for a 
dialtone, let alone an actual call.
    We immediately switched to other realtime or near realtime, non-
voice communications. Before we were evacuated from the building, PC-
based instant messenger and e-mail were working well, as the internet 
connection to our office seemed to be holding up fine, even after the 
first building fell. The whole time, we also used our own technology to 
communicate via SMS text messages, in groups and one-to-one, on our 
cell phones.
    Once we were evacuated, we used two key wireless technologies: 
RIM's Blackberry wireless e-mail pagers, that are connected to our e-
mail systems, and Upoc's text messaging platform over SMS. Both worked 
perfectly, but once power went out to our building, the e-mail servers 
on which the Blackberries depend shut down, and we stopped using them. 
At that point, SMS text messaging was all we had left, and we used it 
almost exclusively for communications between employees, family and 
friends for the next week, as phones lines still gave busies and our 
office remained off limits and without power.

                                FAILURES
    Because of obvious dependencies on the physical infrastructure, 
anything in the downtown area requiring a wireline network connection 
or power was at risk of failure. This means that everything from office 
phones and servers, to payphones and trading terminals, were unusable.
    The inability to handle call load in the general voice telecom 
networks was due to systems that the telcos simply never built for such 
capacity. In fact, it would be financially unwise to build a voice 
network with the amount of overcapacity that would be required to 
support the Sept. 11th level of calls, since it is such a rare 
occurrence.

                              WHAT WORKED
    The key communications technologies that continued functioning on 
9/11 were based on 4 factors: (1) battery powered network devices like 
cell phones connected via (2) wireless links to (3) packet-based 
redundant networks using resources on (4) remotely collocated servers. 
More detail on each of these 4 factors is in the written testimony [see 
the end of this document]. The Upoc application continued to work 
during the attack and aftermath because it leverages all of these 
factors. But it could not work without something called SMS.

                     SHORT MESSAGE SERVICE, OR SMS
    Today, every digital cell phone in the U.S. is capable of receiving 
SMS messages. These are up to 160 character text messages that travel 
across the same network as voice calls, but in a different channel. In 
Europe and parts of Asia, it has become extremely popular to send SMS 
messages between cell phones, but it has yet to really catch on in the 
U.S.
    SMS runs over the SS7 layer of the telephony network. This is a 
packet-based, but non-internet, technology that handles tasks such as 
call set up and caller ID. Imagine, for example, when you get called on 
your cell phone: you see the caller ID of the person calling you. This 
is a tiny piece of data, delivered to your phone right when it first 
rings, over the SS7 layer. Once the Caller ID packet is delivered, you 
don't need to get any more packets, so you are no longer using any of 
the capacity of the SS7 portion of your carrier's cellular network. 
Once you pick up and start talking, you have grabbed a circuit on your 
carrier's network, and it is one of a limited number of circuits--if 
enough people in your cell tower coverage area are on their phones, no 
one else can receive or make any more calls, because all the voice 
lines are taken.
    However, even when all the voice lines are taken, the SS7 packet-
based portion is there, available to transmit packets to other cell 
phones in the coverage area, but more or less unused, as no new calls 
are coming in, so no Caller ID packets need to be delivered.
    That SS7 bandwidth can be used to deliver text messages to phones, 
even when no calls can be made, and it does so dependably. Even if a 
cell tower goes down, if your phone can get the tiniest bit of signal 
from another nearby tower--not even enough for you to make a call--the 
SMS text message can be delivered to your phone.
    Upoc's platform takes the 1-to-1 aspects of SMS, and extends it to 
groups. One SMS message can be sent, from a cell phone, through Upoc's 
service and it can go out to a group of any size, reaching each group 
member on their cell phone wherever they are. It was our own technology 
that allowed us to track down all of our employees after the attack to 
confirm everyone was OK, and it allowed us to begin planning for 
temporary office space and coordinate employees immediately, even with 
all our office e-mail and voice systems down.
    Any wireless data-based system will be the best bet for 
communications survival during an attack or catastrophe. Many cellular 
carriers are rolling out new wireless data networks now, called GPRS 
and CDMA 1XRTT, that will improve availability for packet-based, 
battery powered, wireless devices. However, these new devices have yet 
to be purchased in most cases. SMS is already on every digital cell 
phone, on every digital cellular network.

                               CONCLUSION
    SMS is then an ideal transport for emergency messaging, available 
now. Cell phones are battery powered and wirelessly connected to a 
packet-based network that is sitting on a redundant core, speaking to a 
remote server. All the key factors for catastrophe survivability are in 
place.
    However, there is not a very high level of awareness in the U.S. 
about SMS Text Messaging. As Upoc's story shows, and as, I hope, the 
arguments I outlined explain, SMS was an invaluable communications tool 
in a very dire communications situation on and after September 11th. We 
believe that there is a need and an opportunity for the government, 
carriers, and messaging providers like Upoc, to make U.S. citizens, 120 
million of whom own cell phones, aware of this already existing 
technology. I would like to thank the subcommittee for this opportunity 
to discuss our experience, and I look forward to answering any 
questions you might have.

                              KEY FACTORS:
    1. Batteries. Sure it is obvious, but when the power goes out, you 
need communications to run on some sort of supplemental power. Although 
generators and uninterruptible power supplies kept servers running for 
some time, they could only last for a brief period, as none of these 
things, in everywhere but the most emergency-oriented facilities, were 
supposed to keep systems running for a week. Servers and other machines 
designed to be plugged into wall outlets are rarely designed to 
conserve power effectively, and they drain batteries very quickly. They 
also tend to depend on physical wire connections to voice and data 
networks.
    Cell phones and pagers are ideal devices when power is out, since 
they were designed from the start to run off batteries. They also work 
wirelessly. So they form the most straightforward foundation to any 
emergency communications planning.
    2. Wireless links. Wireless links are a clear way to avoid having 
lines ``cut'' by explosions or attacks, since there are no lines to 
cut. However, cell towers can lose power or be destroyed, rendering the 
area around that tower incommunicado for the customers of that cellular 
provider. Since the core of wireless carriers' networks are generally 
redundant, if the tower does keep power it is generally going to 
continue providing service. Cell towers are then one of the most 
reliable communications points since they sit on redundant core 
networks and connect from there to cell phones through unseverable 
wireless links.
    This is in contrast to wireline switches, which might still be 
running, but if their copper trunks are destroyed they have no one to 
provide service to: the core on which they sit might be redundant, but 
the clients they serve have only one point-to-point connection, which 
fails completely when severed.
    Wireless data links have the most promise, since they do not suffer 
from the circuit-switched hard limit that cellular voice does.
    3. Packet-Based Redundant Networks. Voice networks have a hard 
limit on the number of people that can use them at one time. This is 
because every voice call requires a full circuit to be opened between 
callers, and it is held open for the duration of the call--they are 
circuit-switched. If all lines going in and out of a region-say 
downtown Manhattan, or a long distance access tandem, or even a 
cellular base station-are in use, that's it: no more calls can be made.
    Data networks work on the principle of packets. Data, like an e-
mail message, is broken into little pieces that are transmitted across 
a network in an almost arbitrary fashion and reconstituted at the other 
end; as such, there isn't any hard limit on the number of messages or 
number of people served by a data network. Congestion can occur, and 
messages will arrive more slowly, but as long as the network remains 
intact, the message will get through. In the case of Sept. 11th, intact 
data networks rerouted their packets around the failed networks at WTC 
and essentially allowed continued operation throughout, so e-mail and 
instant messages to New Yorkers got through when calls did not. In many 
cases, voice worked, but was so overloaded that most attempted calls 
resulted in busy signals. Not so with packet-based data.
    However, it is critical that a network remain intact. Most of the 
cores of New York's network providers are based on SONET rings. These 
are fiber loops that carry the bulk of the network's data from one 
point to another. Because of their ring topology, they allow a cut to 
occur, and can still connect between any remaining points on the 
network. Unlike the telephone lines that were connected to Verizon's 
WTC switch, which were point-to-point and simply died after a cut, the 
cores of both data and voice networks' SONET architecture allowed for 
continued operation.
    4. Remote Co-location of Servers. In a disaster, we now see that we 
need battery powered wireless communications devices, and packet-based, 
redundant core networks, to maintain connectivity. The last component 
for success is the survival of the servers that handle the data, the 
machines through which the communications devices reach each other.
    Our RIM Blackberry pagers fit my first 3 criteria: they were 
battery powered, and kept working after power was cut; the data is 
delivered in packets, which kept working, albeit a bit more slowly due 
to all the traffic. However, once the power to our e-mail servers 
failed, the Blackberries became useless, because they had been set up 
for e-mail only. In fact, Blackberries can be set up to communicate 
directly through the core of RIM and Cingular's networks (called ``PIN-
to-PIN''), but few people had set that up, since most Blackberries are 
installed with e-mail functionality only.
    Upoc's servers are located in New Jersey, quite far from Manhattan. 
As a result, communications that depended on Upoc's application kept 
working: the servers were in a remote location, far from likely attack 
targets, the devices were battery powered and as long as the data 
networks between the devices and Upoc's servers were redundant and 
stayed up and available, the Upoc application kept working for us and 
our customers.

    Senator Wyden. Well, thank you for coming, Ms. Roche. 
Nothing is a substitute for having someone like yourself, who 
has been through it, sort of take us specifically through the 
implications of trying to reach loved ones and family. I sure 
appreciate you doing this. We will have some questions in a 
moment.
    Mr. Rohleder, please proceed, and thank you. I also want to 
commend Accenture for all you did as well.

    STATEMENT OF STEPHEN J. ROHLEDER, MANAGING PARTNER, USA 
               GOVERNMENT MARKET UNIT, ACCENTURE

    Mr. Rohleder. Thank you, Chairman Wyden, Senator Allen.
    I am Steve Rohleder, the Managing Partner of the USA 
Government Market Unit of Accenture. Accenture is the world's 
leading provider of management and technology consulting 
services and solutions. We employ 75,000 people in 46 
countries, including 30,000 here in the U.S., and we serve 
clients across all industries. I commend you for holding 
today's hearing, and I appreciate the opportunity to testify.
    My testimony today will focus on three areas, Accenture's 
work with the City of New York post-9/11 to establish the 
Family Assistance Center, discuss the importance of contingency 
planning and infrastructure and security investment to meet the 
opportunities and challenges ahead, and finally I will discuss 
ways to advance public-private collaboration.
    On the days following the terrorist attack on the World 
Trade Center, Mayor Giuliani's office asked Accenture to manage 
the establishment of a new Family Assistance Center. In less 
than 72 hours, 130 Accenture employees worked with city 
agencies and charitable organizations to spearhead the 
transformation of an empty warehouse in Manhattan to a fully 
functioning facility.
    The Center serves as a primary resource facility for 
relatives and friends of those missing since the disaster, as 
well as those who lost their jobs or homes as a result of the 
disaster. Since the facility opened, there have been visits for 
more than 60,000 families.
    The Center provides a variety of services, including 
tracking the status of applications for death certificates, 
distribution of memorial urns, analyzing information regarding 
the number of missing persons, and helping families apply for 
financial assistance. In the future, we believe the victims of 
terrorism should be able to access government assistance with 
the least amount of trauma. This can be achieved by working 
with the private sector to utilize best commercial practice and 
technology.
    Over time, virtual assistance can and should be provided to 
all victims on an ongoing basis. The response in New York City 
has been a model for public-private partnership, hundreds of 
government agencies, relief organizations, and companies 
working together to restore and rebuild the return to normalcy.
    In order to respond more effectively in the future, 
contingency planning is essential. While many of our business 
and government clients had continuity plans, most did not 
seriously consider the types of threats that have become 
familiar in the past 2 months. Both government and industry 
need a new kind of planning for the future that focuses clearly 
on initiating immediate recovery on a moment's notice, and 
anticipating the loss of facilities, not just recovery of 
software systems, establishing temporary operations so that 
companies and government are not scrambling to identify a 
location to set up shop during a crisis.
    Third, we should focus on determining permanent operating 
facilities, including geographic concentration and dispersal of 
employees, and finally, preparing for economic impacts in 
advance of a crisis, government and private sector should work 
together to closely ensure that all are better prepared in the 
future.
    One way to advance this cooperation is by fostering public-
private partnerships, an effort that Accenture strongly 
supports. Accenture recently deployed a manager to serve as a 
Department of Commerce fellow to assist small and medium 
businesses affected by 9/11. Earlier this year, we supported 
Congressman Tom Davis in the establishment of a digital tech 
corps which would provide the exchange of government and 
industry IT professionals for up to 2 years. Should the tech 
corps legislation pass, loan executives could serve to develop 
best practices for emergency IT responses.
    Creating a NETGuard to respond to information technology 
needs in a crisis is an interesting idea that should be 
examined further. Clearly, the details need to be fleshed out. 
However, I would like to highlight a few areas for the 
Subcommittee's consideration.
    Considering that NETGuard volunteers could come from across 
the IT industry, proprietary data and technology should be 
protected, skills of volunteers to be matched to the needs of a 
crisis, a person with project management skills may not have 
the technical background to restore the components of a 
telecommunications network. Companies affected by future crises 
and who also employ NETGuard volunteers may need an exemption 
from releasing personnel for service if they are key to a 
company's ability to restore its own operations.
    Finally, another way that government could access 
centralized IT services rapidly in a crisis would be to have 
the Federal Emergency Management Agency, in conjunction with 
the Office of Homeland Security, establish IT crisis recovery 
contract vehicles similar to those used to address surge 
capability by the Department of Defense. The centralized 
contract vehicles would only be activated in crisis situations, 
and would allow government to obtain technology services in 
specific competencies on an as-needed basis.
    Finally, Accenture strongly supports the Office of Homeland 
Security playing an integral role in helping the public and 
private sectors come together to provide continuity planning, 
enhanced cyber security, and serve as a home for innovative 
ways for intergovernmental and public-private information 
sharing to defend against any new terrorist attacks. Any new 
efforts to address cyber attacks should be coordinated with the 
Office of Homeland Security, FEMA, and State and local 
authorities.
    In conclusion, the terrorists sought to undermine our 
businesses and to destroy the American way with fear. As 
business and government leaders, we can stand united to take 
the best we have to offer to secure this Nation's 
infrastructure and to take this opportunity to lead with 
innovation.
    Mr. Chairman, thank you for inviting me to appear before 
the Subcommittee. I look forward to your questions.
    [The prepared statement of Mr. Rohleder follows:]
     Prepared Statement of Stephen J. Rohleder, Managing Partner, 
                 USA Government Market Unit, Accenture
    Chairman Wyden, Senator Allen, Members of the Subcommittee, I am 
Stephen J. Rohleder, the Managing Partner of the USA Government Market 
Unit of Accenture. I appreciate the opportunity to testify before you 
today.
    Accenture's expertise is in the areas of technology and business. 
We employ more than 75,000 people in 46 countries who serve clients 
across all industries--telecommunications, electronics, high 
technology, financial services, resources, products, and Federal, State 
and local governments. We serve 86 of the Fortune 100.
    As part of the normal course of business, we conducted an 
assessment of the situations faced by our clients, the impact on their 
industries, and how they should meet the opportunities and challenges 
ahead. I will share some of these findings and suggestions today. I 
will also comment on the idea of establishing a NetGuard to respond to 
future terrorists attacks.

                              GROUND ZERO
    On September 11th, Accenture, along with the rest of the civilized 
world, watched in horror as the tragic results of unprecedented 
terrorism unfolded in New York, in Pennsylvania and in our nation's 
Capital. Our employees, our clients, our families and friends have all 
been directly touched by the devastation. We, like so many New Yorkers, 
were also called to serve in a government-private partnership to help 
the city in a time of crisis.
    In the days following the terrorist attacks on the World Trade 
Center, Mayor Guiliani's Office asked Accenture to manage the 
establishment of a new Family Assistance Center. More than 130 
Accenture people, along with some of their families, worked with the 
Office of Emergency Management, the New York Police Department, the 
Medical Examiner, the Red Cross, the Mayor's office and other private 
companies to create the new center, which enables people to gain 
information about loved ones, as well as to leave information about the 
people they are seeking, request a death certificate or apply for 
financial assistance.
    In less than 72 hours, Accenture employees spearheaded the 
transformation of a barren warehouse located on Pier 94 in Manhattan to 
a fully functioning facility, installing 130,000-square feet of carpet, 
over 250 workstations, a network supporting more than 250 personal 
computers and 500 phones and free Internet access. The Center has 
served as the primary resource facility for relatives and friends of 
those missing since the disaster. Since the facility opened, there have 
been more than 60,000 family visits. The families who utilize the 
services of the Center include not only those who lost loved ones, but 
also those who lost their jobs or homes as a result of the disaster. 
Once operational, Accenture built applications to facilitate processes 
that helped people, including tracking the status of applications for 
death certifications, distribution of memorial urns, and analyzing 
information regarding the number of missing persons.
    There are a number of important lessons learned from the 
establishment of the Family Center.
    <bullet> Governments must be able to establish crisis management 
centers rapidly to meet unexpected large-scale human disaster.
    <bullet> They need to utilize information technology and customer 
relationship management techniques to ensure that citizens are served 
rapidly and easily.
    <bullet> Victims of disaster or terrorism should be able to access 
the assistance of the government with the least amount of trauma--one-
stop assistance should be the goal.
    <bullet> Governments need to team with the private sector to 
provide services using best commercial business processes and 
technology.
    <bullet> Over time, virtual assistance can, and should be provided 
to families on an on-going basis.

                           AMERICA ON NOTICE
    Today, the markets have rebounded to the levels they were in early 
September. And the good news is that market indicators point to further 
gains in 2002. The terrorist attacks on America have failed to achieve 
their financial objectives, but we have been put on notice. We have 
learned that war can now be waged on our shores, and our 
infrastructures are tempting targets.
    The attacks on the World Trade Center were in many ways a wake up 
call--vivid illustration of the centrality of our information 
infrastructure and its value in times of threat--to government, to 
business and to individuals. Cell phone calls from stricken United 
Airlines flight 93 over Pennsylvania seem to have played a role in 
preventing the terrorists from reaching their intended target. Wireless 
e-mail messages from World Trade Center brought family members together 
and sometimes grief. Internet messages got through when traditional 
phone networks strained under the load of record call volumes.
    Unfortunately, the value and vulnerability of our nation's 
information infrastructure has not gone unnoticed by those terrorists 
who would target the United States. The proliferation of the Internet 
and the increased integration of our nation's infrastructures create 
the opportunity for a new form of asymmetrical threat. Many government 
and private sector computer systems are interconnected through the 
Internet, a network originally designed to support robust network 
interconnection, not high security.\1\ The original Defense Advanced 
Research Agency (DARPA) design has worked remarkably well, with over 
400 million users now online worldwide.\2\ New technology developments 
including Internet-enabled cell phones, wireless e-mail and mobile 
commerce are expected to expand Internet usage exponentially. And yet 
as Internet usage increases, the likelihood and impact of cyber 
terrorism goes up concomitantly--unless we take actions now to 
appropriately secure the infrastructure for public and private sector 
use.
---------------------------------------------------------------------------
    \1\ David D. Clark, ``The Design Philosophy of the DARPA Internet 
Protocols,'' Proc. SIGCOMM `88, Computer Communication Review Vol. 18, 
No. 4, August 1988, pp. 106-114)
    \2\ CIA World Factbook 2001.
---------------------------------------------------------------------------
    The President's appointment of Pennsylvania Governor Tom Ridge to 
head up the Office of Homeland Defense sets the stage for unprecedented 
cooperation and coordination between the private sector and government 
to tackle these cyber security weaknesses. It also can serve as 
``home'' for innovative ways for intergovernmental and public-private 
information sharing to defend against any new terrorist attacks.
    In fact, the United States and many of our allies present a wide 
array of potential targets beyond military systems. These include: the 
air traffic control system, banking and capital markets, 
telecommunications systems, power supplies, water resources, and oil 
and gas delivery systems. Let's look back, and then look forward.

                             THE AFTERMATH
    In the aftermath of September 11, our clients faced a number of 
challenges. We need to learn from this, and certainly leading 
executives and organizations must be prepared for business continuity 
along the following five areas.
    (1) Initiate Immediate Recovery--Most large companies had effective 
disaster recovery programs for major software systems. But data located 
in departmental ``local area networks,'' many of which perform very 
important business functions, was lost. Many did not figure on losing 
facilities. Many small and medium enterprises had greater challenges, 
often unable to afford or focus on business continuity planning. 
Government, including Congress, faced challenges being on-line and 
connected to its constituents when buildings were evacuated, 
highlighting the need for a ``virtual'' government planning.
    (2) Establish Temporary Operations--Companies scrambled to secure 
temporary working facilities in hotels, or through telecommuting from 
home or other offices, but business communications capabilities 
continue to be limited because so much of lower Manhattan's phone 
system was concentrated in hubs that were located in or near the World 
Trade Center. Despite remarkable efforts by the phone companies 
involved, lines are often inadequate, access to voicemail and e-mail--
required business tools for many--remains severely limited.
    (3) Determine Permanent Operating Facilities--Companies are 
evaluating the wisdom of geographically concentrated staffs as they 
make plans to secure permanent facilities. Some are dispersing 
employees in the local area or beyond. These shifts in worker locations 
are causing aftershocks in areas ranging from city planning to suburban 
telephone systems.
    (4) Embrace the Virtual Workplace--Organizations can reduce the 
risk of terrorist attacks by employing information technologies that 
enable ``virtual'' workplaces. Examples include: instant messaging, 
electronic mail, groupware and web conferencing, some of the most 
reliable technologies during and immediately after the attack.
    (5) Preparing for Ensuing Economic Impacts--Many companies 
immediately understood what this ``demand shock'' meant to them--and 
they moved to reduce their costs accordingly. A few businesses are 
thriving. For others, it will take months or even years for the full 
impact to be understood. ``Supply'' must be adjusted accordingly.
    These are basic elements of business continuity planning. Most 
business and government continuity plans we have seen didn't seriously 
consider the types of threats that have become familiar in the past 2 
months. Businesses and Government need a new kind of planning for the 
future. We believe there is a strong role for the Office of Homeland 
Security to play in helping coordinate Federal, state, local and 
private sector coordinated continuity planning.

          LOOKING FORWARD FOR BUSINESS AND GOVERNMENT PLANNING
    As business and organization leaders, we are all trying to grapple 
with a great deal of uncertainty. What then lies ahead for business and 
government in this new era? Will fears of terrorism lock the economy in 
a death spiral, or will fiscal and monetary policy result in a soft 
landing and quick recovery?
    We must be better prepared for attacks on our soil, we must 
integrate greater security in what we do, and we must work together as 
public and private sectors. As business leaders, we are challenged to 
do what we have done so well in the past: marshal technology and our 
creative genius to continue to drive better business and society toward 
a successful future. Government, too, must heed this wake-up call, and 
move promptly to protect its information systems. Beyond the need we 
have discussed to have business continuity planning that recognizes 
today's threats, there are several things we must do:

            INVEST IN INNOVATION FOR GLOBAL COMPETITIVENESS
    At a time when terrorists would want us to retreat, we need to 
recognize where we are in the current business and technology cycles. 
We are seeing business trends like outsourcing creating efficiency and 
an improvement in global standards of living. We are seeing the 
``industrialization'' of systems development--using labor arbitrage and 
new technologies to improve cost efficiency and productivity. In fact, 
despite the spectacular decline of technology markets recently, 
technology is poised for a rebound. Every important digital technology 
over the past 50 years has seen a boom followed by a major shakeout 
that lasted typically four to eight quarters. After the shakeout, the 
surviving competitors enjoyed marked growth, as much as 100-fold. New 
high-speed Internet-ready computers, broadband networks, wireless 
devices and, most importantly, software that enables dynamic inter-
business commerce, will power new approaches to commerce while fueling 
the next market advance. Government and business leaders must have the 
courage to drive investment. Policymakers must take advantage of 
bipartisan times. Businesses could take advantage of historically low 
interest rates to deploy new innovation for stronger global 
competitiveness tomorrow. We must invest for the future.

      LEVERAGE TECHNOLOGY TO ACHIEVE SECURITY WITHOUT SACRIFICING 
                              PRODUCTIVITY
    Conventional wisdom is that increased security costs more without 
any benefits. When we think in traditional terms--hiring high quality 
security guards, increased monitoring, etc, that is certainly true. On 
the other hand, investments in security-related technology often bring 
many side benefits that lead to greater productivity. A new operating 
system is more secure, but also has many more features to be exploited. 
In many organizations, over 90 percent of the operational information 
is still in paper form. Investment in digital content management 
systems can replace paper with their digital equivalents so information 
can be safely distributed and easily reproduced. But at the same time 
digital content can be used for new, more efficient approaches to 
training. Certainly the Federal Government could serve as a model, 
streamlining paper-heavy processes, while utilizing technology to 
tackle some of its most pressing homeland security training needs.
    Investment in a high quality, secured network could allow greater 
collaboration with reduced travel. Advances in networking hardware and 
software enable us to achieve new levels of inter-enterprise 
integration that further secure while streamlining transactions with 
trading partners. Investment will also provide the added benefit of 
network redundancy.
    Mobile wireless devices and advanced security techniques can create 
safe, virtual workplaces for our people. This technology exists today. 
The right investments in technology for security's sake could in fact 
stimulate key sectors of our economy. As policymakers, for example, you 
should consider using tax incentives like accelerated depreciation of 
technology equipment to stimulate such investments.
    Technology can be used to protect people as well as networks. For 
example, in the area of airline security, Accenture recently conducted 
a study that found six of 10 airline travelers who have canceled their 
upcoming holiday flights are doing so because of security concerns and 
the likelihood of long lines. Technology can help improve security long 
before passengers reach the airport, increasing passenger confidence 
and ease of travel.

            BUILD PUBLIC/PRIVATE PARTNERSHIPS TO FURTHER A 
                     SECURE COMMERCE INFRASTRUCTURE
    While we will face challenges in the short-term, economic and 
technological indicators point to recovery next year. Among the many 
opportunities we see, one stands out: the secure, broadband digital 
commerce infrastructure. Technology companies have worked to establish 
portions of this infrastructure, but the job remains unfinished. Today, 
the right public-private partnership can help create secure information 
infrastructure that will be the backbone of tomorrow's economy. 
Mechanisms to stimulate deployment including regulation, tax 
incentives, and government funding, should be considered.
    Congress should examine existing emergency response processes 
already in place through the Federal Emergency Management System and 
State and local authorities. While industry can dedicate volunteer 
resources, knowledge capital and skills, industry efforts should 
complement Federal emergency management efforts to organize and provide 
infrastructure. Partnerships should be created at the Federal, State 
and local level.
    Clearly, there is a need for the public and private sectors to 
carefully plan for the most efficient and effective response to 
terrorist attacks. When the city of New York asked Accenture for help, 
we were able to respond without haste because of the capabilities, 
resources, and dedication of our employees. The response was not 
limited to network-building and technology, but implementing industry 
best practices and coordination among agencies. There are a number of 
areas where Government can help facilitate public-private partnerships.
NetGuard
    The concept of a NetGuard is an interesting one that should be 
examined further. Developing a trained and technology-able corps of 
volunteers to support information technology restoration could be 
beneficial to government, the community and business. Clearly the 
details need to be fleshed out. NetGuard may have some practical 
problems in implementation. The following are four recommendations for 
the Committee's consideration:
    (1) Protection of proprietary data and technology will be a major 
issue for businesses. NetGuard volunteers would likely be drawn from 
across industry and from competing companies. There would need to be 
safeguards put in place to provide protection for proprietary assets 
accessed by NetGuard volunteers.
    (2) A major challenge for the deployment of a NetGuard would be 
matching skills with need. For example, a project manager might not 
have the technical skills to restore the various software and equipment 
elements of telecommunications networks. A process would need to be 
developed to effectively match technology skills to need in times of 
crisis. In addition, a protocol would need to be developed to determine 
how NetGuard volunteers would be deployed. Government should consult 
closely with the private sector on these plans to ensure fairness.
    (3) Companies will need to plan for and assess the impact of losing 
key personnel for an extended period of time during a crisis. There may 
also need to be exemptions provided for personnel in companies that are 
directly impacted by a crisis who may be NetGuard volunteers.
    (4) Training of a NetGuard force would need to be dynamic to keep 
up with technology and allow for flexibility since volunteers will 
likely be located across the United States. Accenture is working with a 
number of clients to migrate more ``onsite'' classroom training to web-
based training in a ``virtual'' classroom. Given the rapid changes in 
the industry, web-based training could allow for rapid deliver of 
training material while also reducing costs.
Digital Tech Corps
    Accenture strongly supports public-private partnerships. In 
response to September 11th, Accenture offered a manager to become a 
fellow at the Department of Commerce. This fellow is assisting small to 
medium-sized businesses get back on their feet.
    Earlier this year, Accenture supported legislation introduced by 
Congressman Tom Davis that would establish a Digital Tech Corps. H.R. 
2678, the Digital Tech Corps Act would provide for the exchange of 
government and industry IT professionals for up to 2 years. While we 
supported the concept to help ease the shortage of IT workers in the 
Federal Government and to spur cross-pollination of best practices, we 
believe it could also serve as an opportunity for public and private 
sector IT professionals to share best practices for emergency IT 
responses.
Office of Homeland Security
    We also believe that the Office of Homeland Security should play an 
integral role in helping the public and private sector provide 
continuity and disaster planning for their communities while 
coordinating an effective and coordinated response in times of crisis. 
Information technology should be utilized to facilitate more effective 
communication and coordination between all appropriate law enforcement 
agencies in a secure, real-time fashion. We believe that by utilizing 
commercial technology, some of the challenges of interagency and 
intergovernmental agency communication and cooperation could be 
diminished significantly.

                 CONCLUSION: MAKE THIS OUR FINEST HOUR
    The terrorists sought to undermine our businesses and to destroy 
the ``American way'' with fear. As business and government leaders, we 
can stand united to take the best we have to offer to secure this 
nation's infrastructure and to take this opportunity to lead with 
innovation. Years from now, as we look back upon this time, let history 
show that we did not give in, and that the tragedies of September 2001 
spurred us all to our finest hour.
    Mr. Chairman, thank you for inviting me to appear before the 
Subcommittee. Accenture is committed to working with you as you further 
develop the NetGuard proposal.

    Senator Wyden. Thank you. We very much appreciated all 
Accenture did to step in and assist.
    Mr. Sandri, welcome.

     STATEMENT OF JOSEPH SANDRI, SENIOR VICE PRESIDENT AND 
           REGULATORY COUNSEL, WINSTAR COMMUNICATIONS

    Mr. Sandri. Thank you, Mr. Chairman. Timothy Graham is in 
New York today, I appreciate, and he appreciates, the 
opportunity to comment.
    Good morning. My name is Joe Sandri, and I am Senior Vice 
President and Regulatory Counsel with Winstar Communications. I 
am also here on behalf of the Association for Local 
Telecommunication Services, or ALTS, and the Wireless 
Communications Association. Today, I will discuss my company's 
participation in network survivability and restoration efforts 
after the recent tragic events, provide data on what worked, 
and suggest improvements needed to capitalize on the lessons 
learned.
    Winstar is a fixed wireless facilities-based broadband 
services company providing high speed Internet and competitive 
local exchange services. In terms of geographic coverage and 
total megahertz, Winstar is the Nation's largest holder of 
commercial spectrum, with ubiquitous holdings covering every 
road, building, and State in the country.
    Winstar is also the largest winner of Metropolitan Area 
Acquisition (MAA) local service contracts from the Federal 
Government. Winstar is the only MAA contractor offering 
services primarily using fixed wireless. Winstar is currently 
in the sale process under section 363 of the U.S. Bankruptcy 
Code.
    In response to the horrible events of September 11, Winstar 
created voice and data network access in New York City, 
Northern Virginia, and Pennsylvania. In lower Manhattan, 
Winstar provided facilities-based access to three City of New 
York emergency relief centers, FEMA, the U.S. District Court 
for the Southern District of New York, the U.S. Marshal 
Service, the Department of Corrections, Citigroup, brokerages, 
insurance companies, and many other facilities. Winstar also 
met requests for help from Sprint, MCI, and other carriers to 
provide network assistance. In many buildings, Winstar was, and 
in some instances still is, the only service remaining.
    Communications users learned hard lessons. In a definitive 
September 22 New York Times article, third party experts 
reached conclusions about the physical structure of the U.S. 
Internet and communications network, noting that many users 
relied heavily on built-in redundancies, but, quote: ``The 
disaster did expose some of the limits of those contingency 
planning. Some of those multiple lines traveled the same 
conduits to the same routing centers. If something happens to 
those conduits or routing centers, as it did in many cases in 
September 11, all the redundancy in the world does not help. 
All the cables would be damaged.''
    ``Roy A. Maxion, Director of the Dependable Systems 
Laboratory at Carnegie Mellon University in Pittsburgh, has 
long preached the value of physical diversity in networks. `I 
would not want to be alarmist about this,' he said, `but what I 
think is interesting is how the system is not set up. A lot of 
these contingency plans are not in place.' He added that `as a 
Nation, we are dangerously vulnerable.' ''
    On November 9, Harvey Pitt, who is Chairman of the 
Securities and Exchange Commission, stated: ``Wherever 
possible, business continuity planning should seek to avoid 
reliance on single points of failure in critical systems. 
Single points of failure can occur in ways that are unforeseen, 
and even odd. The lines of competing telecom providers may all 
lie side-by-side in old, obscure conduits.''
    And on October 19, the Wall Street Journal ran a front-page 
article detailing the dangerous concentration of communications 
traffic in the offices of the incumbent local exchange carrier 
(ILEC). The article notes that often nearly all local and long 
distance traffic (not to mention the bulk of all international 
traffic), often routes through a single ILEC office in even our 
major cities.
    Earlier this week, Verizon Chairman Ivan Seidenberg 
endorsed the redundant facilities.
    What are some solutions? They belong in three broad 
categories: (1) Public education and direction by government; 
(2) Establishment of physical diverse facilities-based networks 
that enter and exit buildings at physically separated points; 
and (3) Modification of the Federal Emergency Management Agency 
(FEMA) warehouse system.
    Congress, the Executive Branch, and expert agencies such as 
the FCC and the National Institute for Standards could help by 
issuing bulletins advising the public of: (1) Dangers of 
improper reliance on systems that may be redundant in some 
fashion but do not have physically separate facilities-based 
networks which ingress and egress the buildings at points 
separated to the maximum extent feasible, for example, by 
levels in a multifloor building, or by at least 100 feet in 
single floor buildings; and (2) Discussing possible 
requirements that these basic issues be addressed on a priority 
basis.
    As you are likely aware, lower Manhattan is home to the 
greatest number of communications company operations in the 
Nation. This did allow for a restoration of services over a 
period of months. The rest of the Nation does not enjoy access 
to such a multitude of readily available services.
    Moreover, the Nation likely cannot afford to suffer a 
breakdown in communications from critical government or 
commercial sectors. Hospitals, research facilities such as the 
Centers for Disease Control in Atlanta, the National Science 
Foundation, NIST, Emergency services (police, fire, 
paramedics), securities exchanges, brokerages, courts, prisons, 
central banks, financial institutions, and many other 
organizations in theory must never go down.
    The Federal Government, primarily under the management of 
FEMA, maintains warehouses in the event of a natural disaster 
(floods, hurricanes, et cetera). These supplies include basic 
hand-held voice communications systems. Additionally, certain 
spectrum bands are available for their use.
    The Federal Government should expand this model to assist 
in protecting urban environments and the Internet. For example, 
certain broadbands, spectrum bands and equipment should, in 
agreement with private sector partners, be made available.
    The equipment could be kept in strategically located 
warehouses and accessed in the event of an incident. 
Consultation with private industry as to the type of equipment 
and arrangements needed to restore broadband Internet to key 
government and commercial centers could result in the 
development of an inventory of items and services needed.
    In conclusion, without the swift institution of these 
recommended measures, we remain as unprepared as we were when 
the third party experts opined in The New York Times and Wall 
Street Journal. Leadership and decisive action such as yours 
will be more appreciated over time, as people reflect over the 
critical decisions made at this juncture. NIST holds a seat on 
the Presidential Critical Infrastructure Board established by 
Executive Order on October 16 of this year.
    This Subcommittee's jurisdiction over the Internet, NIST, 
and other scientific institutions and standards-setting bodies 
sits at the center of decisionmaking.
    Thank you for allowing me to testify before such a relevant 
institution during such an important phase in our development. 
Thank you.
    [The prepared statement of Mr. Graham, submitted by Mr. 
Sandri follows:]
 Prepared Statement of Timothy R. Graham, Executive Vice President and 
             General Counsel, Winstar Communications, Inc.

                      I. OPENING AND INTRODUCTION.
    Good afternoon Chairman Wyden (D-OR) and members of the 
subcommittee. I appreciate the opportunity to appear today to discuss 
NetGuard and accordingly recommended methods for providing emergency 
restoration and network security to the national communications and 
technology infrastructure. My name is Timothy Graham, and I am the 
Executive Vice President and General Counsel of Winstar Communications, 
Inc. I am also here on behalf of the Association for Alternative 
Telecommunications Services (ALTS)). Today I will discuss my company's 
participation in network restoration efforts after the recent tragic 
events, provide data on what worked, and suggest improvements needed to 
capitalize on hard lessons learned.

                            II. BACKGROUND.
    Winstar is a fixed-wireless broadband services company providing 
high-speed Internet and competitive local exchange services. Winstar, 
in terms of geographic coverage and total Megahertz, is the largest 
holder of commercial spectrum in the United States, with ubiquitous 
spectrum holdings covering every road and building in every State in 
the country. Winstar is also the largest winner of Metropolitan Area 
Acquisition (MAA) program contracts from the Federal Government, 
winning contracts in 14 of the 23 areas that have been awarded. Winstar 
is the only MAA contractor offering services to MAA customers primarily 
using a fixed wireless broadband technology for last mile connectivity.

                  III. EMERGENCY RESTORATION EFFORTS.
    In response to the horrible events of September 11 Winstar created 
voice and data network access in New York City, Northern Virginia., and 
Pennsylvania. Winstar responded to calls from the city of New York to 
provide access to three emergency relief centers in lower Manhattan 
(Centre Street, Gold Street, and Worth Street), provided service to the 
Federal Emergency Management Agency (FEMA), and installed local service 
to numerous businesses and government bodies including the Department 
of Justice (U.S. Marshals), Federal Courts,\1\ the Department of 
Corrections, Citigroup, and other facilities in lower Manhattan. 
Winstar also met requests for help from Sprint, MCI and other carriers 
to provide network assistance. In several buildings throughout lower 
Manhattan, Winstar was the only service remaining. Typical is the 
situation at 111 John Street, where Winstar provided services to a 
number of businesses, including The Rubin Group, Nixon Gallagher 
Company Insurance, Marstech Consulting, York Claims Service, AFG 
Partners, and All Risk Brokerage. In the Washington, DC area Winstar 
installed communications services for Cingular, providing emergency 
restoration of backhaul services for the cellular network in the 
vicinity of the Pentagon. In Philadelphia, Winstar assisted the 
American Red Cross by doubling its phone line capacity in just a few 
hours, enabling it to handle over 500 calls an hour from those wanting 
to donate blood or provide other aid. Winstar is also using its 
WirelessFiber technology to support many users and other major 
interexchange carriers.
---------------------------------------------------------------------------
    \1\ The Wall Street Journal, A10 (November 30, 2001). ``It has been 
a trying few months for many businesses and organizations located near 
the Trade Center. The 700 employees of the U.S. District Court for the 
Southern District of New York still lack basic landline phone services, 
despite many visits from Verizon technicians, according to court 
executive Clifford Kirsh. The court continues to rely on a service from 
Winstar Communications, Inc., which sends calls and computer data via 
fixed wireless connections.''
---------------------------------------------------------------------------
    Numerous media reports chronicled the emergency restoration efforts 
of a variety of communications companies.\2\ In many cases the only 
available restoration technology involved facilities-based fixed 
wireless systems.
---------------------------------------------------------------------------
    \2\ Internet, Telecom Networks Put to Test in Wake of Terrorist 
Strikes on U.S., Network World Staff, (Sept. 17, 2001.): See also, 
Berman, Disaster Gives New Life to Wireless Telecom Firms, The Wall 
Street Journal, B1. (Oct. 3, 2001): Companies Assist Restoration 
Efforts, Wireless Week (Sept. 24, 2001): and Broadband Carriers Aid to 
Get Networks Working, RCR Wireless News, (Sept. 24, 2001).
---------------------------------------------------------------------------

                          IV. LESSONS LEARNED.
    Hard lessons were learned by major users of information technology. 
In a definitive New York Times article, the conclusion of third party 
experts about the physical structure of our Internet and communications 
networks bears direct quotation:
    ``As planned, the telecommunications system also relied heavily on 
built-in redundancies. Many companies, for example, have more than one 
line from their offices to high-speed access points. But the disaster 
did expose some of the limits of those contingency plans. Some of those 
multiple lines travel the same conduits to the same routing centers. If 
something happens to those conduits or routing centers--as did in many 
cases on Tuesday--all the redundancy in the world doesn't help: all the 
cables would be damaged.''
    ``Roy A. Maxion, director of the dependable-systems laboratory at 
Carnegie Mellon University in Pittsburgh, has long preached the value 
of physical diversity in networks. `I wouldn't want to be alarmist 
about this,' he said, `but what I think is interesting is how the 
system is not set up. A lot of these contingency plans are not in 
place.' He added that `as a Nation we are dangerously vulnerable.' '' 
\3\
---------------------------------------------------------------------------
    \3\ See Guernsey, ``An Unimaginable Emergency Put Communications to 
the Test,'' The New York Times, at http: // www.nytimes.com/2001/09/20/
technology/circuits/20INFR.html (Sept. 20, 2001).
---------------------------------------------------------------------------
    On October 6, 2001 another New York Times article about the 
disrupted operations of the Bank of New York went even further in 
discussing the danger of improperly designed redundancies from the 
perspective of the consumer:
    ``Everyone had redundant telecommunications facilities, but a lot 
of them turned out to be routed through the same phone company 
offices,'' said Thomas F. Costa, chief operating officer of the 
Government Securities Clearing Corporation. ``We've all learned that 
when we have backup lines, we should know a lot more about where they 
run.'' \4\
---------------------------------------------------------------------------
    \4\ Hansell, ``Disruptions Put Bank of New York to the Test,'' The 
New York Times, at http: // www.nytimes.com/2001/10/06/business/
06BONY.html. (Oct. 6, 2001)
---------------------------------------------------------------------------
    And on October 19, 2001, the Wall Street Journal ran a front-page 
article detailing the dangerous concentration of communications traffic 
in the offices of the incumbent local exchange carrier (ILEC). The 
article notes that often nearly all local and long distance traffic 
(not to mention the fact that the bulk of all Internet traffic) often 
routes through a single ILEC office in even our major cities.\5\
---------------------------------------------------------------------------
    \5\ Young and Berman, ``Exposed Wires: Trade Center Attack Shows 
Vulnerability of Telecom Network. Damage to Verizon Facility Snarled 
City's Phones; A Legacy of Monopoly?,'' The Wall Street Journal, A1. 
(Oct. 19, 2001).
---------------------------------------------------------------------------
    On November 9, 2001, Harvey Pitt, Chairman of the U.S. Securities 
and Exchange Commission, delivered a speech stating that ``critical 
functions need backup capabilities with fail-over functionality 
allowing rapid recovery.'' In particular he said:
    ``[W]herever possible, business continuity planning should seek to 
avoid reliance on single points of failure in critical systems. Single 
points of failure can occur in ways that are unforseen, and even odd. 
The lines of competing telecom providers may all lie side by side in 
old, obscure conduits.'' \6\
---------------------------------------------------------------------------
    \6\ Chairman Harvey L. Pitt, U.S. Securities and Exchange 
Commission, Remarks at the Securities Industry Association Annual 
Meeting (Nov. 9, 2001). www.sec.gov/news/speech/spch521.htm
---------------------------------------------------------------------------
    Major third party studies also confirm the need for diversity, the 
fact that the Nation is not fully prepared, and that a false sense of 
security abounds where people have installed redundant systems, but 
those systems are not properly configured to be truly redundant.\7\
---------------------------------------------------------------------------
    \7\ Cyber Attacks During the War on Terrorism: A Predictive 
Analysis, Institute for Technical Security Studies at Dartmouth 
College, by Michael Vatis, Director, (Sept. 22, 2001) (at p.16 Mr. 
Vatis notes the routing vulnerabilities: ``Routers are the `air traffic 
controllers' of the Internet, ensuring that information, in the form of 
packets, gets from source to destination. Routing operations have not 
yet seen deliberate disruption from malicious activity, but the lack of 
diversity in router operating systems leaves open the possibility for a 
massive routing attack.'' See also, Nation Under Attack: U.S. IT 
Infrastructure Responds in Midst of Calamity, Testimony to U.S. House 
of Representatives, Committee on Government Reform, by Harris Miller, 
President, ITAA (Sept. 26, 2001). ``One issue that needs further but 
quick examination is the need to create more redundancy in our 
telecommunications infrastructure, particularly diversity of egress and 
ingress in buildings with major telecommunications facilities. Having 
backup telecommunications systems that are located in the same part of 
a building and that go in and out of the building through the same 
pipes may create a false sense of security. This issue is especially 
important when essential government telecommunications systems are 
involved.''
---------------------------------------------------------------------------
    What are the solutions?
v. all key commercial and government buildings need to be served by at 
 least two separate facilities-based networks, that enter and exit the 
   building from points separated by multiple levels in multi-story 
     buildings, and by at least 100 feet in single story buildings.
    The examples of emergency restoration efforts, and the observations 
of third party experts in media reports and white papers, confirm the 
pressing need for physically diverse facilities-based networks as a 
means of ensuring network security in emergency situations and 
preserving the national communications infrastructure. Those networks 
must enter and exit the building at points as far apart as possible.

                  VI. THE PUBLIC NEEDS TO BE EDUCATED.
    Congress, the executive branch and expert agencies, such as 
National Institute of Standards (NIST), need to issue bulletins 
advising the public of the:
    1. Need for redundancy; 2. Dangers of improper reliance on systems 
that may be redundant in some fashion, but do not have physically 
separate facilities-based networks which ingress and egress the 
building at points separated to the maximum extent feasible (such as by 
levels in a multi-floor building or 100 feet, etc.); and 3. Requirement 
that these basic issues be addressed on a priority basis.
    As you are likely aware, lower Manhattan is home to the greatest 
number of communications company operations in the nation. This allowed 
for the restoration of services over a period of months. The rest of 
the Nation does not enjoy access to such a multitude of readily 
available services. Moreover, the Nation likely cannot afford to suffer 
a breakdown in communications from critical government or commercial 
sectors. Hospitals, Research facilities such as National Science 
Foundation (NSF), NIST and the Center for Disease Control in Atlanta, 
Emergency services (police, fire, paramedics), Securities exchanges, 
Brokerages, Courts, Prisons, Central Banks, Financial institutions, and 
many other organizations must never go down.
    Of course, more detailed studies will be, and should be, made. 
Those studies will address many more details about the national 
communications infrastructure. However, it would be irresponsible if 
the basic and obvious solutions identified herein were not immediately 
adopted.
 vii. expand the fema warehouse model to urban and technology sectors.
    The Federal Government, primarily under the management of FEMA, 
maintains warehouses in the event of natural disasters. Primarily, the 
purpose of that program is to provide tools for fighting forest fires, 
flood and hurricane recovery, and other efforts. The supplies, which 
consist of tents, shovels, etc., also include communications systems. 
Those communications systems are typically walkie-talkie and other 
hand-held systems. Additionally, certain spectrum bands are set aside 
for use by Federal emergency personnel to use these hand-held wireless 
devices.
    The Federal Government should expand this model to assist in 
protecting urban environments and the Internet. For example, certain 
broadband spectrum bands and equipment should, in agreement with 
private sector partners, be set aside by the Federal Government. The 
equipment could be kept in strategically located warehouses and 
accessed in the event of an incident. Consultation with private 
industry as to the type of equipment, and arrangements needed to 
restore broadband Internet to key government and commercial centers 
could result in the development of an inventory of items and services 
needed.

                           VIII. CONCLUSION.
    Maintaining secure and reliable communications are vital to the 
safety and well being of this country and its populace. Leadership and 
decisive action such as yours is needed and will be more appreciated 
over time as people reflect over the critical decisions made at this 
juncture.
    Without the swift institution of these recommended measures, we 
remain as unprepared as we were when the third party expert opinions 
were published in the New York Times.
    Thank you for allowing me to testify before such a relevant 
institution during such an important phase in the development of this 
nation. NIST holds a seat on the Presidential Critical Infrastructure 
Board, established by Executive Order Oct. 16, 2001. I clearly 
recognize that this subcommittee, with direct jurisdiction over the 
Internet, and a broad variety of U.S. Government scientific 
institutions and standard-setting bodies, including NIST, sits at the 
center of decisionmaking. It is an honor to have had the opportunity to 
provide this information to the official record for your consideration.
                                 ______
                                 
    Subject: Needed Telecommunications Emergency Restoration and 
Network Survivability Measures.
    Goal: Establish Physically Diverse Facilities-Based 
Telecommunications Egress and Ingress Points in Government and 
Commercial Buildings.
    (1) Guernsey, ``An Unimaginable Emergency Put Communications to the 
Test,'' The New York Times, at http: // www.nytimes.com/2001/09/20/
technology/circuits/20INFR.html (Sept. 20, 2001)
    (2) Hansell, ``Disruptions Put Bank of New York to the Test,'' The 
New York Times, at http: // www.nytimes.com/2001/10/06/business/
06BONY.html. (Oct. 6, 2001)
    (3) Young and Berman, ``Trade Center Attack Shows Vulnerability of 
Telecom Network,'' The Wall Street Journal, A1. (Oct. 19, 2001)
    (4) Chairman Harvey L. Pitt, U.S. Securities and Exchange 
Commission, Remarks at the Securities Industry Association Annual 
Meeting (Nov. 9, 2001). www.sec.gov/news/speech/spch521.htm
    (5) Cyber Attacks During the War on Terrorism: A Predictive 
Analysis, Institute for Technical Security Studies at Dartmouth 
College, by Michael Vatis, Director, (Sept. 22, 2001).
    (6) Nation Under Attack: U.S. IT Infrastructure Responds in Midst 
of Calamity, Testimony to U.S. House of Representatives, Committee on 
Government Reform, by Harris Miller, President, ITAA (Sept. 26, 2001).
    (7) Emergency Restoration and Network Survivability Services to 
Lower Manhattan, the Pentagon and other sites.
    <bullet> Berman, Verizon Says It Has Now Restored Most Circuits 
Affected by Attacks, The Wall Street Journal, A10. (Nov. 30, 2001).
    <bullet> Berman, Disaster Gives New Life to Wireless Telecom Firms, 
The Wall Street Journal, B1. (Oct. 3, 2001).
    <bullet> Companies Assist Restoration Efforts, Wireless Week (Sept. 
24, 2001).
    <bullet> Internet, Telecom Networks Put to Test in Wake of 
Terrorist Strikes on U.S., Network World Staff, (Sept. 17, 2001).
    <bullet> Broadband Carriers Aid to Get Networks Working, RCR 
Wireless News, (Sept. 24, 2001).

    Senator Wyden. Thank you, Mr. Sandri.
    Ms. Roche has to get on a train in a few minutes.
    Ms. Roche. It is fine. I am OK.
    Senator Wyden. Well, you are not going to get off easy.
    [Laughter.]
    Senator Wyden. Let me ask the question that I was going to 
let you get out the door with, out to the train with, and then 
we will go from there. Let us, because of everything you went 
through--and this is, of course, after the fact. If you could 
have had, say, two technologies in your hand at the time of the 
attack, what would they have been?; and then let us say, if 
somebody could, like NETGuard, have supplied you with two 
technologies immediately after the attack, what would they have 
been, given all that you went through? Why don't you take a 
crack at that?
    Ms. Roche. Well, one of the coworkers I was with had his 
Blackberry with him, and that was a hugely helpful device, 
because it really--we were able to have more than just a few 
words of communications. We could really get in touch with a 
lot of people and be able to send messages.
    And so I think had something like that been more widely 
deployed--I know that myself and all the people that I saw were 
hysterical, because there are so many tourists down in that 
area all the time and they are not familiar with New York, and 
they do not necessarily always have cell phones or whatever it 
was.
    That also would have been helpful, to have some sort of 
mechanism that just would not fail, that even cell phones in 
regular circumstances are often in a dead zone. In this case, 
we were completely inoperable for weeks, and so I think having 
some sort of device like that widespread that people had access 
to would have been really helpful.
    Senator Wyden. That would be your choice ahead of time, 
right?
    Ms. Roche. Right.
    Senator Wyden. What would be helpful to you based upon what 
you went through that NETGuard could have provided as quickly 
as possible after the attack?
    Ms. Roche. I think one of the big problems was that there 
was not an organized effort to really communicate. I do not 
think anyone, when we were in all the bottoms of buildings, or 
people were coming into our building, there was no one that had 
the accurate information, and I do not know if it was security 
guards or police officers, or whoever it was that were kind of 
there corralling people and trying to create a sense of calm, I 
do not think any of them had any clear information or had any 
idea of what to do.
    It would have been great if they would have had some way of 
immediately having access to information that was immediate and 
that was accurate, so that we all could at least--I mean, there 
were people that were hysterical and that were by themselves, 
or that were on the street that were coming into our building, 
because it was the first door they came to when they were 
running away from the Towers.
    None of us ever, I do not think--unless I had had a text 
message to let me know what was going on, at least it gave me 
some calm, but there was never a sense that the people that 
were kind of looking out for our best interests had any way of 
letting us know what was going on, or where we should be going 
next, or what was in any way a safe or somewhat safe way to 
head, and I think that would have been hugely helpful to have 
that information to them.
    Senator Wyden. Senator Allen, would you like to ask 
anything of Ms. Roche right now?
    Senator Allen. You mentioned the Blackberry, and 
Blackberries are fine. I would think that a Palm, where you 
were trying to get information, not just having to rely on 
messages back and forth, but actually getting information, that 
the Palms--and no one mentions that, and I do not know why, but 
it seems to me they have greater capabilities in that regard to 
get information.
    I know here, watching CNN in our office, and watching one 
of the Towers collapse, the first one that collapsed, we were 
watching it on TV. Now, obviously, I suppose you could get 
streaming and so forth on it, but to me, any of those 
capabilities would be good, and I would not want to exclude 
Palm, because it seems to have much more capabilities to it. I 
think that Senator Wyden's views were the same.
    Having lived through it, you said the one thing is 
obviously, communicating and getting information, and that is 
the key to it. I will only ask you a somewhat personal 
question, and I cannot believe you have this with your fiance--
is the Arlington Hospital, is it Arlington here?
    Ms. Roche. It is Arlington here, unbelievable.
    Senator Allen. That was the other jurisdiction.
    Senator Wyden. We are looking at partisan pride.
    Senator Allen. The sad thing is, New York City and 
Arlington, Virginia are the two places that were hit.
    Ms. Roche. It was a terrible coincidence that our parents 
bemoaned for weeks, but I do think that something like the 
Palm--I see your point--especially if I was not familiar with 
the area and was trying to get some sort of map or something 
like that, to at least know which direction to head if there 
was not someone to tell me.
    Senator Allen. Plus information of what is going on.
    Ms. Roche. But I think in those moments there were not 
people trying to like, surf around and figure out--I just do 
not think you are sitting there in an emergency situation 
looking around at your Palm, looking at CNN or whatever. You 
want someone to be telling you that.
    Senator Allen. You cannot see CNN on it.
    Ms. Roche. But at least get some sort of information from 
it, and I think it would probably serve some of the same 
purposes that a Blackberry would. I just know that the 
Blackberry just tends to always be efficient, and you are 
always able to get across, and the Palms are not--they do not 
seem to be as always able to get the information that you need.
    Maybe they are and I just do not have as much experience 
with them, but I think anything like that, that would have 
allowed you to be in touch, but the thing with that is, you 
also have to know that someone that you are communicating with, 
that they have a way to respond to you, too, so it is great if 
I have one, but it is only as great as--I do not think my mom 
would have had one.
    Senator Allen. Well, thank you very much. Do you have a 
wedding date set?
    Ms. Roche. May 18.
    Senator Allen. Good luck. Best wishes to you. You are from 
New York City, but you are very easy to understand.
    [Laughter.]
    Ms. Roche. I went to school in Virginia, and I am from the 
Midwest, so that kind of balances me out.
    [Laughter.]
    Senator Wyden. I am not going there.
    [Laughter.]
    Senator Wyden. Ms. Roche, let us do this. We will liberate 
you now, if you would like to go, and recognize that if you 
stay you are liable to get some more questions.
    Ms. Roche. I am happy to stay.
    Senator Wyden. Terrific. We are happy to have you. Let us 
go, then, to you, Mr. Pelgrin, to give us sort of an overall 
assessment of some of the issues that are important to New 
York. In your view, what types of technology assistance was 
most important for New York that you had trouble getting 
quickly?
    Mr. Pelgrin. Actually, the amount of assistance that came 
out right after September 11 was phenomenal.
    Senator Wyden. We are all stipulating to that. We all agree 
that it was extraordinary, but obviously, given what Ms. Roche 
and Ms. Coppernoll, and I am sure your own people have found, 
clearly there were, in spite of these extraordinary efforts, 
some gaps out there. I think what I am interested in knowing is 
what types of technology assistance was most important to New 
York that you needed and was hard to get your hands on as 
quickly as it would have been?
    Mr. Pelgrin. In certain cases, the ability to communicate 
with the people that you needed to speak to very quickly. For 
example, with the 2,250 circuits that were down, that was very 
difficult for us to be able to. While Verizon did everything in 
its power to get those circuits up, for us to get to the people 
that we needed to get to, to use that contact list that you 
referred to, and to be able to have somebody who is standing 
by--both on a private sector basis, and on a State basis--we 
needed to contact State and local agencies, along with others, 
and communication was difficult during that process. Getting 
good information, also getting it accurately and immediately is 
something that is critical in emergency management situations.
    The ability to have devices like Palms, like Blackberries 
that you could get and read very quickly is critical, but from 
a gap perspective, Senator, it was really the case that all the 
vendors came forward immediately and offered their assistance, 
both directly to me, but also through an 800 number to which 
they could donate.
    There were computers that were just gone, offices--I mean, 
this was an incident that--with Y2K, we looked at an 
infrastructure, a technology infrastructure potentially 
failing, but what occurred in this situation, we had human 
infrastructure, a physical infrastructure as well as a 
technology infrastructure impacted. We were in the process of 
relocating State agencies, and we were dealing with and 
consoling victims' families, so in that perspective we dealt 
with it on a day-to-day basis. I spent 2 weeks in our State 
emergency management bunker and did not see the light of day 
for almost 2 weeks, and I know that the assistance, when we 
needed it--people were there.
    Senator Wyden. Do you think that a pre-existing database of 
available private sector resources would have been helpful to 
you in the aftermath of 9/11?
    Mr. Pelgrin. Absolutely, and in fact, back in Y2K we 
started to develop that capability. However, as human nature 
goes, a lot of that was not kept up-to-date.
    One of the charges the Governor has given me is to bring 
together, at least on a State level, those agencies that have 
critical infrastructure, and to make sure that that critical 
infrastructure, both from a contact perspective, and a location 
perspective, is identified and maintained.
    Senator Wyden. It seems to me that that is relatively low-
hanging fruit. I mean, there are some of these issues that are 
going to be difficult. Certainly, the question of assuring 
enough spectrum, for example--I mean, this is a difficult 
issue, and the fact of the matter is, this country is close to 
running out of oceanfront property.
    We have a system, frankly, and I and others have spoken and 
focused on spectrum reform that needs some dramatic kinds of 
changes. The current system discourages innovation, but that is 
going to be a difficult issue, and there are strong views on 
both sides, but there is no reason, for example, that all 
across the country in communities that are so concerned about 
this issue, that we cannot have these pre-existing databases 
that in effect make clear what the resources are, where you go 
to turn to, to track volunteers and their expertise.
    We could have lists of doctors that are familiar with 
health kinds of concerns, technology professionals who are 
knowledgeable in computer viruses. It ought to be possible to 
turn quickly to this talent bank, and I appreciate you making 
it clear for the record that would have been helpful to you all 
in New York City.
    A question for the private companies, for Ms. Coppernoll 
and Accenture and other people who helped so much on the 
private side. To whom did you all provide the most help to in 
the aftermath of 9/11? Was it mostly to the local government? 
Was it to the Federal Government, non-governmental relief 
agencies? Who needed the most help, and why don't we start with 
you, Ms. Coppernoll, and we will just go down the row with 
private companies.
    Ms. Coppernoll. It is difficult to say who needed the most 
help, because I did not, obviously, see everybody, but we 
spread the offer widely. Dr. Grove made some phone calls to 
Governor Pataki. We got in contact with the Mayor's office, and 
we also got in contact with a lot of the military groups as 
well as a couple of directors at FEMA. All of the organizations 
said ``yes, individually we need assistance. We are just not 
100 percent sure what we need.''
    We had to go there physically and see what we thought we 
could do to help them, because it was very difficult for them 
to scope what exactly it was that they needed, and then once we 
were there, people would start to come to us and ask us, so 
there were good examples of FEMA workers that had been deployed 
that really needed some assistance, and I had a long list of 
requests from people that were making maps, people that were 
trying to link into other agencies just to get reports out. 
They needed assistance, and they probably I would put at the 
top of my list, just because we spent the most time with them.
    Certainly down at Ground Zero, the military and national 
reserves that were there, they needed a lot of assistance. The 
things that they were dealing with, as you have heard over and 
over again today, technology could have definitely helped them. 
Some of the examples you have already heard. Some of the other 
ones, you talked about deploying resources. The branch chief 
down at the OEM office said we had people with highly trained 
skills that were serving food. We did not know how to find 
those people and get them to the right place at the right 
moment.
    We would have teams of people that were deployed down to 
the site, search and rescue teams that we would have to ask to 
wait for 6 hours because we were moving a piece of equipment 
and we did not know that that was going on, and we had no way 
of sharing information, getting information distributed. They 
were in serious need of assistance, and those were probably the 
two that were most visible.
    On the business side, once businesses were trying to figure 
out what to do and where to go, a lot of them did not have 
access to the Internet. Their computers were gone. They needed 
a place where they could go. It was not obvious immediately 
that that was necessarily the most immediate place to 
distribute information from them, because they had a hard time 
receiving it on the other side.
    Mr. Rohleder. I would separate our constituencies into two 
groups, first of all, and it varies by phase of the work. 
Immediately when we were helping establish a Family Assistance 
Center, we worked directly with the city officials, city IT 
officials, and to a certain extent some of the State officials, 
to help establish a program management office and put the 
processes in place to get that center up.
    As we transitioned that in and made progress there, we 
worked more shoulder-to-shoulder with the relief organizations 
to help connect the different types of relief available and 
connect back into their legacy systems so that we could 
essentially provide a virtual relief center, having one-stop-
shopping at the Family Assistance Center, so I would say the 
city government IT people, and then following up the relief 
organization IT people.
    Senator Wyden. Mr. Sandri.
    Mr. Sandri. Everyone needed help. We brought people up from 
Virginia, and we were also in Manhattan. So, we decided to 
prioritize, sort of a snap judgment. We talked to a department 
in the City of New York called DOIT. Then we provisioned FEMA, 
the Federal courts, the Department of Corrections, and the 
three emergency response centers in lower Manhattan. We 
provided broadband, and we focused on, for example, the U.S. 
Marshal Service location at 26 Federal. That address is where 
all the Federal agencies were, and it needed restoration. We 
identified a few other areas, with some difficulties.
    For example, getting our crews in was difficult. There was 
a surreal moment where I was trying to get crews to help 
restore FEMA, and I was on the phone with FEMA explaining to 
them how we were trying to get through below Canal Street and 
the city police department was manning those barricades, and of 
course, they were not getting information about who was allowed 
through with service trucks. You had people needing to get 
diesel fuel in to get generators moving; people who wanted to 
get on rooftops to deploy wireless systems while the President 
was flying in; and of course, nobody wanted to see anybody on 
the roof with equipment at that time. So there were a lot of 
coordination issues there that certainly could have benefitted 
from a database.
    Senator Wyden. Another question for the private companies. 
Since we are sort of in the hindsight business here this 
morning, kind of looking back at what else might be done in 
terms of the private companies, has 9/11 made you all aware of 
any assets you have that in hindsight you wish you had been 
able to mobilize, or to mobilize more quickly in support of the 
relief effort?
    Ms. Coppernoll.
    Ms. Coppernoll. I think yes. I think we definitely in 
hindsight, everybody stepped back and said yes, we could have 
used our people, resources more effectively. We could have used 
our relationship resources more effectively. We could have 
thought through ideas more quickly and come up with databases 
more quickly, and solutions. I do not know that there is one 
thing specifically I think for us. Because we are a West Coast 
company, we thought of the resources that were at our 
fingertips. You think of the people that you know that you can 
deploy yourselves with that can move very quickly.
    The type of resources that we deployed with are the type of 
resources that go around to trade shows and set up 
demonstrations, because they are extremely flexible, and they 
can work under very unique environments, and you do not know 
what you will find when you walk in to do a trade show in 
Beijing. You just have to deal with it, and do whatever you 
can.
    We had resources in New Jersey and Massachusetts, but we 
did not necessarily immediately think about deploying those 
people for quicker solutions.
    Senator Wyden. That is an interesting point. So as you step 
back, and you came to meetings with me and others on the West 
Coast, and thought about how it would have been done 
differently next time, you would say there are some resources 
that we have elsewhere, in maybe New Jersey or somewhere that 
would be close, in this case obviously to New York City, and 
that would be the kind of thing that would change.
    Ms. Coppernoll. That would be one of them, yes.
    Senator Wyden. Very helpful.
    Mr. Rohleder, Mr. Sandri.
    Mr. Rohleder. A first area would be criminal investigation 
tools. There are a number of technologies we work with. 
Frankly, had we had the foresight to be able to get some 
traction in the government, I think frankly there is a lot of 
information out there, and there are tools that could have 
helped identify potential terrorists.
    I also think in the knowledge management area there are a 
number of tools that are available right now to help agencies 
begin to break down the silos of information that they have and 
connect them more efficiently. The Department of State, for 
example, is involved in a prototype that connects 43 different 
agencies together to share information using commercially 
available tools.
    They started this before 9/11, and we are involved in 
implementing that in New Delhi, in Mexico, and DC., and I think 
tools like that that allow collaboration and knowledge 
management are absolutely essential as we move forward and 
break down some of those.
    Senator Wyden. Out of curiosity, we are aware, Mr. 
Rohleder, of some very good work that is being done in the Drug 
Enforcement Administration along those lines. Are you aware of 
that?
    Mr. Rohleder. Yes, we are.
    Senator Wyden. We will follow up on that.
    Mr. Sandri, on that point.
    Mr. Sandri. I would echo what Ms. Coppernoll and Mr. 
Rohleder were saying. In addition, in hindsight, I think we 
would have focused on some processes, two processes in 
particular.
    One is credentialization. Obviously, the company 
credentials their employees in a certain way, but we might have 
thought through how to coordinate those credentials to 
officials and in the Federal and in the State and municipal 
governments, because that was one of the key problems in 
identifying who you were and how you needed to get to a certain 
point if a service had been ordered from you.
    The second piece is N stack and the network reliability and 
the interoperability councils, which advised the President and 
the Federal Government about how to handle emergencies, are 
currently staffed by CEOs and executives from basically almost 
a pre-1996 Act companies, and in essence there is no 
competitive carriers, and therefore the notion of our more 
complex telecommunications Internet environment has not seeped 
into emergency response efforts in that infrastructure. 
Therefore, we would have pushed much more vigorously to get 
members of competitive companies on those groups, and that is I 
think a pretty poignant hindsight there.
    Senator Wyden. One last question on this round, then I will 
recognize Senator Allen.
    We have been told in some instances some key information 
technology personnel had trouble gaining prompt access to the 
critical areas. I am curious whether any of you had folks that 
experienced that problem, and maybe we will start with Mr. 
Sandri on that, and could a kind of technology guard be helpful 
here, because then you would have something, again, to an 
official credential that local authorities could recognize.
    Mr. Sandri, why don't you take a crack at that?
    Mr. Sandri. I would give that a robust endorsement. We had 
people--I was on the phone on Sunday at 3 a.m., people trying 
to get barricades, critical services were down. You were 
hearing from the municipal governments and Federal Government 
as well as brokerages. The President said he wanted the market 
back up. The brokerage houses were down and we were trying to 
get in, and our people were driving in from, like, for example 
Virginia and New Jersey and elsewhere, coming in on trucks. 
Trucks were not allowed in southern Manhattan, so they got on 
any type of transportation they could, carrying equipment, 
getting to borders, unable to get over the borders.
    They were uncredentialed in any respect, even though we did 
call NCS, the National Coordination Service, which was managed 
by GSA, which was established after the Cuban Missile Crisis, 
and it works in conjunction with FEMA, but a lot of the folks 
there, they had just been--they were Federal Government 
employees usually from GSA, and they had been sort of staffed 
at the last minute. Even though we gave them their name and 
told them what we were doing and wire service had been ordered 
from us, and why we needed to get to southern Manhattan--they 
typed us into something, but when our people showed up, often 
it was at very funny hours. There was no coordination, and 
therefore what you are suggesting, I think, is very needed.
    Senator Wyden. Mr. Rohleder, others.
    Mr. Rohleder. We may be in a little bit different space. 
The people that worked for the Family Assistance Center 
actually were local individuals that were working with local 
city officials, so I think there were some fits and starts, but 
after that it ran very smoothly.
    Senator Wyden. Others.
    Ms. Coppernoll. Only one slight humorous comment. Intel in 
those circles often means ``military intelligence,'' so we had 
a little bit easier time.
    [Laughter.]
    Mr. Cochetti. Senator, if I could add, on just one point 
that was brought up, and I think there have been enormous 
efforts since September 11 on the part of the entire Internet 
industry to work more closely on contingency plans and to 
strengthen their ability to withstand both cyber and physical 
attacks, but I do want to note that I think that the Bush 
Administration and the White House has made what we view as 
extensive efforts to reach out to the Internet industry to 
expand in light of the events of September 11 the network of 
contacts and cooperation, which had historically grown up 
around the telephone industry understandably throughout the 
1960s and 1970s, and even into the 1980s, so we have made what 
I would view as probably a decade's worth of progress in the 
space of the last month involving the Internet industry and 
emergency preparedness.
    Ms. Coppernoll. I actually do have a serious comment on it, 
being down at Ground Zero where the credentialing system was 
going on, and it was a very difficult situation. You had to be 
down there to get credentialed, but you could not get down 
there unless you had credentials, so it was somewhat of a 
catch-22 difficult environment.
    But the branch operations management down there was working 
with the team that does credentialing for the Olympic Committee 
and trying to figure out a way that they could credential 
people, and I sat in on some of their meetings where they had 
some of the local representatives from fire and police trying 
to figure out a way that they could credential their entire 
teams, both from the perspective of getting them in, being able 
to have hand monitors so that they could check and verify who 
was allowed in. It would change on a day-to-day basis, but it 
was an overwhelming task for them to try to implement that 
something after the fact. It was just too difficult.
    Senator Wyden. The key, of course, is to address as many of 
these issues as you possibly can ahead of time. That is why I 
asked the question of Mr. Pelgrin about these databases that, 
should they be pre-existing. Everybody was trying to help. That 
is not what is at issue. Nobody was sitting around saying 
``let's be rotten to people from Oregon who want to help.'' 
Quite the opposite.
    People wanted this kind of assistance, but you have got to 
make sure that people have the necessary expertise and the 
right motive so you can get the vast majority of people quickly 
in, while having a process to make sure that small number of 
people who do not have good motives are kept out, and that is 
why we are going to work on this. It seems to me that this is 
again illustrating how the government, with a very modest sort 
of role, working with the private sector, could have a 
credentialing process so that you have these systems available 
on a pre-existing kind of basis, rather than try after a 
tragedy occurs to play catch-up ball to try to put them in 
place.
    I will have a few last questions, but I want to recognize 
my patient colleague for anything he would like to ask.
    Senator Allen. Thank you, Mr. Chairman. I want to say how 
much I thoroughly enjoyed listening to all of your comments and 
your insight on this, and we were first talking about NETGuard, 
and that is one thing, but some of the things you have been 
saying here are very important for us to understand, as well as 
our colleagues, and Ms. Coppernoll's comments, and we are so 
grateful to Intel, if you would like to have a presence on the 
Eastern Seaboard there are some great places in southside and 
southwest Virginia, and you could join VeriSign in Virginia.
    I would like to say to Mr. Pelgrin, you are fully 
understandable. I completely can understand what you are 
saying, and if you would relay to Governor Pataki what an 
outstanding job he has done. His leadership, his steadiness, 
his calmness, working with Mayor Giuliani, meant a great deal. 
I was looking through your presentation here, and what a well-
organized way you are looking at everything in New York and how 
you are looking to improve it into the future.
    And while you are talking about Wall Street reopening, why 
that was important to New York City, but boy, that sent an 
important signal to this country and, indeed, all around the 
world that Wall Street could operate. We did not like the 
results those first few days, but nevertheless, it was an 
understandable reaction.
    The other thing I think we can learn from this, Mr. 
Chairman is in looking at it, it reminds me of what a 
government of a State such as Virginia or New York or the 
Federal Government was doing on the Y2K situation. We are 
analyzing where are the deficiencies, and then with that, once 
you have that assessment, you work to test whatever 
remediation, and you fully remediate, and it is that same sort 
of strategic corporate planning that business would have, but 
the same as a governmental operation, and in this situation, 
just when you look at this, you see there is great reliance 
upon the State, on the local people, and this can be a model.
    I know Governor Gilmore in Virginia and other Governors are 
doing similar things, but this is a model of how I think we 
ought to have oversight at least for Federal operations from 
what you all are doing in New York.
    I mentioned, Ms. Roche, earlier Mr. Rohleder's comments and 
Accenture's view on the criminal justice efforts and 
collaboration. This is one of the things that is most 
surprising to me on preventing this as far as a matter of 
criminal situations, and you were in some of those briefings 
which we cannot really talk too much about, other than to say, 
people did know about the background of some of these 
individuals coming into this country.
    Now, maybe they have so much information they do not know, 
what, 5 percent of that information is probative, but there 
needs to be much better collaboration. I call it a hand-off. 
They are fumbling the hand-offs. They have the ball and they 
hand it off, but it is fumbled for whatever reason, and I think 
the technology is going to be so important for all of our 
external or international agencies. Whether it is the CIA, 
defense intelligence, working with INS, working with FBI as 
well as with State and local law enforcement is going to be 
important.
    We thank you for your testimony there, and also we are 
grateful to Accenture and also Winstar for all of your work 
here.
    I wanted to ask some questions of Mr. Cochetti of VeriSign, 
and that has to do with the A route and the Internet. The A 
route, and are there any backups? What backups are there to 
prevent a major breakdown in the Internet if that is attacked, 
because one of the key concerns that I have--and I am chairing 
the High Tech Task Force for the Republicans, and I am also in 
agreement with Senator Wyden, but one thing we are concerned 
about is cyber security, and more specifically cyber terrorism, 
and so what are the backups for the A route, and what is its 
vulnerability?
    Mr. Cochetti. Thank you, Senator, and let me, if I may, 
begin by expressing our thanks to you, not just for your 
leadership in high technology issues for the high tech 
technology and Internet industries in Virginia, but also for 
your support recently for the extension of the Internet tax 
moratorium, which we felt was a very important piece of 
legislation which both of you exercised leadership on.
    Your question I think is important, because in most of our 
discussion today we have been talking about what most planners 
would think of as the transport layer for the Internet, the 
basic layer of connectivity, and that is quite appropriate, 
because the September 11 attacks were merely a physical attack, 
and they primarily eliminated physical infrastructure, without 
which you cannot have the upper layers, but above the physical 
layer obviously is the logical layer, and above that are the 
applications, the web sites and the e-mail and everything that 
people actually use the Internet for, and we are quite 
concerned about and sensitive to the issue of security at the 
mid-layer, because without it you do not do anything with the 
connectivity.
    There is probably no single resource in the Internet that 
is more important at that middle layer than what you have 
described as the A route service. This is the facility that has 
been managed by VeriSign, and before it, Network Solutions, 
under contract to the Commerce Department in the U.S. 
Government that provides the central directory for the 
Internet.
    The facility is protected in a variety of ways from both 
physical and logical threats, not all of which it would be 
appropriate for me to discuss at a hearing of this sort, but 
all of which we would be more than happy to brief both of you 
on.
    Sufficient to say, we take the reliability of that facility 
very seriously, are reasonably confident that it would take an 
enormous effort for it to come under any serious threat, and 
use all of the conventional techniques that most people would 
think of, including redundancy and diversity and random 
reallocation and things of that sort, as well as unconventional 
techniques that probably would not be appropriate to talk 
about, and so I think as a Virginian you can be proud that the 
home of the Internet is in Virginia. One of the most important 
facilities of the Internet is in Virginia, but I think you can 
also be confident as a Senator that the facility is well-
regarded.
    I would, if I may, like to introduce into the record of the 
hearing a statement that was issued by the Commerce Department 
on November 13. A high-level delegation from the Commerce 
Department led by Deputy Secretary Bodmin came out to our 
facilities on November 13 to take a look at them, and they were 
joined by officials from the White House. Following their 
visit, they issued a statement indicating their sense of 
confidence and gratitude for VeriSign for the work that we had 
done, and so I think without going into the details of exactly 
what we do, I can say that the Executive Branch, on looking at 
it, has given us their commendation and support.
    Senator Allen. Well, that is comforting to hear. Let me ask 
you this question. Without divulging how you provide for the 
security of the A route or the J route, for that matter, as 
well, we had a meeting on cyber terrorism, and it was amazing 
how many more viruses, and who knows if it is coincidental, 
just taking the Department of Energy, and how many viral 
attacks, Internet viral attacks there were, and it just shot up 
after September 11, and who knows if it was pranksters or not.
    Can you say, or would you feel comfortable in answering 
this question: have the number of attacks on your servers 
increased or decreased after September 11, and does the current 
State of affairs, in your view----
    Mr. Cochetti. If I may answer your question----
    Senator Allen. Maybe if you feel that somehow in answering 
this question in any way in your mind would be harmful to the 
security or the psychology of our country, just say ``I decline 
to answer.''
    Mr. Cochetti. I am happy to answer the question, but I may 
not give you the precision that you or others might have in 
mind, to simply say that operating facilities of the sort that 
we do, we are accustomed to online threats, some of which are 
unintentional, some of which are intentional and have developed 
a variety of systems that are designed to both avoid, prevent, 
and respond to those threats whenever they occur.
    They have been a continuing fact of life for Network 
Solutions and VeriSign both before September 11 and after. 
There have been few, if any occasions that these have been 
successful in disrupting our service for the Internet, so we 
are comfortable that we understand most of the known threats, 
and we have taken every precaution to deal with them, but 
beyond that, I think it is probably something we would rather 
discuss with either the Senators or the Members of the 
Committee outside of the hearing.
    Senator Allen. You would prefer not to say whether they 
have increased since 9/11?
    Mr. Cochetti. Let me ask one of my colleagues here. We have 
not experienced an increase since 9/11, no.
    Senator Allen. That is good. That is good to know.
    One other, and you had so many ideas or comments in your 
testimony. One of them, you stated that the six sigma, the 
99.9999, the six sigma is, as far as your standard of 
reliability, it is an insufficient standard of liability, or 
performance. Now, how many sigmas are needed? I mean, you talk 
about 40.
    Mr. Cochetti. Misfires.
    Senator Allen. 40 bad Internet connections daily. Now, to 
get it to say, seven sigmas, or eight sigmas--and I could 
understand for an Amazon.com this is awful, or AOL and so 
forth, but what is the cost of the added sigmas?
    Mr. Cochetti. Well, it adds considerable cost. We have not 
sought to quantify it, but there is no question but that 
seeking the level of liability we have has imposed a 
significant financial burden on VeriSign simply because what 
you must do is scrub everything for accuracy and provide 
multiple levels of redundancy and reliability, as well as the 
protections against outside intentional or unintentional 
threats that occur.
    So that what we have is a series of filtering techniques, 
devices, and facilities that try progressively to ensure that 
what gets through to the .com, .net, and .org databases, or to 
the route levels are at the highest accuracy level possible, 
adding and maintaining those filters, and doing so in a way 
that each of them would survive problems to them is what 
creates a cost structure, so it would be the equivalent of 
building walls around walls around walls, a fort, and then 
having redundant walls to the walls, in case any of the 
individual walls went down. Then obviously, each time you add a 
wall you create a new cost structure, twice or more if you 
provide redundancy for it.
    Senator Allen. Let me ask you one final question, then I 
would like to ask a question of Mr. Sandri, if I may, Mr. 
Chairman.
    One of the recommendations you suggested is enactment of 
legislation that would reduce some of the risk incurred by 
companies if they share network information with Federal 
agencies that are concerned about security. Can you elaborate 
on the type of risk you are referring to here?
    Mr. Cochetti. Well, there has been legislation considered 
in this Congress and even in previous Congresses that would 
provide some type of protection for companies when they share 
network or operational data with Federal agencies that is 
relevant to Internet security. Obviously, Federal agencies are 
subject to the Freedom of Information Act, and the sharing of 
information between companies can raise antitrust issues.
    At times, because of these two existing legal issues, there 
has been some reluctance on the part of industries or companies 
and operators to share information. We think that this is the 
type of information-sharing which could well be subject to a 
safe harbor. Obviously, one should not lightly consider 
modifying either of those existing legal structures, but in 
order to benefit the specific interest of Internet security, 
and the need for more information sharing, we need to address 
those two areas, and I think most government agencies involved 
in this would probably say much the same thing.
    Senator Allen. We will need some tweaking of the Freedom of 
Information Act.
    Thank you, Mr. Cochetti.
    Mr. Sandri, you mentioned in your statement or that of Mr. 
Gramm, the Winstar statement, that many companies did not have 
redundancies they previously believed they had due to the 
routing of communications through a single local exchange 
carrier, and granted, it has not even been 3 months since this 
horrific attack, but have you seen any change in the private 
sector's approach to ensuring redundancy in the design of their 
communication systems?
    Mr. Sandri. There was an article last Friday in The Wall 
Street Journal that talked about Verizon, which is the 
predominant carrier on the East Coast, and they spoke at length 
about trying to build redundancy, and so I am seeing them 
discussing it and putting facilities in place there.
    Also, the Federal Government as a user has something called 
the GovNet proposal. I am not sure the extent to which you 
focused on that, but an RFI is out, and comments were submitted 
on November 21 at 4 p.m. by a lot of industries.
    The one concern there that we noted in our comments was 
whether a dominant pro-fiber discrimination existed in those 
comments, or in the RFI itself. I asked the question of Richard 
Clark. Was I to presume that the government would connect all 
of its agencies nationwide that were identified as ``key'' with 
fiber, and is fiber the gold standard? The issue is timing, 
because: (1) They are trying to get this done in initial phase 
in 6 months; and (2) True redundancy. You cannot get new fiber 
routes into all the Federal buildings in all our Nation's big 
cities as a matter of infrastructure.
    The conduits and rights-of-way only come in at a certain 
point in a building. Then you have to go to the City of Chicago 
and say, ``we are going to rip up your conduit map and change 
your gas lines, your electric lines, everything else, and come 
in in some other way.'' It is not going to happen, by any 
stretch, to have true fiber route redundancy there to come in 
and out, and therefore the considered opinion was to look at 
alternative technologies that could deliver redundancy.
    In a hard sense, the events of September 11 proved that 
out. Nobody wanted to see that test made, but the test has been 
made, and we see what can deliver when the infrastructure is 
ripped up, and that is predominantly a wireless system.
    Senator Allen. Thank you. Thank you all so very much.
    Ladies and gentlemen, your insights, truly, and information 
and your comments are truly beneficial, I know to these two 
Senators here, and we will certainly share it with others, and 
thank you again for your time and also your bravery as well in 
some cases. Thank you.
    Thank you, Mr. Chairman.
    Senator Wyden. I thank my colleague.
    Just a few last questions, and we will wrap up. One 
question that any of you could be helpful on is, New York 
obviously has one of the largest forces of police and fire 
personnel in the country. It is a major hub for technology and 
communications, so there was lots of expertise right there.
    I mean, arguably New York City, it is perhaps the best 
positioned in the world to deal with this kind of tragedy. My 
question is, how would the technology-related challenges be 
different if an event occurred somewhere else?
    Ms. Coppernoll. It would depend upon the city and the 
location. For Intel, for example, we had thousands of employees 
that were all over the country, and mostly on the West Coast, 
that were willing to go anywhere. I had phone calls from people 
saying, ``I will give up my sabbatical, I will give up my 
vacation, I will quit my job, I will take a leave of absence, I 
will go wherever I need to go.'' So in that example, if it had 
happened anywhere across the U.S., we would have been able to 
mobilize a community of people.
    We had a lot of people from New York City that were within 
the tech community volunteering their time, but they did not 
necessarily come with equipment or projects necessarily, that 
they necessarily could immediately deploy, so I think in the 
example of another city, we would have been able to accomplish 
what we had accomplished, as long as we could get to it.
    Senator Wyden. A lot of cities rely upon a single 
communications hub, where all the phone traffic is funneled 
into a concentrated area, so if a big attack occurs, it seems 
to me that the city loses its communications entirely, so one 
of the reasons for my question is, as we think about mobilizing 
this cadre of volunteers, that is the kind of thing that my 
sense is we need to consider for the many communities that do 
not have as many resources as New York City.
    Mr. Rohleder.
    Mr. Rohleder. Senator, just real quickly, I also think that 
preparedness plays a role, and geography obviously is one 
impact, but the different level of preparedness will certainly 
dictate how any community is going to react to this, and having 
talked to the National Association of Counties, who are the 
first line of defense, if you will, there are some counties 
that are very well-prepared that have documented plans, that 
have telecommunications structures in place to allow them to 
communicate. There are others that do not even know where to 
start, and I think the Federal Government, they are looking to 
the Federal Government to help facilitate some of that 
preparedness planning.
    Ms. Coppernoll. The satellite that we brought for our 
communications came from Wisconsin, so it did not come from 
within New York City.
    Senator Wyden. Any others want to comment on that?
    Mr. Sandri. Just briefly. The record shows that in, for 
example, Cleveland, (I do not know about Portland, exactly), if 
all of the city's telecom is routing through the former 
incumbent monopolist's area, then in a catastrophic event you 
are going to see everything going down, Internet-wise almost 
everything going down, unless you have a separate satellite 
system in place, or a separate facilities-based system in 
place.
    But to reach out to all of the buildings that were 
affected, or that would be affected, I do not know how long it 
would take, but it would probably take a solid year if you 
really wanted to restore everything, because as you rightly 
noted in New York there is the highest concentration in the 
country of competitive carriers, and I think you were talking 
about the layers. If you lose that basic layer, everything else 
cannot build off of it, so from that respect, it is pretty 
daunting.
    Ms. Roche. If I could quickly comment, too, one thing I did 
not comment on before when you asked me what would have worked, 
one thing that worked for us was SMS, which was the text 
messaging I was referring to, although it does not cover all of 
the communication needs that are necessary in a disaster 
situation, I know that it was hugely helpful in being able to 
communicate, and it was not impacted at all. I would think no 
matter where an event like this could have happened across the 
country, that deploying SMS to communicate I think would be 
extremely helpful and wise for NETGuard.
    Senator Wyden. One last question for you, Mr. Pelgrin.
    Mr. Allbaugh told the Subcommittee that FEMA faces some 
legal constraints that could prevent it from accepting help 
from the private sector. Did anybody in New York State or local 
officials face those kinds of constraints, or was it even 
considered? I hate to create legal questions after the fact, 
but I wonder if you had any experience on that?
    Mr. Pelgrin. Yes, actually, we did. Right after the event 
we looked at whether or not the generosity of the vendor 
community could be accepted by the State. We dealt with our 
ethics commission immediately and requested an opinion from 
them relative to that issue. They responded that even though an 
individual donor is a vendor, they would not automatically be a 
``disqualified source''; as long as there was not litigation or 
an investigation involving that vendor, that those services 
could, in fact, be accepted.
    Senator Wyden. This was under the city?
    Mr. Pelgrin. The State.
    Senator Wyden. This was under the State rules?
    Mr. Pelgrin. The State Ethics Law.
    Senator Wyden. Did you have any questions with respect to 
your involvement, say, with the Federal partners?
    Mr. Pelgrin. That never came up.
    Senator Wyden. One last question for you, Mr. Rohleder.
    We are trying to get some lessons in terms of assisting 
victims as well, and your Family Center sounds like a very 
exciting kind of program. I assume at some point this is going 
to close down.
    Mr. Rohleder. Yes. My understanding is probably within the 
next 2 weeks, unfortunately, I think. The city has identified a 
need to close down the center, and what we have been working 
with is to try to keep the virtual nature of that center in 
place, to allow people to have web access to those services, 
and we are working with the city right now to transition from a 
physical facility to a virtual facility and allow them to move 
forward on that basis.
    Senator Wyden. Please keep us apprised of that, because 
that is exactly the kind of model that I am interested in 
pursuing. I mean, at some point you are going to see programs 
or companies that have stepped in needing to close, and the 
question is, what are you going to do to make sure that those 
families are not left in the lurch?
    I mean, it is fine to talk about all of these whiz-bang 
technologies, and it is quite another to have those human faces 
that have been receiving assistance suddenly lost and confused, 
so I think that is a good model, and we would like you to keep 
us apprised.
    We have been at it well over 3 hours, and you all have been 
exceptionally patient, but I think it is really appropriate to 
have you all wrap up, because you have been on the front lines 
seeing it both from a governmental standpoint, from the 
standpoint of people trying to help, and have given us some 
very good suggestions and ideas.
    What I want to do is just really be part of an effort to 
mobilize this army of talent that is out there. We are talking 
about literally millions of people with expertise in science 
and technology that could make a difference, and you can debate 
the details about a NETGuard or cyber security patrol, or 
however you want to call it, but to me what is not in dispute 
is that this country will benefit significantly from the 
ingenuity and talent of people like yourselves and many others 
who work in the technology sector.
    So we thank you for your patience. We are going to follow 
up on these issues quickly, and as I mentioned, work in concert 
with the Administration. Is there anything any of you would 
like to add further?
    Mr. Cochetti. Just briefly, Mr. Chairman, I would hope that 
as I indicated in my testimony, in addition to looking what can 
be done after a catastrophe occurs, it is important for the 
Subcommittee to look at the various things that could be done 
to prevent and avoid such problems from occurring, and the four 
suggestions I offered in my testimony were simply examples.
    But I would, as you think about the Subcommittee's hearings 
and investigative work, allocate a good amount of time to sort 
of the preventive side, a technology, or NETGuard might be 
something which is used to educate web site operators, or used 
to educate network operators on what kind of preventive or 
cautionary activities they might be undertaking, as well as 
helping after disaster strikes.
    So prevention is an important part of the solution.
    Senator Wyden. Well, I appreciate your making that point, 
because not only is that going to be an essential focus of what 
we are trying to do with the technology sector and scientists, 
but you can keep from having to play catch-up ball when a lot 
of Americans are hurting.
    I mean, there are two routes here. You can say, well, 
shoot, just try to respond, and we will try to eliminate as 
much suffering as we can after the fact, or you can use this 
treasure trove, as I call it, of scientific and technological 
talent to prevent as much as possible.
    I mean, you look at fields like biometrics, and mention was 
made of what we are going to try to do in the future. 
Biometrics is a very rapidly changing field, an exciting field 
that is clearly going to be able to play a key role in terms of 
prevention. I see, for example, the NETGuard concept of using 
volunteers along the lines that we are talking about, of 
constantly funneling in to government and local responders all 
across the country state-of-the-art information and equipment 
that they can use in a preventive kind of way.
    You have been exceptionally patient. We are going to be 
calling on you often.
    The hearing is adjourned.
    [Whereupon, at 1 p.m., the hearing was adjourned.]


                            A P P E N D I X

         Prepared Statement of the American Radio Relay League 
              (The National Association for Amateur Radio)

                       PART I: EXECUTIVE SUMMARY
    The American Radio Relay League (ARRL) is a national association 
representing the technical, regulatory and legislative interests of the 
approximately 675,000 Amateur Radio operators in the United States. We 
sincerely thank Chairman Wyden and the subcommittee for giving us the 
opportunity to offer our views on how the Amateur Radio Services 
(defined in Title 47 C.F.R. Part 97) provide a successful, robust and 
rapidly mobilized emergency backup to the nation's telecommunications 
infrastructure. In some ways the service already performs as a 
technology national guard, albeit not in the context proposed by 
Senator Wyden.
    The Amateur Radio Service is comprised of volunteers who have 
earned licenses from the Federal Communications Commission. Radio 
amateurs have provided successful ``wireless links'' during many major 
crises dating back to 1913. Amateurs still ``get the word out'' after 
storms, floods and other natural disasters. Most recently they provided 
communication services to relief agencies after the September 11, 2001 
terrorist outrages at the World Trade Center and the Pentagon. More 
than 100 Amateur Radio volunteers provided emergency communication at 
the Pentagon for about a week after September 11. Another 500 worked 
for more than 2 weeks helping out at Red Cross and Salvation Army 
communications sites around the World Trade Center. It is possible 
that, even as you read this, there continues to be an area of the U.S. 
where Amateur Radio volunteers are helping emergency relief authorities 
cover a temporary gap in communication as they cope with flood, 
tornado, fire or other catastrophe.
    Whenever natural catastrophes or acts of terrorism occur in our 
country, Amateur Radio is available as a tested and organized 
nationwide network of trained radio experts. These volunteers provide 
radio communication under longstanding written agreements with major 
government and private disaster relief organizations.\1\ Under the 
provisions of these agreements they often step forward to help when 
telephone services, data networks, radio and television broadcasters, 
police, fire and ambulance two-way radios, or other vital components of 
local, State or national telecommunications systems are disrupted.
---------------------------------------------------------------------------
    \1\ In addition to being an active member of the National Voluntary 
Organizations Active in Disaster, the American Radio Relay League, as 
the agent of all amateur operators, currently shares active Memoranda 
of Understanding (MOUs) with The National Communication System, The 
Federal Emergency Management Agency, The Association of Public-Safety 
Communication Officials International, The National Weather Service, 
The American National Red Cross, The Society of Broadcast Engineers, 
The National Association of Radio and Telecommunications Engineers, The 
Salvation Army and Radio Emergency Associated Communication Teams 
(REACT).
---------------------------------------------------------------------------
    In fact, even during this stressful time other Amateur operators 
continue to participate in mock disaster drills, national communication 
contests and operating events that serve as trial runs for fast and 
effective radio operation under difficult conditions.
    As our nationwide system of telecommunication grows increasingly 
complex and, many would argue, more vulnerable, the existence of this 
self-supporting, self-managing and flexible system of communication, 
independent of the national network, appears to be an increasingly 
important form of insurance.
    In addition to enthusiastic and knowledgeable hobbyists, the 
Amateur Radio community also consists of experienced emergency 
communicators (some also professionally affiliated with government 
emergency response entities). But equally important is an impressive 
number of successful engineers, military leaders, and academic 
innovators (including Nobel Prize winners) who might easily be 
considered a reservoir of expertise on all aspects of wireless 
communication.
    The purpose of this testimony is to inform you of some of the 
ongoing thinking and planning on in this unique community today.

                    PART II: WHAT IS AMATEUR RADIO?
    Amateur Radio's contribution to the public good has long been 
explicitly recognized by Congress through legislation,\2\ report 
language and statements in the Congressional Record.\3\ Amateur Radio 
supports emergency communication in times of crisis, acts as a 
laboratory for Americans in the great tradition of home experimentation 
to develop vital new technology, and is a spawning ground for each new 
generation of electronic and communication engineers, who, as 
youngsters cut their technological teeth tinkering with electronics and 
radio gear.
---------------------------------------------------------------------------
    \2\ See, for example, PL 103-408, 108 Stat. 4229 (1994), 
recognizing the contributions of radio amateurs. See also PL 100-594, 
102 Stat. 3025 (1988).
    \3\ See for example, p. S12365, Friday August 11, 1995, statement 
by Senator Nickles on Amateur Radio volunteer communication at the site 
of the Oklahoma City bombing.
---------------------------------------------------------------------------
    In this testimony it is important to note that the word ``amateur'' 
is more aligned with the Latin root amo (as ``to love'') than it is 
with the contemporary vernacular implying ``lack of skill.'' Indeed, 
Amateur Radio operators bring a deep love of science and technology to 
the process of electronic communication. And driven by that love, 
Amateur Radio operators offer a very high level of emergency 
communication services supported within an infrastructure of:
    (1) Frequency allocations: sufficient to allow them to surmount 
various physical and electromagnetic conditions encountered in 
emergency communication;
    (2) Organization: most radio amateurs participate in frequent ``on 
the air'' events for enjoyment, but one of the fringe benefits of such 
events is the creation of formal and informal radio groups that can be 
mustered in emergencies. In addition, more formal structure exists 
through groups like Radio Amateur Civil Emergency Services (RACES), 
which is mobilized by FEMA, and units of the Amateur Radio Emergency 
Service (ARES) which, while organized by ARRL, are usually self-
mobilized at the local level. And finally, Skywarn, usually working 
hand in hand with the National Weather Service to monitor storm 
activity;
    (3) Expertise: where technical capability is demonstrated and 
certified by the FCC licensing system that currently consists of three 
license ``classes'' consisting of an ``entry-level'' license, a mid-
level license and a license demonstrating advanced capabilities. These 
licenses, earned by passing rigorous FCC examinations, require 
considerable electronics and operating knowledge as well as 
understanding of Federal rules and regulations. The ARRL, in fact, 
provides many books, video courses and on-line courses to support not 
only earning a license, but also to teach special aspects of radio, 
such as our new on-line ``emergency communication'' course. And of 
course, extensive shared experience of the various emergency groups 
should not be discounted;
    (4) Creativity: achieved by the experimental and amateur-research 
driven nature of Amateur Radio, where malfunctioning equipment often 
can be repaired in the field because of the radio amateur's knowledge 
of circuitry, and makeshift antennas can be erected on scenes of 
terrible devastation where a standard antenna might not even function;
    (5) National ``Party Line'': while Amateur Radio is, by law, a 
person to person communication service where ``broadcasting'' is 
forbidden, radio frequencies in the Service may be monitored by anyone 
possessing a suitably equipped receiver. This means that amateur 
networks can extend to all borders of the country and beyond borders in 
cases of international crises (hurricanes in the islands, for example). 
Moreover, the ``open'' nature of amateur frequencies, and the fact that 
they are constantly monitored, makes them unsuitable for the sort of 
stealth communication that social misfits such as hackers or even 
terrorists might otherwise be able to use more successfully than 
ordinary telephones. But that same ``open'' quality makes these 
frequencies particularly useful for coordination at a national level 
during large-scale disruptions or disasters.

    PART III. EXISTING AMATEUR RADIO RESOURCES FOR HOMELAND SECURITY
    As chiliastic anxieties faded after the start of the New 
Millennium, they were replaced in many Americans' minds by the 
discovery of authentic threats that could disrupt large segments of our 
society simply by disrupting telecommunications. As the Subcommittee 
examines the complex technical issues arising from this hearing, we 
urge you not to lose track of the national resource of simplicity, 
experience, ubiquity and redundancy offered by Amateur Radio serving at 
no cost to the government and entirely on a volunteer basis.
    As earlier noted, radio amateurs provided emergency communication 
at the scenes of the New York Trade Center and the Pentagon terrorist 
outrages. Also, a number of amateurs have been identified as employed 
in the Internet infrastructure and willing to participate in 
restoration should there be a major collapse of the Internet. They have 
made some notable technical contributions in these matters, want to do 
more and are looking for guidance on how they can help.
    Existing resources of the Amateur Radio Service as coordinated by 
ARRL fall into three categories: monitoring, communicating and 
providing human resources. Information on the full program underlying 
each category can quickly be supplied to the subcommittee by the ARRL.
    (1) Monitoring: resources include formal programs to monitor 
amateur radio bands through the Amateur Auxiliary program with the FCC 
(P.L. 97-259), and also to help with radiolocation through direction 
finding. The monitoring process also takes place on international bands 
through our International Amateur Radio Union Monitoring System;
    (2) Communication: resources include long-range (HF and satellite) 
and short-range (VHF/UHF) communications at our headquarters that 
provide radio amateurs and short wave listeners worldwide with news 
briefs or emergency bulletins. The National Traffic System (NTS) is a 
network that practices relaying messages from amateur station to 
amateur station, and other amateur nets such as the International 
Assistance and Traffic Net (IATN), The Maritime Mobile Net (MMN), The 
Intercontinental Traffic Net (ITN) and the Mobile Emergency and County 
Hunters Net. These nets essentially operate like large open party lines 
on a particular frequency that can be accessed by those in need. There 
is also a large number of data networks using packet and digital modes 
operated by many Amateur Radio emergency groups.
    (3) Human Resources: The Amateur Radio Service has extensive human 
resources capabilities in telecommunications and particularly in radio. 
Some amateurs of military age are already serving. We will continue to 
study how best to match individual Amateur Radio operators to specific 
national needs. Those currently available for voluntary service or 
employment can be identified starting with some ARRL volunteer and 
``field appointment'' data bases.

                       PART V. RECENT INITIATIVES
    Today, the Amateur Radio community is in a State of serious--some 
might even say urgent--contemplation. We are reviewing how our 
longstanding and successful volunteer service might continue to provide 
a high level of communications support in this changing world. We also 
wish to be considered part of new initiatives where it makes sense to 
have a flexible, capable and nearly unbreakable ``national party line'' 
run by experienced and expert volunteer radio operators standing by to 
help out.
    Our own association has already embarked on a number of initiatives 
to sustain the high level of service mentioned above. One such project, 
for example, is a review of the present roles of our short-wave radio 
station W1AW and its bulletins, the National Traffic Service and the 
various Amateur Radio networks we sponsor. Part of that effort will 
also include a review of our procedures for monitoring and reporting 
suspicious on-the-air activities, as well as international aspects of 
Amateur Radio disaster communications.
    We have also been tentatively contacted by certain computer network 
security groups for preliminary discussions on whether or not Amateur 
Radio could be used to help provide supplementary communication to help 
restore an Internet collapse. Moreover, we continue to be available to 
consult with various government and private entities such as the U.S. 
Office of Homeland Security, the FCC, FBI, FEMA, NCS, Red Cross, 
Salvation Army and State and local governments to assess their needs 
for new communications support that could be fulfilled by amateurs.
    In the absence of specific legislation, we currently have no 
specific recommendations for the role of Amateur Radio in the NetGuard 
or any other refinement of our nation's telecommunications system that 
evolves from the work of this committee. We hope that this testimony 
will provide sufficient food for thought that committee members or 
staff will not hesitate to contact our association for any specific 
information necessary to help you be sure that our long-standing and 
successful emergency communication backup remains available to all 
Americans.
    Thank you for your attention, and best of luck considering this 
most difficult topic. The ARRL will be happy to answer any additional 
questions on Amateur Radio and its role in emergency communication.
            Prepared Statement of The United Telecom Council
    The United Telecom Council (UTC) appreciates this opportunity to 
provide a statement for the record to the Subcommittee concerning 
technology issues stemming from the events of September 11, 2001. UTC's 
statement will focus on telecommunications technology needs of the 
Nation's critical infrastructure (CI) industries, which have come into 
sharper focus since the attacks on our society.

                              INTRODUCTION
    Since its inception in 1948, UTC has been the national 
representative for the nation's electric, gas, water and steam 
utilities and natural gas pipelines on telecommunications issues, both 
internal and competitive, and networking issues. Nearly 1,000 such 
entities are direct members of UTC, ranging in size from large 
combination electric-water-gas utilities serving millions of customers, 
to smaller rural electric cooperatives and water districts serving only 
a few thousand customers each.
    Seven national associations are members of UTC, including: the 
American Gas Association, American Public Power Association, American 
Water Works Association, Association of Edison Illuminating Companies, 
Edison Electric Institute, Interstate Natural Gas Association of 
America, and the National Rural Electric Cooperative Association. This 
affiliation extends our reach to virtually every CI company in North 
America.
    As part of our federation mission, UTC spearheads the Critical 
Infrastructure Communications Coalition (CICC). CICC is a policy-
focused group which recognizes the commonality of interests among all 
critical infrastructure industries--energy, water, railroads, petroleum 
and natural gas production, and oil pipelines--in providing and 
maintaining the nation's safe, efficient and reliable delivery of 
essential public services. In addition to the aforementioned 
organizations, CICC enjoys the support of the Association of American 
Railroads, the American Petroleum Institute, the National Association 
of Water Companies, and the Association of Oil Pipe Lines.

                       USE OF TELECOMMUNICATIONS
    While our membership is both broad and diverse, these critical 
infrastructure entities have at least one common need: they rely on 
wireless, broadband and other communications systems that they both own 
and manage--separate and apart from the public telecommunications 
networks--for real-time control of their systems, as well as for repair 
and restoration efforts in emergencies.
    In addition, the energy, water and railroad industries have unique 
operational needs that make consistent and immediate access to spectrum 
a necessity. Disruptions to these industries' communications 
capabilities through sabotage or otherwise threatens public health, 
safety and community stability. The safe and reliable operation of the 
nation's critical infrastructure depends on access to radio spectrum 
and protection of spectrum-based systems from interference and 
disruption. While the private internal radio systems these industries 
maintain may be discrete to their particular company and service 
territories, this does not preclude the operational interdependencies 
of the essential public services they provide.

                          SUBCOMMITTEE ISSUES
    One of the questions posed by the Subcommittee focused on the 
communications services and information technologies that were most 
helpful and effective on September 11 and the aftermath. Interestingly, 
it was the lesser-known and somewhat ``lower-tech'' systems that 
remained in service. While public cellular and personal communications 
service (PCS) networks were overloaded completely, thus rendered 
useless to all users, Consolidated Edison's private land mobile radio 
(PLMR) system remained operational and provided critical communications 
among mobile units immediately after the attacks.
    Most PLMR systems are used primarily for two-way voice and some 
data communications using a combination of heavy-duty mobile (vehicle-
mounted) and portable (hand-held) equipment. Such systems are licensed 
to the critical infrastructure entity and are built and maintained by 
them. It is not unusual that such utility-built systems remain 
operational in times of emergency--they are designed specifically for 
that purpose, since restoration of power (both electrical and natural 
gas) and the safety of water systems are vital needs at such times.
    The Subcommittee asks whether a corps of scientists and 
technologists should be established for emergency purposes. Given the 
rate of technological change, the wide range of possible services to be 
included in such an effort, and the increasing specialization among the 
sciences and technology, establishment of such a corps on an 
independent basis appears overwhelming. However, a series of data bases 
for various purposes related to safety and security might accomplish 
the Subcommittee's goals at a reasonable cost. One data base might 
include experts across the country in various areas of science and 
technology, along with their areas of expertise. In the 
telecommunications field, a data base of CI entities and their systems, 
including coverage area, types of equipment (whether wireless or fiber-
based) and frequencies used, could help to identify sources of 
emergency communications coverage.

        CHALLENGES TO CRITICAL INFRASTRUCTURE TELECOMMUNICATIONS
    An examination of the State of CI communications systems, however, 
would reveal challenges to a nationwide, interoperable emergency 
communications network. CI entities use frequencies across a wide range 
of licensed and unlicensed bands; however, systems are most often found 
in the 150-512 MHz PLMR frequency bands and 800/900 MHz PLMR frequency 
pools. Telemetry systems are often found on the 902-928 MHz and 2.4/5 
GHz unlicensed bands, and many vital control and monitoring systems on 
the 928-959 MHz Multiple Address Service (MAS) bands. Many utilities 
network base stationsites together using microwave links from 2 GHz to 
19 GHz or higher. Each of these bands has a slightly different 
regulatory structure. Importantly, all of these bands are shared with 
non-CI users.

         1. COMMUNICATIONS AND INFORMATION TECHNOLOGY PROBLEMS
Lack of Adequate Spectrum
    In accordance with the 1997 Congressional directive, the Federal 
Communications Commission (FCC) determined in November 2000 that CI 
non-commercial, internal wireless services should be classified as 
``public safety radio services.'' \1\ However, the FCC has not 
identified any spectrum to be made available for such entities, and has 
not made these entities eligible for traditional public safety (i.e., 
police and fire) spectrum. Such an exemption is meaningless without 
access to spectrum. Moreover, the FCC in its Balanced Budget Act (BBA) 
Decision stated that it believes that it retains the authority to 
allocate ``Public Safety'' spectrum according to the former, 
traditional Public Safety definition, which excludes CI. UTC opposed 
this conclusion in general.\2\
---------------------------------------------------------------------------
    \1\ Implementation of Sections 309(j) and 337 of the Communications 
Act of 1934 as Amended, WT Docket No. 99-87, Report and Order and 
Further Notice of Proposed Rulemaking, 15 FCC Rcd 22309 (2000), at 64 
(``BBA decision'').
    \2\ See, e.g., Petition For Reconsideration of the United Telecom 
Council, WT Docket No. 99-87 (filed February 1, 2001), at 6.
---------------------------------------------------------------------------
    Among the most serious communications problems of PLMR users is the 
increasing congestion on various frequency bands, causing harmful 
interference to critical systems and communications. Notwithstanding 
the FCC's public safety radio services determination for critical 
infrastructure, UTC has noted often that adjacent channel interference 
remains a threat to the safe and reliable operation of utilities and 
pipelines. As private wireless spectrum grows more congested, there are 
increasing reports of harmful interference to energy activities, 
including critical power restoration.
Lack of Protected Spectrum
    Additionally, CI has no exclusively allocated or protected spectrum 
for its essential communications functions. Rather, these entities 
share many widely dispersed frequency bands with all private wireless 
users. This means that CI must share access to frequencies critical to 
operational control with such incompatible users as delivery services, 
plumbing dispatch and taxicabs--any business or industry using two-way 
radio or wireless data.
    This situation is not exclusive to voice communications, but also 
is relevant to the 900 MHz bands used for wireless control systems. 
Instances of interference severe enough to require equipment 
modifications, or dialog with users generating interference, are 
frequent. In urban areas and adjacent communities, CI competes with 
paging services, financial systems, security systems, and other users 
and finds itself constrained by available resources and the absence of 
unoccupied spectrum in the MAS band.

         2. UNIQUE CHARACTERISTICS OF PRIVATE WIRELESS SYSTEMS
    The need for reliable production and transmission led CI to become 
some of the first users of wireless telecommunications some 50 years 
ago. Utilities now rely heavily on radio communications systems that 
they must own and operate themselves to ensure that they meet their 
needs at all times. Because CI considers the reliable--both constant 
and consistent--provision of power and water as its primary mission, CI 
by its very nature, operated the most helpful and effective 
communications systems available during the early aftermath of the 
September 11, 2001 tragedy.
    Though a catastrophic event such as that of September 11, 2001 is 
not a normally contemplated contingency, CI systems are designed to 
withstand severe communications challenges. Therefore, CI entities 
cannot rely on commercial service providers to meet their unique and 
varied needs. For instance, control of the communications system is 
very critical during heavy storms and other serious weather events. In 
these situations, commercial systems become saturated with traffic or 
even weather-damaged, and, as a result, experience outages. Thus, 
discussions of priority access for public safety or CI do not offer a 
realistic solution. Nor do commercial networks, built to provide 
service to the largest concentrations of population, provide the 
complete coverage that utilities must have to restore critical services 
anywhere within their service areas.
    In contrast, private communications networks ensure that utility 
systems are brought back on line in the most timely manner possible; 
for example, power utility wireless systems are often located at or 
near electrical substations, and thus can remain ``on the air'' when 
commercial, and even traditional public safety, systems fail.

     3. PROPOSED PRIVATE SECTOR CORPS OF SCIENTIST AND INFORMATION 
                              SPECIALISTS
    In reference to the proposed corps of scientists and information 
specialists, UTC suggests that part of the Federal Government's effort 
should be, in concert with industry, compilation of an up-to-date data 
base on the locations, frequencies and types of equipment used in 
critical infrastructure internal telecommunications systems. CI also 
needs a small, exclusive spectrum allocation that would be protected 
and uniform across the country, allowing for introduction of advanced 
technology, interoperability among systems and greater productivity in 
times of national or natural disaster.
    The Subcommittee should be aware that utilities and other CI 
entities across the country are currently engaged in analyses of their 
vulnerabilities, including those of internal communications systems. 
UTC's Homeland Security Task Force is aiding our members in this 
process. Much of the discussion of vulnerabilities of CI have centered 
mostly on the potential destruction or damage to the physical 
infrastructure itself. However, physical damage or plant infiltration 
would not be necessary should the communications networks that control 
and maintain that physical plant be disabled.
    The events of September 11 have brought an entirely new focus to 
efforts to provide adequate protection of these vital communications 
networks. UTC formed its Homeland Security Task Force to address this 
issue. Our efforts are aimed at providing a source of additional 
information for ALL CI organizations relating to the security of their 
communications systems and the potential role of those communications 
systems in homeland security. One of the task force's first projects 
has been the development of a CI communications security audit 
checklist, so that our members may conduct an internal analysis of 
their operations to determine what additional protection measures are 
needed.
    Communications networks form the backbone of all CI industries in 
this country, including railroads, electric and gas utilities, gas and 
oil pipelines, energy production and water systems. Thus, the 
vulnerabilities of one radio system would be common to all the CI 
industries. An attack on one could easily be translated into an attack 
on all others. Deregulation and the continued growth in demand for 
reliable critical infrastructure service will inevitably result in 
increased dependence on the spectrum-based systems. Therefore, we would 
recommend that a data base of CI communications networks should range 
across all critical infrastructure industries.
    Finally, one important point is worth immediate note. The National 
Telecommunications and Information Administration (NTIA) is now 
completing a congressionally mandated study of radio spectrum use by 
critical infrastructure entities. The study report is due to be 
submitted to Congress in late December. This report and its 
recommendations will be crucial to the future safety and security of 
the nation's energy, water and transportation infrastructure. While the 
study was undertaken as a result of legislation passed by Congress last 
year, it now takes on increased significance given the events of 
September 11 and the Executive Order on Critical Infrastructure 
Protection in the Information Age, signed by President Bush on October 
16, 2001. UTC looks forward to discussing the study and its 
recommendations with the Subcommittee as part of its important work in 
this area.
    UTC appreciates the opportunity to provide this statement to the 
Subcommittee on Science, Technology, and Space. We would be pleased to 
provide any additional material that the Subcommittee may require for 
its deliberations.
  

                                  <all>

</pre></body></html>
